)

r

■l*

No. 19A-108

<3I« i\\t
upturn* Court of ftp ptntirh $fafrs
Mark Thompson
(Petitioner,
v.

Board of Education City of Chicago, et al.
(Respondents.

On Petition for A Writ of Certiorari to the United States
Court ofAppeals for the Seventh Circuit

IJeftfinn for

JBffrtf af ffleriinrari

SEPARATE APPENDIX

A

SEPARATE APPENDIX A
Table of Contents
Seventh Circuit Order Dismissing Petitioner’s Appeal
Seventh Circuit Order for Sanctions
Seventh Circuit Sanction Order for $21,350 and Filing Bar
Seventh Circuit Petition for Rehearing En Banc Denied
Seventh Circuit Plaintiff-Appellant's Brief (without Appendix)
U.S. District N. District Illinois Amended Memorandum and Opinion 3/22/18
Email Exchange between Petitioner and his CTU Attorney (April 8-10, 2020)
U.S. District N. District Illinois TRANSCRIPTS ll-cv-1712, May 17, 2013

A001-006
A007
A008-A009
AO 10
A011-A64
A65-A82
A83
.A84-A111

Illinois School Code Section 51.10 Definitions

A113

Illinois School Code Section 51.35 Suspension without Pay,

,A114

In The Matter of the Charges Preferred Against Erika Stevens

A115-A144

105 ILCS 5/34-85 (from Ch. 122, par. 34-85)

A145-A148

Cas- 18-1658 N0flfflg%g&TIAL

Pages: 6

To be cited only in accordance with Fed. R. App. P. 32.1

L-

Untteh plates Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
Submitted October 23, 2019’
Decided October 24, 2019
Before
WILLIAM J. BAUER, Circuit Judge
MICHAEL S. KANNE, Circuit Judge
DAVID F. HAMILTON, Circuit Judge
No. 18-1658
MARK THOMPSON,
Plaintiff-Appellant,

Appeal from the United States District
Court for the Northern District of Illinois,
Eastern Division.

v.
No. 14 C 6340
BOARD OF EDUCATION OF THE
CITY OF CHICAGO, et al„
Defendants-Appellees.

John Z. Lee,

Judge.
ORDER

Mark Thompson is an African-American teacher and coach who worked for the
Chicago Public Schools ("CPS") for ten years. He has brought, and lost, seven lawsuits
in state and federal courts challenging his dismissal from CPS. In this case, he raises

’ We have agreed to decide the case without oral argument because the briefs and
record adequately present the facts and legal arguments, and oral argument would not
significantly aid the court. Fed. R. App. P. 34(a)(2)(C).

A-001

Case: 18-1658

Document: 59

Filed: 10/24/2019

Pages: 6

t. -

No. 18-1658

Page 2

allegations that resemble those he has litigated before. The district court dismissed
Thompson's complaint on grounds of res judicata and absolute immunity. We affirm.
We take Thompson's well-pleaded allegations as true. See Luevano v. Wal-Mart
Stores, Inc., 722 F.3d 1014,1027 (7th Cir. 2013). In 2010, Thompson first sued the Board of
Education of the City of Chicago ("Board") and Board employees over his suspension
and termination from teaching positions at a CPS high school. The district court entered
summary judgment for the defendants but allowed Thompson to proceed on one
claim—that he had been suspended in retaliation for filing EEOC complaints. Thompson
v. Bd. ofEduc., No. 11 C 1712, 2014 WL 1322958, at *5, 9 (N.D. Ill. Apr. 2, 2014).
Thompson settled that claim in 2015.
Thompson contends that defendants then retaliated against him for that lawsuit.
First, Thompson asserts, the Board solicited a former athlete of his, identified as Jane
Doe, to accuse him of rape as part of a conspiracy to have his employment terminated.
Doe then told her therapist, Dr. Welke, that Thompson had raped her when she was 17,
and, according to Thompson, the Board solicited Dr. Welke to report Doe's false rape
allegation to the Illinois Department of Children and Family Services. After an
investigation, the Department determined that the rape allegation was "unfounded,"
but the Board nevertheless persisted in investigating Thompson based on Doe's
allegations.
Then, in Thompson's view, the Board concocted a plan to have his principal
evaluate his performance in May 2012 as "unsatisfactory," as pretext to fire him in
retaliation for filing his lawsuit. Thompson was removed from the classroom the
following month and suspended without pay three months later, pending a dismissal
hearing by the Illinois School Board of Education ("ISBE"). The Board turned over its
investigatory files to Thompson in February 2013 but, according to Thompson, the files
were incomplete, fabricated, and altered. In August 2013, Thompson was dismissed
from his employment with CPS for budgetary reasons.
Thompson then brought three state suits, which served as the basis for the
district court's res judicata determinations in the present case. In his first state suit, filed
in late 2013 (Thompson I), Thompson sued the Board, several Board employees, Jane
Doe, and her mother for twelve state-law tort and statutory violations related to the Doe
investigation. The state court dismissed those claims with prejudice, most for failure to
state a claim. The court also denied, on untimeliness grounds, Thompson's motion to

A-002

Case: 18-1658

Document: 59

Filed: 10/24/2019

Pages: 6

t.

No. 18-1658

Page 3

add a Title VII claim that, it believed, would unduly prejudice the defendants. Thompson
v. Bd. ofEduc. Tp. High Sch. Dist. 113, No. 13 L 879 (Ill. Cir. Ct. Jan. 23, 2015).
In late 2013, Thompson filed his second state suit (Thompson II) — a declaratory
action for Doe's mental health records—against Doe, Dr. Welke, and Northshore
University Health System (the keeper of Doe's mental health records). He alleged that
Dr. Welke improperly reported Doe's false claim of rape, and that CPS and Board
employees concealed Doe's allegations from him, and he asked the court to compel the
defendants to turn over Doe's mental health records. The court dismissed the complaint
on grounds that Doe had not introduced her mental health in the dismissal hearing, and
so Thompson had no legal interest in her psychiatric records. Thompson v. Welke,
No. 2013 CH 26625 (Ill. Cir. Ct. Aug. 19, 2014).
In 2014, Thompson filed his third state-court suit (Thompson III), a convoluted
action asserting equal-protection and abuse-of-process claims. He alleged that the
defendants lacked authority to proceed with an ISBE dismissal hearing to determine his
entitlement to back pay because he no longer was employed by the defendants. He
sought to enjoin the hearing, which, he maintained, was an inappropriate vehicle to
determine back pay for a former employee. The state court dismissed the complaint for
failure to exhaust administrative remedies and for failure to state a claim. Thompson v.
Bd. ofEduc., No. 14 CH 15697 (Ill. Cir. Ct. Feb. 25, 2014).
In the meantime, in mid-2014, Thompson filed this sprawling 12-count lawsuit in
the Northern District of Illinois. This suit soon was consolidated with two other cases he
had brought in federal court. The consolidated suit reprised claims arising from Doe's
rape allegation and the corresponding investigation, Thompson's unsatisfactory
evaluation and eventual discharge, and the dismissal hearing. Thompson amended the
complaint to include 23 counts, and the court stayed discovery pending the resolution
of Thompson's three state cases, all of which then were on appeal.
The Illinois Appellate Court eventually affirmed the dismissal of each of
Thompson's state cases with prejudice, see Thompson v. Bd. OfEduc. Tp. High Sch. Dist.
113, 2016 IL App. (2d) 150226-U, 2; Thompson v. N.J., 2016 IL App. (1st) 142918, J 3;
Thompson v. Bd. ofEduc., 2016 IL App. (1st) 150689-U, 1 2. In each case the Illinois
Supreme Court denied Thompson leave to appeal. See Thompson v. Bd. ofEduc. Tp. High
Sch. Dist. 113, 60 N.E.3d 883 (Ill. 2016); Thompson v. N.J., 60 N.E.3d 883 (Ill. 2016);
Thompson v. Bd. ofEduc., 60 N.E.3d 883 (Ill. 2016).

A-003

Case: 18-1658

Document: 59

Filed: 10/24/2019

Pages: 6

t.

No. 18-1658

Page 4

After final decisions were rendered in Thompson I, II, and III, the defendants here
moved to dismiss Thompson's amended complaint arguing principally that the claims
were barred by res judicata. The district court agreed, concluding that the final
judgments on the merits in Thompson's state cases precluded subsequent actions
between the same parties or their privies arising from the same nucleus of operative
facts. The court found that Thompson's federal suit involved the same parties, and
emerged from the same nucleus of operative facts, as his three state court actions. The
court amended its original order, dismissing all remaining counts on res judicata
grounds, except for one lingering count against the ISBE hearing officer—a count that
the district court eventually dismissed on absolute immunity grounds because the
officer had performed a judicial function at the hearing.
On appeal, Thompson first argues that the district court erred by failing to
construe the facts in the light most favorable to him. See Luevano, 722 F.3d at 1027. In so
doing, he urges, the district court deliberately ignored one of his Title VII retaliation
claims—that he was discharged based on the principal's unsatisfactory evaluation,
which he regards as pretextual, fabricated in retaliation for bringing his first suit.
Thompson misapprehends the court's order. Contrary to Thompson's
contention, that order fairly captures the facts underlying his retaliation claim. The
court noted, for instance, Thompson's allegation that his unsatisfactory evaluation was
"pretext to terminate his employment in order to conceal the Board's retaliatory
motive." Thompson v. Bd. ofEduc., No. 14 C 6340, 2018 WL 1441108, at *2 (N.D. Ill. Mar.
22, 2018). And it summarized Thompson's claims as arising from the following
operative facts: "the purportedly improper conduct of the Defendants relating to
Thompson's suspension, the investigation into Doe's allegations, the ISBE proceedings,
and his eventual dismissal." Id. at *6.
Thompson then argues that the district court erred in dismissing the Title VII
claim based on res judicata grounds. He contends that he has not had a full and fair
opportunity to have that claim heard because the judge in Thompson I barred it as
untimely.
Res judicata, however, bars not only claims actually decided in a prior suit, but
also all other claims that could have been brought in that suit. Aaron v. Mahl, 550 F.3d
659, 664 (7th Cir. 2008). The operative complaint in Thompson 1 was filed in January
2014, and by the end of 2013 Thompson knew all the facts underlying his retaliation
claim. By that time, he had received an unsatisfactory evaluation in May 2012, was

A-004

Case: 18-1658

No. 18-1658

Document: 59

Filed: 10/24/2019

Pages: 6

Page 5

dismissed in August 2013, and had discovered the unsatisfactory evaluation that was
the basis for his dismissal in October 2013. Instead of amending his Thompson 1
complaint, he waited to request leave to amend his complaint until nearly the eve of the
date when the state court said it would rule on dispositive motions. The Illinois
Appellate Court reasonably found that the Thompson 1 judge did not abuse his
discretion in denying Thompson leave to add his Title VII claim "[g]iven the lack of
timeliness, the delay in filing the motion [to amend] . . ., and that [he] did not appraise
the parties and the court of what the proposed amendment entailed." 2016 IL App (2d)
150226-U at t 79.
Next, Thompson argues that because there never has been a final decision in the
December 2013 dismissal hearing, that hearing must be ongoing and constitute a
"continuing or recurrent wrong" that is not barred by res judicata. Hayes v. City of
Chicago, 670 F.3d 810, 815 (7th Cir. 2012) (quoting Rein v. David A. Noyes & Co., 172 Ill. 2d
325, 341 (1996)). Thompson insists that the Board, through this ongoing and wrongful
hearing, continues to use fabricated evidence and refuses to turn over investigatory
documents related to Doe's false sexual assault charges and the unsatisfactory
evaluation. But given Thompson's discharge in August 2013 and his hearing on that
discharge in December 2013, we agree with the district court that any harm which
Thompson imputes to the Doe investigation, the hearings, or his dismissal is the
"lingering effect of an earlier violation," not a continuing wrong. Pitts v. City of
Kankakee, 267 F.3d 592, 595 (7th Cir. 2001).
Finally, Thompson argues that the district court erred in concluding that ISBE
Hearing Officer Nielsen was absolutely immune from his due process claim. But
Nielsen was performing a judicial function at the hearing, so absolute immunity shields
him "from liability for civil damages." Killinger v. Johnson, 389 F.3d 765, 770 (7th Cir.
2004).
A final matter remains: Doe moved for sanctions under Rule 38 of the Federal
Rules of Appellate Procedure, asserting that Thompson's arguments towards her are
wholly without merit. See Harris N.A. v. Hershey, 711 F.3d 794, 801-02 (7th Cir. 2013).
Sanctions are indeed warranted because Thompson's claims against Doe are plainly
blocked by res judicata, and he "has not offered a reasonable and good faith argument
to avoid affirmance." CFE Group, LLC v. Firstmerit Bank, N.A., 809 F.3d 346, 353 (7th Cir.
2015). Thompson already had been warned by the district court that "the validity of his
suspension relating to Doe's accusations was litigated" in his very first case in 2010.
And he brought functionally equivalent claims for Doe's records in Thompson II, which

A-005

Cs.se: 18-1658

Document: 59

Filed: 10/24/2019

Pages: 6

i -

No. 18-1658

Page 6

were dismissed with prejudice. Yet Thompson has persisted in litigating his claims
against Doe, arguing with little elaboration that those claims somehow relate to his
retaliation claims against the Board. We have concluded that similar "conduct flaunts
the principles of comity and federalism" and warrants sanctions. See id. at 354. Thus,
Doe's motion is GRANTED, and she may file, within 14 days of this order, a statement
of the attorneys' fees and other expenses reasonably incurred in defending this appeal.
Thompson shall file any response no later than 21 days after Doe files her statement.
We have considered Thompson's remaining arguments, and none have merit.
AFFIRMED

A-006

Case: 18-1658

Document: 60

Filed: 10/24/2019

Pages: 1

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Everett McKinley Dirksen United States Courthouse

Office of the Clerk

Room 2722 - 219 S. Dearborn Street

Rhone: (312) 435-5850
www.ca7.uscourts.gov

Chicago, Illinois 60604

FINAL JUDGMENT
October 24, 2019

Before:

WILLIAM J. BAUER, Circuit Judge
MICHAEL S. KANNE, Circuit Judge
DAVID F. HAMILTON, Circuit Judge
MARK THOMPSON,
Plaintiff - Appellant

No. 18-1658

v.

BOARD OF EDUCATION OF THE CITY OF CHICAGO, et al.,
Defendants - Appellees
- -* .
OngmatingCase’Information:
Au
f;v. 2CAB -- "■ A * . District Court No: l:14-cv-06340
Northern District of Illinois, Eastern Division
District judge John Z. Lee

The judgment of the District Court is AFFIRMED, with costs.
Doe moved for sanctions under Rule 38 of the Federal Rules of Appellate Procedure,
Sanctions are indeed warranted. Doe's motion is GRANTED, and she may file, within
14 days of this order, a statement of the attorneys' fees and other expenses reasonably
incurred in defending this appeal. Thompson shall file any response no later than 21
days after Doe files her statement. The above is in accordance with the decision of this
court entered on this date.

form name: c7_FinalJudgment(form ID: 132)

A-007

Case: 18-1658

Document: 72

Filed: 02/28/2020

Pages: 2

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Everett McKinley Dirksen United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

SANCTION ORDER
February 28, 2020
Before:
WILLIAM J. BAUER, Circuit Judge
MICHAEL S. KANNE, Circuit Judge
DAVID F. HAMILTON, Circuit Judge

MARK THOMPSON,
Plaintiff - Appellant
No. 18-1658

v.
BOARD OF EDUCATION OF THE CITY OF CHICAGO, et al
Defendants - Appellees

Oricnnatincr Pasp Trifnrmalinn

Originating Case Information:

'

,

' ''

‘ UV

U ‘k "• /

i,U

District Court No: l:14-cv-06340
Northern District of Illinois, Eastern Division
District Judge John Z. Lee
The following is before the Court: THIRD DECLARATION OF CHRISTOPHER A. GARCIA
IN COMPLIANCE WITH THIS HONORABLE COURT'S ORDER OF JANUARY 21, 2020,
filed on February 12, 2020, by counsel for appellee Jane Doe.
On January 21, 2020, this court ordered appellant Mark Thompson to reimburse appellee Jane
Doe $21,350 as compensation for the costs of his frivolous appeal. We ordered Thompson to
pay the sanction to Doe by February 11, 2020, but her attorney informs the court that no
payment has been made.

A-008

Case: 18-1658

Document: 72

No. 18-1658

Filed: 02/28/2020

Pages: 2

P age 2

Unless and until Mark Thompson demonstrates that he has paid this sanction, the clerks of all
federal courts in this circuit are directed to return unfiled any papers submitted either directly
or indirectly by him or on his behalf. See In re: City of Chi., 500 F.3d 582, 585-86 (7th Cir. 2007);
Support Sys. Int'l, Inc. v. Mack, 45 F.3d 185, 186 (7th Cir. 1995) (per curiam). In accordance with
our decision in Mack, exceptions to this filing bar are made for criminal cases and for
applications for writs of habeas corpus. See Mack, 45 F.3d at 186-87. This order will be lifted
immediately once Thompson makes full payment. See City of Chi., 500 F.3d at 585-86. If
Thompson, despite his best efforts, is unable to pay in full his outstanding sanction, no earlier
than two years from the date of this order he is authorized to submit to this court a motion to
modify or rescind this order. See id.; Mack, 45 F.3d at 186.

form name: c7_Order_Sanction(form ID: 173)

A-009

Case: 18-1658

Document: 63

Filed: 11/25/2019

Pages: 1

3llntlci> jsfetcs (ttiutrt of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
November 25, 2019
Before
WILLIAM J. BAUER, Circuit Judge
MICHAEL S. KANNE, Circuit Judge
DAVID F. HAMILTON, Circuit Judge
No. 18-1658
MARK THOMPSON,
Plaintiff-Appellant,

Appeal from the United States District
Court for the Northern District of Illinois,
Eastern Division.

v.
No. 14 C 6340
BOARD OF EDUCATION OF THE
CITY OF CHICAGO, et al,
Defendants-Appellees.

John Z. Lee,
Judge.
ORDER

On consideration of the petition for rehearing en banc filed by pro se Appellant,
Mark Thompson, on November 7, 2019, no judge in active service has requested a vote
on the petition for rehearing en banc and all members of the original panel have voted to
deny rehearing. It is, therefore, ORDERED that rehearing and rehearing en banc are
DENIED.

A-010

Case: 18-1658

Document: 24

Filed: 11/05/2018

Pages: 75

No. 18-1658

UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
MARK THOMPSON
Plaintiff-Appellant-Cross-Appellee
v.
BOARD OF EDUCATION CITY OF CHICAGO, ILLINOIS STATE BOARD OF
EDUCATION, NORTHSHORE UNIVERSITY HEALTHSYSTEM, HAROLD ARDELL,
LINDA BROWN, FORREST CLAYPOOL, JANE DOE, JANE DOE’S MOTHER,
REGINALD EVANS, THOMAS KRIEGER, DAN NIELSEN, JAMES SULLIVAN, and
ALICIA WINCKLER,
Defendants-Appellees
v.
Claudia P. Welke
Defendant-Appellee-Cross Appellant
Appeal From The United States District Court
For the U.S. District Court for the Northern District of Illinois, Eastern Division
Case No. 14-cv-6340 .
The Honorable Judge John Z. Lee

BRIEF OF PLAINTIFF-APPELLANT-CROSS-APPELLEE
MARK THOMPSON
Mark Thompson, pro se
Plaintiff-Appellant-Cross-Appellee
P.O. Box 8878
Champaign, IL 61826
(217)480-6256

ORAL ARGUMENT REQUESTED

A-011

Case: 18-1658

Document: 24

Filed: 11/05/2018

Pages: 75

TABLE OF CONTENTS
TABLE OF AUTHORITIES

m

JURISDICTIONAL STATEMENT

1

INTRODUCTION

2

ISSUES PRESENTED FOR REVIEW

3

PROCEDURAL HISTORY OF PLAINTIFF’S LAWSUITS AND NOTES

4

STATEMENT OF FACTS

8

STANDARD OF REVIEW

13

SUMMARY OF THE ARGUMENT

14

ARGUMENT

15

I.

The District Court Erroneously Dismissed Count VIII through Res Judicata after the
Board Never Argued Count VIII was Subject to Res Judicata....................................

15

II.

The District Court Improperly Added and Relied Upon Disputable Statements or Ignored
Pleadings to Prematurely Dismiss Thompson’s Lawsuit
17

III.

The District Court Erred in Dismissing Thompson’s Lawsuit as to Other Counts

IV.

The District Court Erred in Ruling that Thompson’s Personnel File Issues in Count VIII
are not Related to Doe’s Mental Health Records for In-camera Review
41

V.

Whether or Not it is Relevant to this Appeal the District Court Judge Avoided Potential
Disqualification Under 28 U.S. Code § 455(b)(2) by Dismissing It................................ 44

VI.

The District Court’s Amended Memorandum Opinion and Order’s False Statements
Outlined in Arguments I and II Warrant a New Judge Under Circuit Rule 36...........

38

45

CONCLUSION

46

CERTIFICATE OF COMPLIANCE WITH F.R.A.P. RULE 32(a)(7)

47

CIRCUIT RULE 30(d) STATEMENT

48

CERTIFICATE OF SERVICE

49

SEPARATE APPENDIX

A

A-012

Case: 18-1658

Document: 24

Filed: 11/05/2018

Pages: 75

TABLE OF AUTHORITIES
CASES

Page(s)

Alexander v. Gardner-Denver, 415 U.S. 36 (1974)

20,21,22,31

Allen v. McCurry, 449 U.S. 90, 101 S.Ct. 411, 66 L.Ed.2d 308 (1980)

22

Angles v. Dollar Tree Stores, Inc., 494 F. App’x 326, 331 n.10 (4th Cir. 2012)

22

Bio-Medical Laboratories, Inc. v. Trainor, 68 Ill. 2d 540 (1977)

36

Carroll Olson v. Gerald W. Hart, Judge, 965 F.2d 940 (10th Cir. 1992)

37

County of Knox ex rel. Masterson v. The Highlands, L.L.C., 302 Ill. App. 3d 342 (1998)

25

Creek v. Village ofWesthaven, No. 95-1465 (7th Cir. 1996)............................................

28

Department of Revenue v. Civil Service Comm'n, 357 Ill.App.3d 352 (2005)

39

Dookeran v. County of Cook, 719 F.3d 570, 575 (7th Cir. 2013)

16

Fischer v. First Chicago Capital Markets, Inc., 195 F.3d 279 (7th Cir. 1999)

13

Floroui v. Gonzales, 481 F.3d 970 (7th Cir. 2007)........................................

45

General Electric Cap. Corp. v. Lease Resolution Corp., 128 F.3d 1074, 1081 (7th Cir. 1997)... 17
Haring v. Prosise, 462 U.S. 306, 313, 103 S.Ct. 2368, 2373, 76 L.Ed.2d 595 (1983)

22

Hennessy v. PenrilDatacomm Networks, Inc., 69 F.3d 1344, 1354 (7th Cir.1995)

17

Holloway v. Lockhart, 813 F.2d 874 at 878 (811' Cir. 1997)...................................

17

Huon v. Johnson & Bell, Ltd., 657 F. 3d 641 (7th Cir. 2011)

41

Jones v. City ofAlton, III, 757 F. 2d 878 (7th Cir. 1985)......

21,22

Julie Q. v. Department of Children & Family Services, IL App (2d) 100643 (2011)
Kremer v. Chemical Construction Corp., 456 U.S. 461,470 n.7 (1982)

39
22, 29

LaSalle National Bankv. County of DuPage, 856 F.2d 925, 931-33 (7th Cir. 1988)

28

Lawlor v. Nat 7 Screen Serv. Corp., 349 U.S. 322, 328 (1955)

30

ii

A-013

Case: 18-1658

Document: 24

Filed: 11/05/2018

Pages: 75

Marshall Covington v. Illinois Security Service, Incorporated, 269 F.3d 863 (7th Ch\ 2001).... 13
McDonnell Douglas Corp. v. Green, 411 U.S. 792, 798-99 (1973)

21,22

Millennium Park Venture, LLC, v.5\ Houlihan, No. 108923, (Ill. 2010)

26

Newkirk v. Bigard, 485 N.E.2d 321, 324 (Ill. 1985)

36

Pennsylvania v. Ritchie, 480 U.S. 39 (1987)

43

People v. Escareno, 2013 IL App (3d) 110152

43

People v. K.S., 387 Ill. App. 3d 570, 573-74 (2008)

42

Prestwick Capital Mgmt., Ltd. v. Peregrine Fin. Grp., Inc., 121 F.3d 646, 664 (7th Cir. 2013).. 13
Pulliam v. Allen, 466 U.S. 522 (1984)

37

Reger Dev., LLC v. National City Bank, 592 F.3d 759, 763 (7th Cir. 2010)

13

R.L. Polk & Co. v. Ryan, 296 Ill.App.3d 132, 141, 230 Ill.Dec. 749, 694 N.E.2d 1027 (1998)...36
Rasmussen v. City of Lake Forest, 848 F. Supp. 2d 864, 869 (N.D. Ill. 2012)
Rein v. David A. Noyes & Co.\ 665 N.E.2d 1199, 1207 (Ill. 1996)

30
16, 28

Senn Park Nursing Center v. Miller, 104 Ill. 2d 169 (1984)

36

Sherrod v. Lingle, 223 F.3d 605, 610 (7th Cir. 2000)

13

Thompson v. Ortiz, Case #15-1122 (7th Cir. 2015)....

6

University of Tennessee v. Elliott, 478 U.S. 788, 795-96 (1986)
Venturella v. Dreyfuss, 84 N.E.3d 386, 394-95 (Ill. App. Ct. 2017)

29,30
21

STATUTES
28 U.S.C. § 455(b)(2)

44

28 U.S.C. § 1291

1

42 U.S.C § 1983

31, 36, 37, 38

42 U.S.C. § 2000e

20

iii

A-014

Case: 18-1658

Document: 24

Filed: 11/05/2018

Pages: 75

105 ILCS 5/34-85 (ISBE Dismissal Hearing Statute for Board Employees)
325 ILCS 5 (Child Reporting Act)

29, 30, 35, 36, 39
35,38, 39

740 ILCS 110/10(d)

5

820 ILCS 40 et seq. (Illinois Personnel Record Review Act)

10, 15, 16,35,39,41,43

OTHER AUTHORITIES
Circuit Rule 36

1

Illinois Supreme Court Rule 304(a)

32

Federal Rules of Civil Procedure 12(b)

13

Federal Rules of Civil Procedure 26(b)(1)

42

Rooker-Feldman Doctrine

6

iv

A-015

Case: 18-1658

Document: 24

Filed: 11/05/2018

Pages: 75

JURISDICTIONAL STATEMENT
28 U.S.C. § 1291 confers jurisdiction over this appeal on the United States Court of
Appeals for the Seventh Circuit. The Plaintiff-Appellant-Cross Appellee (“Thompson”) seeks
review from the district court’s final Amended Memorandum and Opinion Order (“AMOO”)
entered on March 22, 2018 and other interlocutory orders during the course of the lawsuit.
Thompson also seeks a new judge under Circuit Rule 36 for lack of partiality for manipulating or
ignoring the facts of the case. Thompson’s Notice of Appeal was timely filed on March 22, 2018.

1

A-016

Case: 18-1658

Document: 24

Filed: 11/05/2018

Pages: 75

INTRODUCTION
The Board was recently exposed in a Chicago Tribune series called “Betrayed. Chicago
schools fail to protect students fi'om sexual abuse and assault, leaving lasting damage. ” The
articles cite Board officials failing to follow the law to protect students who alleged sexual abuse
against employees. What was not revealed is a cover-up of how when Thompson filed a federal
lawsuit against the Board in 2011, officials solicited Jane Doe (“Doe”), a suicidal-prone recipient
of mental health services and admitted liar whom Thompson once coached, to falsely claim he
once sexually assaulted her in 2010. But appeals in this case have advanced again to this court
because obtaining relief in Chicago, labeled the most corrupt city in the U.S., has not been about
the law - but whom you know. But any ugly trend of suspicious timing rape claims based on
some mysterious date and time from the past isn’t limited to black teachers who file lawsuits;
they stretch to reputable Supreme Court nominees as well, regardless of skin color. But the
difference here is that relevant exculpatory evidence exists in the discovery of Doe’s mental
health records that is currently inaccessible through judicial “case-fixing.” Given the publicly
found connections between Board officials and judges who have presided over Thompson’s
previous cases, he has every reason to doubt his constitutional rights will ever be upheld.
Suspect case-fixing began with 13-CH-26625, where Thompson was denied relevant
access to Doe’s mental health records on her false rape claim to therapists, despite a hearing
officer’s ruling they were relevant. But whether suspect case-fixing continues in the instant case,
Thompson’s knows that until his dismissal hearing is ruled ab initio, Doe’s sworn testimony can
be used to compel the Department of Child and Family Services (“DCFS”) to reopen his
“Unfounded” report from June 2011 - where DCFS would have legal access to Doe’s mental
health records and be required to turn over relevant documents to Thompson upon reclosure.

2

A-017

Case: 18-1658

Document: 24

Filed: 11/05/2018

Pages: 75

ISSUES PRESENTED FOR REVIEW
1.

Whether or not a judge can dismiss a claim through res judicata after the defendant

failed to contest the claim as subject to res judicata in any motion to dismiss.
2.

Whether or not the district court’s addition of disputable false and misleading

statements and omitting of pleadings was prejudicial in dismissing Thompson’s lawsuit,
including two unheard Title VII claims.
3.

Whether or not the district court erred in dismissing Thompson’s lawsuit without

allowing a full and fair opportunity to have his Title VII and related claims heard, including a
Title VII claim that still continues today.
4.

Whether or not an Illinois State Board of Education (“ISBE”) dismissal hearing officer

acted in excess of his jurisdiction by commencing a dismissal hearing against Thompson related
to false sexual assault charges previously indicated as “Unfounded” by DCFS, as opposed to
conducting a back pay hearing since the Board already discharged Thompson unrelated to the
dismissal hearing charges via an “Unsatisfactory” evaluation.
5.

Whether or not the district court improperly dismissed other counts based on pleading

standards prior to approving Thompson’s Second Amended Complaint (“SAC”).
6.

Whether on not Thompson’s personnel file via the investigative file has enough

information to where it warrants an in-camera review of Doe’s mental health records.
7.

Whether or not the district court’s AMOO is so prejudicial to the Plaintiff that it

warrants a new judge under Rule 36.

3

A-018

Case: 18-1658

Document: 24

Filed: 11/05/2018

Pages: 75

PROCEDURAL HISTORY OF PLAINTIFF’S LAWSUITS AND NOTES
1.

ll-cv-1712. December 20, 2010 - March 15, 2015. Cook County. Originally filed

as 10-L-14372 before removal to federal court on March 11, 2011. The Board settled this case
after Thompson successfully created a triable issue of fact relating to the Board retaliating against
him after he filed an Equal Employment Opportunity Commission (“EEOC”) charge against the
Board.
2.

13-L-879. November 21, 2013 - February 5, 2015. Lake County. Against

defendants Board, Doe, and et al. The operating Verified SAC was filed on January 29, 2014. The
circuit court proceeded to dismiss all but one of Thompson’s claims largely based on the Illinois
Government Tort Immunity Act, despite well-established case law the Tort Immunity Act does
not apply to statutory violations. Thompson noted the presiding judge, Jorge L. Ortiz personally
knew Jesse H. Ruiz1 through the Hispanic Lawyers Association of Illinois (“HLAI”). Thompson
noted the 2nd Appellate court ruling, presided by Judge Michael J. Burke, was rendered in only
three months after it was fully briefed - mostly copied and pasted from defendant Board’s brief
and ignored Thompson’s arguments.2 However, this case cannot be used for res judicata purposes
because the Board continued the Lake County conduct into dismissal hearing charges in Cook
County after the Lake County case was filed and argued to claim-split a related Title VII claim.
The Board fought this case and 1 l-cv-1712 in federal court simultaneously over a year without
raising res judicata in either case.
3.

13-CH-26625. December 2, 2013 - August 19, 2014. Cook County. Against

defendants Doe and Dr. Claudia P. Welke (“Welke”). Before the Board continued 13-L-879
claims into formal dismissal charges via an ISBE dismissal hearing in Cook County, Thompson
Jesse H. Ruiz was the interim Board president or the Vice-President at relevant times while these
lawsuits were filed against the Board.
2 It should be noted that the 2nd Appellate court ruled Doe waived her mental health confidentiality rights.
4

A-019

Case: 18-1658

Document: 24

Filed: 11/05/2018

Pages: 75

sought declaratory judgment and other relief related to Doe’s mental health records after the
hearing officer indicated in pre-hearing matters they were relevant to the Board’s charges since
they relied upon therapist statements and Doe’s previously signed waiver. But the presiding
judge, Franklin U. Valderrama, stated the case did “not bring Doe’s mental health at issue”
despite the Board already admitting their investigation was initiated by Welke’s DCFS report.
Thompson suspects this case was fixed to protect contained in Doe’s mental health records that
expose criminal conduct by Board attorneys regarding their investigation. Although Thompson’s
appeal was unsuccessful, Thompson noted the 1st Appellate court presiding judge was Jesse G.
Reyes, a Facebook friend of Ruiz and also a member of the HLAI. Ruiz also donated to Judge
Reyes’ election campaign. Judge Reyes also used to be an attorney for defendant Board. A second
Appellate court judge in the case, Bertina E. Lampkin, was also a Facebook friend of Ruiz.
Thompson formally alleged the decision was fixed in an unsuccessful motion to reconsider.
However, this case cannot be used for res judicata purposes, as this case was interlocutory in
nature as part of a discovery issue in Thompson’s dismissal hearing.3 Related case 13-L-879 had
already been filed and Doe fought those cases simultaneously for eight months without ever
raising res judicata claims in either case.

4.

14-cv-6340. August 18, 2014 - current. U.S. Northern District of Illinois. The

instant case, consolidated with 14-cv-6838 and 14-cv-7575.

5.

14-cv-7575. August 26, 2014 - current. U.S. Northern District of Illinois.

Consolidated with instant case 14-cv-6340. Originally and timely filed on August 26, 2014 in

J 740 ILCS 110/10(d) requires that no party to a proceeding nor his or her attorney “shall serve a
subpoena seeking to obtain access to records or communications under this Act unless the subpoena is
accompanied by a written order issued by a Judge, authorizing the disclosure of the records or the
issuance of the subpoena. No persons shall comply with the subpoena for records or communications
under this Act, unless the subpoena is accompanied by a written order authorizing the issuance of the
subpoena or the disclosure of the records.”

5

A-020

Case: 18-1658

Document: 24

Filed: 11/05/2018

Pages: 75

Lake County as 14-L-606. The Board successfully argued that Thompson should file this single
count Title VII lawsuit separate from related Lake County case 13-L-879 before removing it to
federal court on September 29, 2014 where it was renamed 14-cv-7575.
6.

14-cv-6838. September 4, 2014 - current. U.S. Northern District of Illinois. This

case was consolidated with instant case 14-cv-6340.
7.

14-cv-6929. September 8, 2014 - December 19, 2014. U.S. Northern District of

Illinois. Against Lake County Judge Jorge L. Ortiz. Thompson sought federal review of a state
court ruling forcing Thompson to claim-split his Title VII lawsuit from related case 13-L-879 by
using a motion for substitution forjudge as an arbitrary and retaliatory reason to prevent him from
amending his complaint to include a related Title VII claim. Judge Edmund P. Chang erroneously
dismissed Thompson’s case via the Rooker-Feldman doctrine. On appeal in Thompson v. Ortiz,
15-1122 (7th Cir. 2015), this honorable court affirmed the ruling but on alternative grounds
because 13-L-879 had proceeded to the 2nd Appellate court while this case was on appeal here
(15-1122). Although no defendants referred to this case for res judicata purposes, this lawsuit and
the res judicata claims in the instant lawsuit evidences as to why Thompson did not want this
specific Title VII claim split before the Board removed it to federal court and consolidated with
the instant case as Count XIII.
8.

14-CH-15697. September 29, 2014 - February 25, 2015. Cook County. Against

defendant Board and Dr. Barbara Byrd-Bennett.4 This was a subject matter jurisdiction case
related to the Board’s lack of legal authority to bring dismissal charges against someone they no
longer employ. The presiding judge was Neil H. Cohen, who was also a Facebook friend of Ruiz.
Judge Cohen ignoring pleadings the Board no longer employed Thompson before dismissing his

4 Dr. Barbara Byrd-Bennett has since become a convicted felon after pleading guilty to setting up a
kickback scheme involving millions of tax-payer dollars. She is cuirently serving a 4.5 year sentence.
6

A-021

Case: 18-1658

Document: 24

Filed: 11/05/2018

Pages: 75

case. The Appellate court judges were the same in 14-CH-26625, including Reyes and Lampkin.
However, this case cannot be used for res judicata purposes because the case was dismissed
without prejudice pending finality of Thompson’s dismissal hearing - the subject of the instant
case’s continuing Title VII claim in Count XIII.
9.

16-cv-7933. August 8, 2016 - March 23, 2017. Northern District of Illinois.

Against defendant Board, Doe, and others. The case includes the Title VII claim in Count XIII
related to the ongoing ISBE dismissal hearing. Thompson received his Right to Sue notice for this
continuing Title VII claim on May 9, 2016 (well after the state court cases defendants rely upon
for res judicata). This case was dismissed without prejudice after Thompson opted to add the
claims to an amended complaint in the instant case.

7

A-022

Case: 18-1658

Document: 24

Filed: 11/05/2018

Pages: 75

STATEMENT OF FACTS (A22 - A28)
Thompson is a U.S. Army veteran (1982-1989) obtaining doctoral (2006), masters
(2003), and bachelor (1995) degrees in the field of education. Thompson began private running
lessons in 1992 with Christian-based rules for middle and high school aged youths outside his
employment. From 2001-2003 and 2005-2013, The Board employed Thompson as both a teacher
and coach, the last assignment with Harlan High School (“Harlan”). During Thompson’s entire
employment career since 1982, Thompson never received an “Unsatisfactory” evaluation nor
been disciplined until after filing an Equal Opportunity Employment Commission (“EEOC”)
charge in 2010 against the Board. Shortly after the Harlan head football received a Physical
Education (“PE”) certificate in 2010, the football coach and Reginald Evans (“Evans”) allegedly
coerced a student to make false claims Thompson provided him “pills.” But after a Board
investigation, Thompson received an “Excellent” rating evaluation and told no disciplinary
action would be taken. A teacher later told Thompson Evans tried to recruit her to file false
sexual harassment claims against him. In July 2010, Thompson filed a complaint against Evans
to the Board. Evans reassigned Thompson to U.S. History the next day, a position he was not
highly qualified for, prompting Thompson to file an EEOC charge against the Board. The Board
retaliated by suspending Thompson for two weeks pay and issued a Warning Resolution relating
to the “pill” investigation after being told told no disciplinary action would be taken.
In May 2010, the Board declined to investigate e-mail related stalking claims made by
Doe to Deerfield Police Department (“PD”) counselor Stephanie Locascio. After Thompson filed
his first lawsuit against the Board in December 2010 before it was removed to federal court in
March 2011 (1 l-cv-1712), the Board retaliated by soliciting Doe to make false sexual assault
claims against Thompson to Locascio in April 2011. Based on Doe’s rape claims the Board knew

8

A-023

Case: 18-1658

Document: 24

Filed: 11/05/2018

Pages: 75

were false, they later subpoenaed Thompson’s AOL e-mail account to see if Thompson had
stalked Doe via e-mail. After Lake County DCFS refused to investigate Doe’s false rape claims
in through Locascio, Doe, her mother and the Board solicited Welke to file a false rape report to
Cook County DCFS, implying Doe was a Harlan student. Board officials then obstructed the
DCFS investigator from interviewing Thompson, stole and opened the sealed mail left for him
by DCFS, failed to contact police, failed to remove Thompson from the classroom for student
safety reasons, and no one notified Thompson of the rape claims while the Board subpoenaed his
e-mails. Welke failed to call police as instructed by DCFS, allowing the Board to be the sole
investigator. Therapists Locascio and Welke, and Deerfield HS principal Audris Griffith all
voluntarily provided the Board confidential information related to Doe’s counseling or mental
health records. Doe signed an authorization form to waive her mental health privileges in an
interview with Board investigators. In June 2011, Doe’s rape claims were “Unfounded” by
DCFS. On January 24, 2012, Thompson inadvertently became aware of Welke’s “Unfounded”
DCFS report where Doe claimed she was raped. Later, Board investigator Linda Brown
(“Brown”) interviewed Thompson and after he provided her an inaccurate nighttime training
schedule from March 2010, she provided it to Doe to file a false police report against Thompson
- claiming he raped her at a night practice. Thompson provided the Vernon Hills PD indisputable
I-PASS Toll records he never had night practices in 2010. Doe told the Vernon Hills PD that her
mother made her fde the police report and never wanted to follow through with charges against
Thompson. The Lake County State’s Attorney declined to press any charges against Thompson.
On May 21,2012, Evans gave Thompson an “Unsatisfactory” evaluation prior to his
second post-observation conference held on May 23, 2012, a Board-CTU contract violation.
After Thompson received his “Unsatisfactory” evaluation, the Board removed him from the

9

A-024

Case: 18-1658

Document: 24

Filed: 11/05/2018

Pages: 75

classroom in June 2012 and suspended him without pay September 13, 2012. Despite allegations
of rape, Thompson remained teaching students in the classroom for over a year before an
“Unsatisfactory” evaluation could be issued. In an effort to avoid a Board-CTU contract
violation,' Evans and Thomas Krieger “Krieger” falsely asserted in a grievance response dated
January 7, 2013 that Thompson’s second post-observation conference was held May 21, 2012,
not May 23, 2012. Evans testified falsely that he inadvertently signed the wrong date May 23,
2012, despite Thompson’s evaluation form showing it was clearly printed out on “5/23/2012”.
Krieger unlawfully ordered Thompson’s “DS2” file to be altered via the date of his second post­
observation conference from May 23, 2012 to May 21, 2012, in order to use the “Unsatisfactory”
evaluation to terminate his employment for budgetary reasons and make it appear the termination
wasn’t pre-textual in retaliation for Thompson filing 1 l-cv-1712. Krieger intentionally ignored
indisputable evidence of the evaluation’s printout date of “5/23/2012” at the bottom of
Thompson’s evaluation form that ascertains Evans testified falsely that he signed the wrong date
May 23, 2012 instead of May 21, 2012.
When Thompson was suspended without pay on September 13, 2012 relating to Doe’s
rape claims to DCFS, the Board refused to turn over any related investigatory records. On
February 14, 2013, citing the Illinois Personnel Record Review Act (“IPRRA”), 820 ILCS
40/10(g), federal Judge John Tharp stated that investigative files are a part of an employee’s
personnel file once disciplinary action is taken and directed the Board and James Sullivan
(“Sullivan”) to turn over all investigatory documents related to Doe’s rape claims. Instead, on
February 25, 2013, the Board and Sullivan provided Thompson investigative records that were
manipulated, altered, destroyed, or withheld in defiance of Judge Tharp’s order. The Board failed
to turn over an original audio recording of a May 25, 2011 interview made at the Deerfield PD

10

A-025

Case: 18-1658

Document: 24

Filed: 11/05/2018

Pages: 75

station after Harold Ardell (“Ardell”) conspired with Doe and her mother to redo the recording at
Board headquarters. Investigative records were also manipulated to appeal- as if Doe told friends
about her false rape claims in June 2010 as opposed to May 2011 - to make it appear the false
rape claims existed before Thompson’s title VII lawsuit was filed in December 2010. The Board
also manipulated responses from Griffith and Locascio against Thompson and withheld
documents related to contacting Locascio and Welke. On March 12, 2013, Thompson notified
then Board General Counsel James Bebley via email of the Board’s legal obligation to expunge
any record identifying or gathered as a result of the DCFS report and included the “Unfounded”
DCFS report as an attachment. Thompson had previously propounded a copy of the DCFS report
in-person to two Board attorneys at Board headquarters on October 23, 2012. On April 2, 2013,
despite the threat of serious sanctions by federal Judge Jeffrey Cole, the Board and Sullivan
again provided only selective investigatory records; defiantly withholding portions of Doe’s
subpoenaed phone records, notes, documents, and emails related to all contacts with Welke,
Locascio, Doe, her mother, and others.
On August 16, 2013, the Board used the illegally altered evaluation or DS2 file to
unlawfully terminate Thompson’s employment. After Thompson filed a lawsuit in Lake County,
the Board filed false sexual assault-related dismissal charges against Thompson in an ISBE
“dismissal” hearing despite no longer employing him. On December 9, 2013, the Board claimed
the ISBE “dismissal” hearing was no longer a dismissal hearing but rather a “back pay” hearing.
During the “back pay” hearing, Doe and her mother provided false testimony against Thompson
related to their experiences with him. Doe stated on direct examination that the rape incident had
a negative impact on her emotional well-being and sought therapy with Locascio, Welke, and
others. Doe also admitted she lied to Ardell about details relating to her rape claims after telling

11

A-026

Case: 18-1658

Document: 24

Filed: 11/05/2018

Pages: 75

numerous different versions. Doe also admitted to additional contacts with the Board that were
never disclosed by the Board despite a federal court order. Doe then changed her earlier sworn
testimony after an inspection of Thompson’s car revealed her rape claims were not physically
possible. Brown also admitted that no one from the Board contacted the Cook County States
Attorney as required by the Inspector General statute before investigating Doe’s rape claim.
Thompson received his Right to Sue notice on May 29, 2014 for both the retaliatory
discharge via an “Unsatisfactory” evaluation and his suspension without pay prior to being
discharged via that “Unsatisfactory” evaluation. Thompson received another Right to Sue notice
on May 9, 2016 relating to the ISBE “dismissal” healing continuing against Thompson under
Forrest Claypool (“Claypool”) - despite no longer employing him since 2013.

12

A-027

Case: 18-1658

Document: 24

Filed: 11/05/2018

Pages: 75

STANDARD OF REVIEW
We review a motion to dismiss de novo. Fischer v. First Chicago Capital Markets, Inc.,
195 F.3d 279 (7th Cir.1999). When considering a Rule 12(b)(6) motion to dismiss, the Court
must “construe [the complaint] in the light most favorable to the nonmoving party, accept wellpleaded facts as true, and draw all inferences in [the non-moving party’s] favor.” Reger Dev.,
LLC v. National City Bank, 592 F.3d 759, 763 (7th Cir. 2010). When a district court is presented
with a 12(b)(6) motion to dismiss a plaintiffs complaint, and “matters outside the pleading are
presented to and not excluded by the court, the motion shall be treated as one for summary
judgment and disposed of as provided in Rule 56, and all parties shall be given reasonable
opportunity to present all material made pertinent to such a motion by Rule 56.” Federal Rules of
Civil Procedure (“F.R.C.P.”) 12(b). Reversal of such a ruling may become necessary if the
district court has not provided the adversely affected party with notice and an opportunity to
respond, assuming the false statements resulted in prejudice against the Plaintiff. Marshall
Covington v. Illinois Security Service, Incorporated, 269 F.3d 863 (7th Cir. 2001).
We review a district court's discovery decisions for abuse of discretion. Prestwick Capital
Mgmt., Ltd. v. Peregrine Fin. Grp., Inc., 727 F.3d 646, 664 (7th Cir. 2013) (noting that our
review is “extremely deferential”). In this context, a district court abuses its discretion if: “(1) the
record contains no evidence upon which the court could have rationally based its decision; (2)
the decision is based on an erroneous conclusion of law; (3) the decision is based on clearly
erroneous factual findings; or (4) the decision clearly appears arbitrary.” Id. (quoting Sherrod v.
Lingle, 223 F.3d 605, 610 (7th Cir. 2000)).

13

A-028

Case: 18-1658

Document: 24

Filed: 11/05/2018

Pages: 75

SUMMARY OF THE ARGUMENT
It is Thompson’s position the district court erred in dismissing a count through res
judicata when the defendant never presented arguments the count was subject to res judicata.
It is Thompson’s position that when a district court allows certain counts to proceed after
an initial motion to dismiss based on a certain set of facts of the case as set forth in the pleadings,
the district court abuses its discretion by later ignoring those same set of facts or adding
disputable statements to manipulate those facts in order to reach a full dismissal of Thompson’s
claims without giving him the opportunity to contest the ignored facts or disputable statements.
It is Thompson’s position that when an employer in their resident county (Cook) engages
in unlawful Title VII conduct against an employee in a county (Lake) outside their jurisdiction,
prompting a limited jurisdiction lawsuit in Lake County, but then afterwards continues the
unlawful Title VII conduct in their home county of jurisdiction (Cook) via new charges in an
ISBE dismissal hearing while the limited jurisdiction case is continuing in Lake County, the
plaintiff has the right to file a new lawsuit in federal court to challenge the new unlawful Title
VII conduct as it relates to charges in Cook County and is therefore not subject to res judicata by
the limited jurisdiction lawsuit in Lake County after it is fully adjudicated.
It is also Thompson’s position that when a court of limited jurisdiction such as Lake
County prevents him from adding a related and valid Title VII claim requesting limited relief,
forcing him to file the Title VII claim as a separate count as the Board argued before removing it
to federal court, the Board acquiesces to cl aim-splitting and the removed Title VII claim is thus
not subject to res judicata when the limited jurisdiction lawsuit is fully adjudicated - and
especially when the Title VII claim continues as post-employment retaliation in Cook County in
the form of an administrative dismissal hearing or “back pay” hearing.

14

A-029

Case: 18-1658

Document: 24

Filed: 11/05/2018

Pages: 75

ARGUMENT
I.

The District Court Erroneously Dismissed Count VIII through Res Judicata after
the Board Never Argued Count VIII was Subject to Res Judicata
In the Board’s initial motion to dismiss (A244-271), it argued Count VIII (relating to

continuing IPRRA violations by providing and using Thompson’s falsified investigative files for
an ongoing dismissal hearing; refusing to expunge related DCFS files; and incorporating hearsay
statements without Thompson’s knowledge), was time barred and failed to state a viable claim
(A258,

III; 260, f D; 266, % E). In the district court’s first Memorandum Opinion and Order

(“MOO”) (A219-243), it rejected the Board’s arguments except for a viable claim Thompson had
to allege he “provided the Board with a copy of the notice he received from DCFS.” (A239, f 3).
As such, Count VIII was only partially dismissed. (A242, *| 4). The Board did not oppose Count
VIII moving forward in Thompson’s SAC. (A206-218).
In the Board’s subsequent motion to dismiss, it raised two new arguments relating to
dismissing Count VIII. The Board first new argument was that Thompson’s SAC did not comply
with Rule 8 in seeking to dismiss his entire complaint (A121, f E). But the Board never raised
this issue in its first motion to dismiss (A244-271), nor it is opposition brief to Thompson’s
proposed SAC (A206-218). Regardless, the AMOO (Al-18) did not dismiss Thompson’s lawsuit
on the basis of Rule 8. The Board’s second new argument was that Claypool and Winckler
should be dismissed from Count VIII, but not the Board, reasoning that since it was already a
defendant, suing Claypool and Winckler in their official capacity was redundant. (A122 ^ G).
But the district court never addressed this argument because its AMOO did a blanket res judicata
dismissal of the instant case and failed to distinguish how each of the three state court cases had
a res judicata effect by count and defendant. (A16, f 3). A blanket dismissal of claims handicaps
Thompson in this appeal because defendants used different state court cases in their motion to

15

A-030

Case: 18-1658

Document: 24

Filed: 11/05/2018

Pages: 75

dismiss different claims. The three state court cases at the center of defendants’ res judicata
claims include a jurisdictional case that was dismissed without prejudice (14-CH-15697), an
interlocutory case related to discovery of mental health records that statutorily requires a lawsuit
(13-CH-26625), and another where after it was filed defendants chose to continue their unlawful
conduct in another county (13-L-879). Welke was neither a defendant in 13-L-879 nor 14-CH15697; Doe was not a defendant in 14-CH-15697; and the Board was not a defendant in 13-CH26625. None of these state cases relate to Counts I, II, and VI. Therefore, the requirements of res
judicata under Dookeran5 could not have been present before a blanket dismissal.
Even if res judicata was applicable in a blanket fashion, Count VIII should have survived
against the Board because it never argued it was subject to res judicata, ever. In fact, the Board
is still continuing the IPRRA violations in using Thompson’s fabricated personnel/investigatory
file in an ongoing dismissal hearing (A97) related to false sexual assault charges and the subject
of the Title VII claim in Count XIII, while refusing to turn over other investigatory related
documents. Continuing violations as they relate to Counts VIII and XIII meet the res judicata
exceptions under Rein v. David A. Noyes & Co.; 665 N.E.2d 1199, 1207 (Ill. 1996). As such,
related counts III - V, IX - XII, XIV, and XIX - XXIII should be reinstated, as they all relate to
continuing Counts VIII and XIII. Counts I, II, and VI must also be reinstated, since the district
court, as explained later in this brief, manipulated the facts of the case to erroneously connect
Thompson’s unlawful discharge to Doe’s false sexual assault charges, when in reality the Board
had already unlawfully dismissed Thompson via a falsified “Unsatisfactory” evaluation.

5 For res judicata to apply to an Illinois judgment, there are three basic requirements: (1) a final judgment
on the merits rendered by a court of competent jurisdiction; (2) an identity of the causes of action; and (3)
an identity of parties or their privies. Dookeran v. County of Cook, 719 F.3d 570, 575 (7th Cir. 2013).
16

A-031

Case: 18-1658

II.

Document: 24

Filed: 11/05/2018

Pages: 75

The District Court Improperly Added and Relied Upon Disputable Statements or
Ignored Pleadings to Prematurely Dismiss Thompson’s Lawsuit
Courts routinely take judicial notice of the actions of other courts or the contents of

filings in other courts. See General Electric Capital Corp. v. Lease Resolution Corp., 128 F.3d
1074, 1081 (7th Cir. 1997). Judicial notice “merits the traditional caution it is given, and courts
should strictly adhere to the criteria by the Federal Rules of Evidence before taking judicial
notice of pertinent facts.” Id. at 1081. In order for a fact to be judicially noticed, indisputability is
a prerequisite. Hennessy v. Penril Datacomm Networks, Inc., 69 F.3d 1344, 1354 (7th Cir. 1995).
A district court may not take judicial notice of fact where its application may be reasonably
disputed because use of this evidentiary device in this manner “would abrogate the fundamental
requirement of due process.” Holloway v. Lockhart, 813 F.2d 874 at 878 (8th Cir. 1997).
The district court improperly added and relied upon disputable false statements and also
ignored relevant facts of the case to prematurely dismiss Thompson’s lawsuit without giving him
the proper opportunity to respond. As such, the entire case should be reversed and remanded to
give Thompson a full and fair opportunity to have his Title VII and related claims heard,
especially since ten of the counts (VIII - XVII) are still continuing. (A97).
A.

False: “Thompson’s Lawsuit that Forms the Basis for his Title VII Retaliation

Claim” (A2).
Truth: Thompson’s SAC (A 19-68) established two Title VII retaliation claims
(Counts I and XIII), not one claim, and Count XIII is a product of two Right to Sue
notices6 and is still continuing (A97). This is not a typo as the entire district court's

6 Thompson received two Right to Sue notices related to employment and post-employment retaliation.
The first was on May 29, 2014, which the EEOC directed Thompson could use for both (1) the unlawful
termination related to the “Unsatisfactory” evaluation filed in the instant case 14-cv-6340 and (2) the
suspension without pay related to the dismissal hearing Thompson attempted to file with Lake County
17

A-032

Case: 18-1658

Document: 24

Filed: 11/05/2018

Pages: 75

AMOO (Al-18) falsely represents Thompson’s lawsuit as alleging the Board terminated
his employment via false sexual assault charges while ignoring the fact that his actual
termination was via an “Unsatisfactory” evaluation as properly pled in Count I (A29) and
acknowledged in the district court’s initial MOO. (A219-243).
B.

False: “The End of Thompson’s Tenure with CPS” (A3).
“In response to court orders, the Board turned over investigatory files on February
25, 2013, but according to Thompson, the files it provided were incomplete,
fabricated, and altered. Id. '{ 60. Thompson asserts that the Board relied on these
files to terminate his employment on August 16, 2013, and during the ISBE
hearing on December 9, 2013. Id. 68-70; see Board’s Mem. Supp., Ex F, Opinion
n ll.”(A3-4).
Truth:

68-70 of Thompson’s SAC states:

“On August 16, 2013, the Board used the illegally altered evaluation or DS2 file
to terminate Thompson’s employment in retaliation for Thompson’s filing a Title
VII lawsuit. In continued retaliation for filing a Title VII lawsuit, the Board filed
dismissal charges against Thompson in an ISBE ‘dismissal’ hearing despite no
longer employing him. On December 9, 2013, the Board claimed the ISBE
‘dismissal hearing’ was no longer a dismissal hearing but rather a hearing to
determine if he would be entitled to his ‘back pay.’” {All, 68-70).
The Board’s Mem. Supp., Ex F, Opinion Tf 11 states:
“... [p]laintiff maintains that as of August 16, 2013, he was no longer employed
by defendants, but despite that fact defendants convened a dismissal hearing
against him on December 9, 2013.” (A325).
Thompson never pled in this case (nor any other case) the Board relied upon
falsified sexual assault investigatory files to terminate his employment on August 16,
2013 and again on December 9, 2013 in a dismissal hearing. It is clear at this stage the
district court is deliberately ignoring pleadings related to Counts I, II, and VI of
Thompson’s SAC where he pled the Board teiminated Thompson’s employment on
August 16, 2013 via an falsified “Unsatisfactory” teaching evaluation. (A29-31, 35-36).
case 13-L-879. Thompson received his last Right to Sue letter on May 9, 2016 related to the Board
continuing a dismissal hearing as post-employment retaliation.
18

A-033

Case: 18-1658

Document: 24

Filed: 11/05/2018

Pages: 75

Count XIII (A47-50) pled different operative facts where the Board staged sexual assault
allegations against Thompson to suspend him without pay but then proceeded to use them
in a dismissal hearing against him months after they terminated him via the
“Unsatisfactory” evaluation. Counts I and XIII are separate Title VII claims involving
different operative facts the district court had already acknowledged in its first MOO.
(A219-243). But the district court now manipulates the facts of Thompson’s case in its
AMOO (Al-18) to imply he was terminated via the false sexual assault charges and by
doing so renders his Title VII unlawful termination claim in Count I and related Counts II
and VI as non-existent and as they are not analyzed in the AMOO (Al-18). As such,
Counts I, II, and VI,7 which relate to Thompson’s termination via the falsified
“Unsatisfactory” evaluation, must be reinstated as these counts survived defendant
Board’s first motion to dismiss and not subject to another round of res judicata via any of
the three state court cases that relate to the false sexual assault claims.
C.

False:
“The circuit court denied Thompson’s motion to add a Title VII claim, in part,
because it found that Thompson had waited too long to add the claim causing
undue prejudice to the defendants. See Pl.’s Mem. Supp., Ex. F, 8/26/14 Order in
case no. 13 L 879.. .The defendants filed a motion to dismiss, which the state
court granted in August 2014. See Board’s Mem. Supp., Ex. C, Opinion. And
Thompson filed a timely appeal in state court.. .On appeal, the Illinois appellate
court affirmed the judgment in all respects and, in particular, affirmed the denial
of the motion to add the Title VII claim.” (A5, ^ D).
“Likewise, here, the circuit court in case no. 13 L 879 denied Thompson’s motion
for leave to add his Title VII claim and did not expressly state that it reserved the
claim for future litigation. Rather, the circuit court denied the motion to add the
Title VII claim as inexcusably untimely...” (A15, 1).

’.Count VI was initially dismissed without prejudice for failure to state a claim but the Board did not
contest the revised version for failure to state a claim and thus advanced as part of Thompson’s SAC.
19

A-034

Case: 18-1658

Document: 24

Filed: 11/05/2018

Pages: 75

Truth: Thompson never filed a motion in Lake County to “add a Title VII
claim.” What Thompson filed was:
“Plaintiffs Second Amended Motion for Leave of Court to Extend Time to File
Title VII Right to Sue Count.” (A272-273).
Thompson stated in the last paragraph of the motion, “Alternatively, Plaintiff
seeks to file Third Amended Complaint immediately.” (A273,

3). The district court’s

additional statements falsely portray Thompson’s Title VII claim was untimely, was
dismissed, and these judgments were later upheld by the 2nd Appellate corn!. However,
the Board never filed a motion to dismiss his Title VII claim in Lake County because the
court never allowed Thompson to amend his complaint to add it. In fact, if the district
court had taken proper judicial notice of Thompson’s motion in Lake County case 13-L879, it would have noticed the Board’s opposition response argued Thompson could file a
separate Title VII retaliation lawsuit in federal court in lieu of amending his complaint:
“There is nothing stopping Plaintiff from filing a separate lawsuit in the U.S.
District Court for the Northern District of Illinois alleging Title VII retaliation
based on the EEOC Charge.” (A277, 1).
Title VII “specifies with precision” the only two statutory prerequisites for filing a
lawsuit alleging a Title VII claim. Alexander v. Gardner-Denver, 415 U.S. 36, 47 (1974).
A plaintiff seeking to pursue a claim of retaliatory discharge under Title VII must first
file a charge with the EEOC that fairly encompasses the claim in question. In a state like
Illinois, which has a state law prohibiting retaliatory discharge, this charge must be filed
within 300 days of the alleged retaliatory discharge. 42 U.S.C. §§ 2000e-5(c), (e). A
plaintiff must also obtain a right-to-sue notice from the EEOC or the U.S. Department of
Justice (if against a government agency) and file a Title VII claim in court no later than
ninety days thereafter. 42 U.S.C. § 2000e-5(f)(l). These are the only administrative

20

A-035

Case: 18-1658

Document: 24

Filed: 11/05/2018

Pages: 75

requirements that a private-sector plaintiff such as Thompson must satisfy before
bringing a retaliatory claim under Title VII. See Alexander, 415 U.S. at 47 (the two
prerequisites for filing a Title VII claim are the filing of a timely charge and receipt of a
notice of a right-to-sue); See also McDonnell Douglas Corp. v. Green, 411 U.S. 792,
798-99 (1973) (prerequisites to Title VII suit are filing a timely charge and receiving and
acting upon a notice of right-to-sue).
There was never any argument in any case that the Title VII (Count XIII)
requirements were not met. Between their response in opposition for Thompson to add
his Title VII claim in an amended complaint and its subsequent removal to federal court
instead of filing a consolidation motion in Lake County, the Board, not Thompson, who
heartened claim-splitting.
McDonnell Douglas prohibits state and district courts from arbitrarily adding and
sustaining additional prerequisites to bar a Plaintiff from having a valid and timely filed
Title VII claim heard. And that is what the district court is trying to do here. The district
is attempting to represent a denial to add a ripe Title VII claim into a dismissal and
attempts to justify it by citing Venturella v. Dreyfuss, 84 N.E.3d 386, 394-95 (Ill. App.
Ct. 2017), where the trial court did not permit a motion to amend to add a new claim days
before a trial date. But Venturella is inapposite, as it did not involve a Title VII claim
where EEOC administrative requirements exist. In Jones v. City ofAlton, III, 757 F. 2d
878 (7th Cir. 1985), the court reversed res judicata because in Jones, like Thompson here,
did not have a frill and fair opportunity to have his Title VII claim heard:

Thompson also tried to avoid claim-splitting and this very res judicata scenario in the instant case by
filing a lawsuit in federal court against the presiding judge in Lake County case 13-L-879 for citing
arbitrary reasons such as filing a motion to substitute judge as a reason to deny Thompson amending his
complaint to add the Title VII claim. See this brief, p. 6,7, 14-cv-6929.
21

A-036

Case: 18-1658

Document: 24

Filed: 11/05/2018

Pages: 75

“One general limitation is that the concepts of claim and issue preclusion {res
judicata in the broad sense) cannot apply when the party against whom the earlier
judgment is asserted did not have a full and fair opportunity to litigate the issue in
the earlier case. Haring v. Prosise, 462 U.S. 306, 313, 103 S.Ct. 2368, 2373, 76
L.Ed.2d 595 (1983); Kremer, 456 U.S. at 480- 81, 102 S.Ct. at 1896-97; Allen,
449 U.S. at 95, 101 S.Ct. at 415 . . . We need not decide whether the principles of
claim preclusion or those of issue preclusion apply here. Under either set of
principles our result would be the same. The plaintiff here clearly tried to raise
and litigate in the proceedings before the Commission the issue of disparate
treatment on account of his race. If he succeeded in raising the issue, then he
would be barred under claim preclusion, if the present action is the same claim, or
under issue preclusion, if the present action is not the same claim, since the issue
would have been litigated in the prior proceedings. If, on the other hand, he did
not succeed, and could not have succeeded, in raising the issue, then he is not
barred under either doctrine. Claim preclusion does not bar litigation of issues
which could not have been litigated, and issue preclusion only bars relitigation of
issues actually litigated.” Jones.
The Lake County court denied Thompson’s request to add his Title VII claim in
an amended complaint. The court’s ruling (A281), whether arbitrary or not, did not
convert to a dismissal of his Title VII claim. In fact, no defendant has ever argued
Thompson’s Title VII claim did not meet the two filing prerequisites in Alexander v.
Gardner-Denver. The districts court’s ruling that the Lake County court was required to
“expressively reserve a claim is inapplicable in this case because McDonnell Douglas
Corp. doesn’t require a court to “expressively reserve” a Title VII claim if the judge
never adds the claim as part of an amended complaint. Expressive reservation would have
applied if the court allowed Thompson to add the Title VII claim in an amended
complaint but then later dismissed the lawsuit and that’s not what happened in this case.
While it is unusual for a judge to deny a plaintiff to add a Title VII claim to an
already existing case prior to any judgments, an unpublished case exists in the Fourth
Circuit supporting Thompson’s argument. In Angles v. Dollar Tree Stores, Inc., 494 F.
App’x 326, 331 n.10 (4th Cir. 2012), Plaintiffs filed a motion to amend to add in what

22

A-037

Case: 18-1658

Document: 24

Filed: 11/05/2018

Pages: 75

would have been a timely filed related Title VII claim had the judge granted the motion.
But defendants opposed the motion on jurisdiction issues and the judge hinted he likely
would deny the motion. After the 90-day filing requirement had passed, the judge denied
the motion. Assuming in error the 90-day filing requirement was tolled while the judge
was mulling the motion, Plaintiffs tried to refile the case in another jurisdiction only for
it to be dismissed for untimeliness. The 4lh Circuit stated in its ruling relevant to this case:
“In affirming the district court’s conclusion on equitable tolling, we emphasize
that the Plaintiffs had two avenues available to ensure that their rights were
vindicated in this litigation. First, to the extent the Plaintiffs believe the district
court in Alabama committed legal error in denying the motion to amend, they
could have appealed that decision to the Eleventh Circuit. The Plaintiffs are
asking us to equitably toll the statute of limitations, not because they were misled
by Dollar Tree, or provided inaccurate information by the EEOC, but because of
an unfavorable judicial decision - a decision they have not appealed. Second, the
Plaintiffs could have protected themselves by timely filing an action in the
Eastern District of Virginia - an option still available at the time the district court
indicated that it was likely to reject the motion for leave to amend.” Id. (A297, 2
- 298).
Thompson did exactly what the 4lh Circuit emphasized. While he also filed an
appeal with the 2nd appellate court only to be denied, Thompson protected himself by
timely filing his Title VII claim as a separate lawsuit the same day the Lake County court
denied his motion - the 89th of 90 days upon receiving his Right to Sue notice. But
instead of consolidating it with the related Lake County case, the Board removed it to
federal court and consolidated it with this case. As such, the district court erred in
dismissing this case under res judicata as Thompson has not had a full and fair
opportunity to have his Title VII claim (Count XIII) heard, and along with related counts
III - V, VIII - XII, XIV-XXIII, should be reinstated, as well as counts I, II, and VI, since
the court erroneously omitted them from its AMOO analysis (Al-18) and by default
became associated with Count XIII.

23

A-038

Case: 18-1658

D.

Document: 24

Filed: 11/05/2018

Pages: 75

False:
“Thompson alleged that Dr. Welke improperly reported Jane Doe’s false claim of
rape to DCFS, which led to an investigation and his eventual termination. Id. *J
56.”(A6,1f 1).
Truth: “f 56 of 13-CH-26625 actually reads:
“One year later on May 3, 2011, Defendant Doe psychologist, Defendant Welke
filed a complaint with the Illinois Department of Children and Family Services
claiming for the first time, that Plaintiff had raped Defendant Doe after one of
their training sessions in the previous year.” (A309, f 56).
Once again, the district court manipulates the facts of Thompson’s case by linking

his unlawful termination to the false sexual assault charges in his dismissal hearing. But
Thompson’s instant lawsuit clearly established his unlawful termination was the result of
a falsified “Unsatisfactory” evaluation as outlined in Counts I, II, and VI. (A29-31, 3536). The district court's manipulation of the facts of this case cannot be inadvertent at this
stage as the district court’s initial MOO cited the “Unsatisfactory” evaluation thirteen
times in its Analysis related to Thompson’s unlawful termination (A6-A19) but omits
referencing the “Unsatisfactory” evaluation entirely from the Analysis in its AMOO (A918). Again, the district court should not have manipulated the facts of the case or omit
relevant facts in dismissing Counts I, II, and VI, as these counts do not relate to the false
sexual assault claims in the dismissal hearing, nor did the Board claim these counts were
subject to res judicata in its initial motion to dismiss via any of the three state court cases
as they all relate to the false sexual assault claims.
E.

False:
“While all of the above cases were still pending at the trial or appellate level in
state court, Thompson filed three separate lawsuits that were consolidated into
this single case.” (A7, f E).

24

A-039

Case: 18-1658

Document: 24

Filed: 11/05/2018

Pages: 75

“Thus the Court’s earlier concern has been allayed, because there has been a final
judgment on the merits in each of Thompson’s state court cases.” (A 10, 4).
Truth:
14-CH-15697 (September 29, 2014), one of the three state court cases defendants
have relied upon for res judicata, was filed a month after the instant lawsuit 14-cv-6340
(August 18, 2014) and after consolidated cases 14-cv-6838 (September 4, 2014) and 14cv-7575 (Aug. 26, 2014). This false statement is significant because the district court, as
explained later in this brief, erroneously claimed Thompson could have filed his present
claims with 14-CH-15697, thus mistakenly using 14-CH-15697 as a basis for res judicata
to dismiss the instant case as it was already pending before 14-CH-15697 was filed.
Further, there has not been a final judgment in 14-CH-15697. Only Count II was
dismissed with prejudice. Counts I, III, and IV were dismissed without prejudice pending
final adjudication of the ISBE dismissal hearing (A310-313). 14-CH-15697 challenged
the Board’s jurisdiction to bring about dismissal hearing charges against Thompson after
already terminating him via a falsified “Unsatisfactory” evaluation months earlier. But
the court ruled against well-established case law that Thompson could not seek judicial
relief related to subject matter jurisdiction until exhaustion of administrative remedies,
the 1st Appellate erroneously leaving the subject matter jurisdiction up to the ISBE
hearing officer,9 which is currently stayed. (A97). Where an agency’s authority to
determine certain matters is challenged on its face as not authorized by statute, thereby
challenging the agency’s subject matter jurisdiction, administrative remedies need not be
exhausted.” County of Knox ex rel. Masterson v. The Highlands, L.L.C., 302 Ill. App. 3d

9 No hearing officer has been assigned to Thompson’s dismissal hearing since defendant Nielsen recused
himself after Thompson sued him in the instant case for not conducting a proper back pay hearing.
25

A-040

Case: 18-1658

Document: 24

Filed: 11/05/2018

Pages: 75

342 (1998); Millennium Park Venture, LLC, vs. Houlihan, No. 108923, (IL Supreme
Court 2010).
Given that 14-CH-15697 was clearly dismissed without prejudice pending
exhaustion of administrative remedies relating to an ongoing dismissal hearing, related
counts III - V, VIII - XII, XIV-XXIII should be reinstated, along with counts I, II, and
VI, since the court erroneously omitted them from its AMOO analysis and by default
became associated with Count XIII.
F.

False:
“What is more, Thompson’s claims in the Second Amended Complaint and his
state-court lawsuits emerge from the same core of operative facts.” (All, 1j 2)
“In sum, the claims asserted here and in the state court lawsuits derive from the
same nucleus of operative fact: the purportedly improper conduct of the
Defendants relating to Thompson’s suspension, the investigation into Doe’s
allegations, the ISBE proceedings, and his eventual dismissal.” (A12, 1)
Truth: Again, the district court manipulates the facts of his case by linking his

unlawful discharge to Doe’s false sexual assault claims instead of the falsified
“Unsatisfactory” evaluation as pled in Counts I, II, and VI (A29-31, 35-36), despite
acknowledging it thirteen times in its prior MOO Analysis. (A6-19). Counts I, II, and VI
relate to Thompson’s termination via a falsified “Unsatisfactory” evaluation. Parts of
Count VIII relate to two “hearsay” statements (A39, f 165) concerning a student’s
misbehavior during a class and have nothing to do with either the falsified
“Unsatisfactory” evaluation (Count I) or the false sexual assault claims (Count XIII). All
three of Thompson’s state court cases used for res judicata relate to Doe’s false sexual
assault claims and the Board did not refer to any of these cases to estop Counts I, II, VI,
or VIII in its initial motion to dismiss, but it could have. (A244-271). Instead, the Board

26

A-041

Case: 18-1658

Document: 24

Filed: 11/05/2018

Pages: 75

unsuccessfully relied upon Thompson’s Settlement Agreement and Limited Release
(“SEAL”) (A314-321) as the basis for res judicata in its initial motion to dismiss Counts
I, II, and VI and upon statute of limitations and failure to state a claim for Count VIII.
After Thompson corrected pleading deficiencies in Counts VI and VIII, the district court
granted leave for these counts to move forward in his SAC but was erroneously disposed
of in a blanket res judicata dismissal (A 16, *\] 3) because the district court’s AMOO fails
to separate how each of the three state court cases have a res judicata effect by count and
by defendant.
As such, Counts I, II, and VI were prematurely dismissed on res judicata grounds,
and since Counts III - V, IX-XIV, and XIX-XXIII relate to count VIII which the Board
never raised res judicata claims, all counts were prematurely dismissed.
G.

False:
“And, although many of Thompson’s current claims rely on federal law rather
than state law, that too is unavailing, because Illinois courts have jurisdiction to
adjudicate federal claims, and Thompson undoubtedly could have brought his
current claims in state court.” (A12, \ 2- A13, f 1).
Truth: Thompson did attempt to bring his related Title VII claim (Count XIII) to

state court in 13-L-879 as part of an amended complaint (A272-273) but the Board
argued (A277,

1) successfully (A281) that Thompson could file it separately (14-L-606)

before removing it to federal court (14-cv-7575) where it is pled as the first part of Count
XIII. But while Lake County case 13-L-879 was pending, the Board trumped up false
rape charges against Thompson in a dismissal hearing in Cook County (Count XIII)
despite terminating him via an “Unsatisfactory” evaluation months earlier (Count I). This
action created a new and continuing cause of action that should have prevented any of the

27

A-042

'Case: 18-1658

Document: 24

Filed: 11/05/2018

Pages: 75

state court cases from having a “final” res judicata effect on any of Thompson’s claims
in this lawsuit:
“There is an alternative basis for not treating the first judgment as res judicata that the second (that is, the present) suit challenged unlawful acts committed after
the first suit, and hence is based on different facts..Creek v. Village of
Westhaven, No. 95-1465 (7th Cir. 1996); LaSalle National Bank v. County of
DuPage, 856 F.2d 925, 931-33 (7th Cir. 1988).
Thompson could not have brought forward Cook County dismissal hearing related
claims in Lake County because the hearing was not formally convened until December 9,
2014 (A48, f 232), after the Lake County case was initially filed on November 29, 2013.
Nor could Thompson have amended his complaint to add Cook County dismissal hearing
claims because Lake County lacks jurisdiction over a Cook County dismissal hearing and
thus meets the res judicata j uri sdictional limitations exceptions under Rein (A78-79). Nor
could Thompson have filed the current claims with 14-CH-15697 because it was filed
after the instant suit and based on a continuing dismissal hearing anyway (A97). Nor
could Thompson file counts related to his unlawful discharge in Lake Comity because 1)
it was a court of limited jurisdiction; 2) the Board and Thompson had an agreement to
keep non-sexual assault claims separate from false sexual assault claims (the Board
argued both ll-cv-1712 and 13-L-879 simultaneously for 14 months; 3) the. Board initial
dismissal notification was for budgetary reasons and the Board forced him to exhaust a
grievance process to learn his discharge was really based on a falsified “Unsatisfactory”
evaluation; and 4) Thompson did not receive his Right to Sue notice for the retaliatory
discharge in Count I until May 29, 2014, four months after the operating Verified SAC
complaint in Lake County was filed on January 29, 2014; and 5) the court did not allow
Thompson to add a Title VII claim anyway (A281). Even if Thompson could have filed

28

A-043

Case: 18-1658

Document: 24

Filed: 11/05/2018

Pages: 75

any of the claims in this case with 14-CH-15697, three counts in 14-CH-15697 were
dismissed without prejudice pending adjudication of the dismissal hearing and Thompson
does not have to wait until a full resolution of his dismissal hearing to have his Title VII
claims or related claims heard in this court because it is a continuing matter. (A97).
Kremer v. Chemical Construction Corp., 456 U.S. 461, 470 n.7 (1982); University of
Tennessee v. Elliott, 478 U.S. 788, 795-96 (1986).
H.

False:
“Thompson asserts that, if the Court were to bar his Title VII claims, it would be,
in effect, giving a preclusive effect to unreviewed state administrative
proceedings. Not so. By apply res judicata in this case, the Court gives preclusive
effect to the state court judgments in case nos. 13 L 879, 13 CH 26625, and 14 CH
15697.” (A134 2).
Truth: All three of the state court cases relate to the Board trumping up false

sexual assault charges against Thompson in a continuing dismissal hearing months after
already terminating him via an “Unsatisfactory” evaluation. Because the related dismissal
hearing is a continuing matter (A97) and not ripe for review, none of the three state cases
can be used for res judicata purposes against any related count in this case. Furthermore,
14-CH-15697 was dismissed without prejudice (A310-313), pending adjudication of his
dismissal hearing. The dismissal hearing’s discovery phase is still open, two more
witnesses can be called, Thompson can still file a lawsuit for Doe’s mental health records
based on testimony that occurred after 14-CH-26625 was filed, and the parties must make
final briefs before a recommendation is rendered by the hearing officer on whether or not
to dismiss Thompson from his employment. The Board must then decide to either reject
or accept the hearing officer’s recommendation before voting on whether Thompson will
retain his employment (105 ILCS 5/34-85). The problem with this scenario is that the

29

A-044

Case: 18-1658

Document: 24

Filed: 11/05/2018

Pages: 75

Board already terminated Thompson via a falsified “Unsatisfactory” evaluation, is not a
teacher, has no job to be terminated from, and investigating an “Unfounded” DCFS
report from 2011 to determine if a former employee is entitled to back pay in a dismissal
hearing exceeds the hearing officer’s statutory authority under 105 ILCS 5/34-85.
Thompson received his right to sue notice from the EEOC for post-employment
harassment and retaliation on May 9, 2016 (A50, f 243), well after Lake County case 13L-897 (11-21-13 to 2-5-15) and Cook County cases 13-CH-26625 [12-2-13 to 8-19-14]
and 14-CH-15697 [9-29-14 to 2-25-15] were filed and adjudicated; the latter dismissing
three counts without prejudice. So if Thompson cannot seek to redress continuing post­
employment retaliation and harassment via res judicata on continuing claims well after
the three state court cases were adjudicated and received a EEOC Right to Sue notice,
then how can he expect to file another lawsuit when the dismissal hearing has concluded
and address the continued retaliation? If Thompson is being denied access to the courts
now, why would he expect access later? “The filing of a suit does not entitle the
defendant to continue or repeat the unlawful conduct with immunity from further suit,”
Smith v. Potter, 513 F.3d 783 (7th Cir. 2008) (citing Lciwlor v. Nat 7 Screen Serv. Corp.,
349 U.S. 322, 328 (1955)). See also Rasmussen v. City ofLake Forest, 848 F. Supp. 2d
864, 869 (N.D. Ill. 2012) (noting that if res judicata applied to bar claims occurring after
judgment was entered in the previous lawsuit “defendants who repeatedly cause injury
through continuing nuisances would effectively have immunity from liability for future
violations if a plaintiff did not successfully obtain injunctive relief in the initial suit”).
In University of Tennessee, the Supreme Court expressly held that Congress did
not intend for unreviewed state administrative proceedings to have preclusive effect on

30

A-045

Case: 18-1658

Document: 24

Filed: 11/05/2018

Pages: 75

Title VII claims; it concluded that a plaintiff who pursues a Title VII action in federal
court following an unreviewed state administrative decision is entitled to a de novo
examination of his Title VII claims. See also Alexander at 48. Because Thompson’s
administrative dismissal hearing is still continuing (A97) and unripe for review, this court
prematurely dismissed Title VII claims in Counts I and XIII, and related counts II - VI,
VIII - XII, XIV, XIX - XXIII.
I.

False:
“It should be noted that the Illinois state courts have recognized that the ISBE
properly exercised jurisdiction over Thompson’s back pay hearing .. . (affirming
dismissal of the claim with prejudice). . . ” (A13, footnote)
Truth: What the appellate court actually stated was:
“Only count two was dismissed with prejudice . . . Plaintiffs argument that his
current employment status prohibits defendants from proceeding with the
dismissal hearing against him is a matter best left to the ISBE.” (A324, footnote;
A329419).
The issue with the ISBE dismissal hearing and why this lawsuit will continue is

because it’s not legally functioning as a back pay hearing. The Board elected to dismiss
Thompson from his employment alternatively via an “Unsatisfactory” evaluation months
before the dismissal hearing commenced. The Illinois courts ailing the ISBE has
jurisdiction over Thompson’s “back pay” hearing does not mean the hearing officer can
exceed his statutory authority in violation of a 42 U.S.C § 1983 by officially conducting a
dismissal hearing and claim its a back pay hearing at the same time. A proper back pay
hearing does not include an investigation of an “Unfounded” DCFS report from 2011 to
see if Thompson “would have been entitled” to his back pay had the Board still employed
him. A proper back pay hearing would determine how much money Thompson was due
between his suspension without pay on September 13, 2012 and this unlawful termination

31

A-046

Case: 18-1658

Document: 24

Filed: 11/05/2018

Pages: 75

via a falsified “Unsatisfactory” evaluation on August 16, 2013. There is simply a
difference between having jurisdiction and exceeding that jurisdiction. And Count XIV
has pled Nielsen exceeded his statutory authority (A50-53).
Except for Count II, nowhere in the circuit court’s Memorandum and Order are
the words “with prejudice” mentioned as it relates to Counts I, III, and IV (A310-313).
Nor does the order state it was a "final and appealable order and judgment under Illinois
Supreme Court Rule 304(a) in that there is no just reason for delaying either the
enforcement of or the appeal from this judgment and order." Thompson appealed the case
on the basis of a subject matter jurisdiction case requesting injunctive relief and under the
erroneous belief his case was dismissed with prejudice because he did not understand that
the word “dismissed” means “dismissed without prejudice,” a harmless pro se error. The
Appellate court’s statement “and we conclude that it was a proper basis for dismissing the
complaint with prejudice . . .” (A329, ^ 19) was clearly a typo as the ruling still allows
Thompson to refile the claims once the dismissal hearing has been adjudicated.
Again, because the dismissal hearing is still continuing well after any of the state
court cases concluded, Count XIII and related counts III - V, VIII - XII, XIV-XXIII
should be reinstated, along with counts I, II, and VI, since the court erroneously omitted
them from its AMOO analysis and by default became associated with Count XIII.
J.

False:
“Next, Thompson contends that the fifth exception applies because the case
involves a continuing or recurrent wrong. The Department of Labor concluded its
administration and enforcement action under the IPPRA with regard to
Thompson’s request for personnel records on August 7, 2013, and there is no
indication that Thompson had made any additional requests . . . Thompson’s
employment was terminated on August 16, 2013, and the last hearing related to
his dismissal occurred on December 9, 2013. To the extent that Thompson still
feels the impact of Defendants’ conduct related to the Doe investigation, the

32

A-047

Case: 18-1658

Document: 24

Filed: 11/05/2018

Pages: 75

hearings, and the termination of his employment, the ‘lingering effect of an
earlier, distinct’ wrong does not make a violation continuing . . . Because
Thompson has not alleged a continuing or recurring wrong, the claims asserted in
the Second Amended Complaint do not fall within this exception (A15, f 3 - 16).
Truth: Once again, the district court manipulates the facts of Thompson’s case in
implying he was dismissed via Doe’s false sexual assault charges instead of a falsified
“Unsatisfactory” evaluation as pled in Counts I, II, and VI (A29-31, 35). But Thompson’s
“Unsatisfactory” evaluation is not at issue in the dismissal hearing but rather Doe’s false
sexual assault charges the Board used to suspend Thompson without pay prior to
alternatively dismissing him via an “Unsatisfactory” evaluation. The dismissal hearing
formally convened on December 9, 2013 (A48, f 232) with formal charges and witness
testimony, continued on December 10 and 12, 2013 with witness testimony, (R. 4176
4696) and then stayed pending litigation related to obtaining Doe’s mental health records.
(R. 4693 - 4694). The case was further stayed (A97) pending appellate review and again
after Thompson sued the hearing officer (Nielsen) in the instant case as outlined in Count
XIV (A50-53). Thompson pled numerous times in his SAC (A 19-68) and in numerous
briefs that his dismissal hearing was still a continuing matter. (A97).
Disturbingly, the district court manipulated the mam fact of this case by twisting
the dismissal hearing’s formal commencement date of December 9, 2013 to a conclusion
date to dismiss the entire instant case as if the dismissal hearing has concluded even
though documentation that it is in abeyance (A97) was submitted as part of an opposition
to dismiss brief against the Board. Not only did Thompson receive his Right to Sue notice
on May 9, 2016 on the basis of the continuing dismissal hearing for post-employment
harassment and retaliation well after the three state court cases concluded, but the Board
has never argued against that the dismissal hearing was still ongoing.

33

A-04 8

Case: 18-1658

Document: 24

Filed: 11/05/2018

Pages: 75

The district court cites (A15, 3) the Illinois Personnel Record Review Act
(“IPPRA”) under Count VIII (A37-40), which the Board never challenged via res
c
judicata. These violations still continue as the Board refuses to expunge the “unfounded”
DCFS report and subsequently gathered documents for Thompson’s ongoing dismissal
hearing, and refuses to turn over all required exculpatory documents related to the
investigative file used in the dismissal hearing in defiance of judges John J. Tharp and
Jeffery C. Cole orders in case 1 l-cv-1712.
Again, because the dismissal hearing is still continuing well after any of the state
court cases concluded, Count XIII and related counts III - V, VIII - XII, XIV-XXIII
should be reinstated, along with counts I, II, and VI, since the court erroneously omitted
them from its AMOO analysis and by default became associated with Count XIII.
K.

False:
.. the Court holds that the doctrine of res judicata bars Counts I through VI,
Counts VIII through XIV, and Counts XIX against the Board . .(A16, f 3).
Truth: First, the Board never argued Count VIII was barred by res judicata and

should have never been dismissed. Second, prejudice occurs because of an improper
blanket res judicata dismissal, as Thompson doesn’t know each state court case applied
res judicata by count and defendant. The district court basically does no analysis of how
res judicata is applicable to Doe and Welke, who were the only defendants in
interlocutory caes 13-CH-26625. As such, even if res judicata was applicable, the circuit
court’s improper blanket dismissal prejudicing Thompson from properly arguing each
state court case’s applicableness to estop individual counts and defendant warrants a
remand of this case on its own for clarity if res judicata was applicable.

34

A-049

Case: 18-1658

L.

Filed: 11/05/2018

Document: 24

Pages: 75

False:
“Holding additional dismissal hearings in order to determine whether Thompson
was entitled to back pay during the period between his suspension and a dismissal
hearing is a matter that falls within the ISBE’s jurisdiction. This is consistent with
the Illinois appellate court’s conclusion that the ISBE had jurisdiction to convene
Thompson’s dismissal hearing in order to determine back pay.” (A17, 5 -A18).
Truth: As argued earlier, a proper back pay hearing would determine how much

Thompson is entitled to from when he was suspended without pay to when he was
discharged via a falsified “Unsatisfactory” evaluation, not to when his dismissal hearing
commenced or ended. Thompson’s back pay hearing cannot be extended beyond August
16, 2103, the day he was discharged nor can Thompson’s hearing reinstate him.
The Illinois appellate court’s conclusion that the ISBE had jurisdiction to convene
a dismissal hearing in order to determine back pay does not mean a hearing officer can
exceed that authority by violating statutes. Thompson alleged in Count XIV (A50-53),
which the district court accepted as a claim in Thompson’s SAC but later ignored in its
AMOO (Al-18), that Nielsen was investigating an “Unfounded” DCFS sexual assault
claim against Thompson in violation of 105 ILCS 5/34-85, 820 ILCS 40/13, and the
Child Reporting Act, 325 ILCS 5 et seq. instead of a proper back pay hearing. Thompson
outlined in detail all of the statute violations in his Response in Opposition to Nielsen’s
Motion to Dismiss (A131-132). Most importantly, 105 ILCS 5/34-85(a)(2) requires the
Board to make an employee whole for lost earnings should an employee not be dismissed
based on the charges in an ISBE dismissal hearing:
“Pending the hearing of the charges, the general superintendent or his or her
designee may suspend the teacher or principal charged without pay in accordance
with rules prescribed by the board, provided that if the teacher or principal
charged is not dismissed based on the charges, he or she must be made whole for
lost earnings, less setoffs for mitigation.” Id.

35

A-050

Case: 18-1658

Document: 24

Filed: 11/05/2018

Pages: 75

Thompson was never discharged nor can he be legally discharged via the false
sexual assault charges in the continuing dismissal hearing that commenced on December
9, 2013 because the Board hasn’t employed him for over five years when they used an
“Unsatisfactory” evaluation to terminate him instead. As such, consistent with 105 ILCS
5/34-85(a)(2) Thompson was entitled to a proper back pay hearing, not a dismissal
hearing in violation of statutory authority. The case law the district court cited, Newkirk
v. Bigard, 485 N.E.2d 321, 324 (Ill. 1985), is inapposite and has absolutely nothing to do
with a dismissal hearing case where statutory violations under 42 U.S.C. § 1983 were
alleged against the hearing officer. In fact, in its motion to dismiss (A 140-146), Nielsen
never disputes he was acting in violation of § 1983 but rather relies upon absolute
immunity. But absolute or sovereign immunity affords no protection, when it is alleged
that the state's agent acted in violation of statutory or constitutional law or in excess of
his authority, and in those instances an action may be brought in circuit court. Senn Park
Nursing Center v. Miller, 104 Ill. 2d 169, 188-89 (1984); Bio-Medical Laboratories, Inc.
v. Trainor, 68 Ill. 2d 540, 548 (1977).
The enabling dismissal hearing statute 105 ILCS 5/34-85 et seq. does not give a
dismissal hearing officer statutory authority to conduct “additional dismissal hearings” in
lieu of 105 ILCS 5/34-85(a)(2) to see if a former employee who has a Title VII lawsuit
against them would be entitled to his back pay by conducting an investigation of an
already “Unfounded” DCFS report from 2011. (A134-135). “If an agency promulgates
rules that are beyond the scope of the legislative grant of authority or that conflict with
the statute, the rules are invalid.” R.L. Polk & Co. v. Ryan, 296 Ill.App.3d 132, 141, 230
Ill.Dec. 749, 694 N.E.2d 1027, 1034 (1998). If the Board was intent on dismissing

36

A-051

Case: 18-1658

Document: 24

Filed: 11/05/2018

Pages: 75

Thompson via the false sexual assault allegations in a dismissal hearing, then they
shouldn’t have falsified his “Unsatisfactory” evaluation to discharge him before the
dismissal hearing convened.
Egregiously, nowhere in the district court’s AMOO (Al-18) does it conduct an
analysis of the 42 U.S.C. § 1983 violations Thompson alleged Nielsen violated in Count
XIV (A50-53). Consistent with prior state court lawsuits that were dismissed and cited
here for res judicata purposes by defendants, the court simply ignores the § 1983
statutory violation pleadings as to which there is no absolute immunity for. Assuming
Nielsen has greater immunity protections as a quasi-judicial officer than state actors who
can be sued for punitive damages such as Claypool, Thompson’s lawsuit only requested
injunctive relief against Nielsen anyway to enjoin him from conducting an improper
“back pay” hearing in violation of the above statutes. Thistype of injunctive relief is
totally permissible against any judge who acts in excess of his authority in a § 1983
claim. Pulliam v. Allen, 466 U.S. 522 (1984); See also Carroll Olson v. Gerald W. Hart,
Judge, 965 F.2d 940 (10th Cir. 1992).
As such, by the district court dismissing Count XIV without any analysis of
Nielsen’s alleged statutory violations under § 1983 as it relates to immunity and
injunctive relief, it has erred and Count XIV must be reinstated against Nielsen. Even if
Nielsen has absolute immunity from civil cases as an administrative judge, it does not
extend to injunctive relief (A135, A - A137), which is all Thompson requests from him
in Count XIV. (A53, % 270). Id.; Pulliam.

37

A-052

Case: 18-1658

III.

Document: 24

Filed: 11/05/2018

Pages: 75

The District Court Erred in Dismissing Thompson’s Lawsuit as to Other Counts
A.

Count VII (A36-37): The court erroneously dismissed this claim at the pleadings

stage, ruling Thompson could have filed this with his Fifth Amended Complaint in 1 l-cv-1712
(A332, % 8 - A333, 7). But this count was based on the Board not only falsifying Thompson
DS2 file but also using it to terminate Thompson’s employment, which occurred after the last
operating complaint was filed in 11-cv-l 712. Furthermore, Thompson preserved this claim in his
SEAL for 1 l-cv-1712 (A314-321) as it was a part of 14-cv-6340 at the time the SEAL was
signed. The SEAL was designed that 1 l-cv-1712 would have no impact on any of the claims that
were already filed in the three cases listed in the SEAL (A318,

9). As such, this count was

improperly dismissed and should be considered as a claim and related to Counts I, II, and VI the non-sexual assault related claims that the court erroneously omitted from its AMOO analysis
and by default became associated with Count XIII.
B.

Counts XV - XVIII (A53-59): The court denied these counts to proceed in

Thompson’s SAC based on a failure to state a claim or lack of private cause of action (A335, ^ 3
- A336,

10). However, if not liberally, Thompson believes these counts were adequately pled

or could have been adequately pled for injunctive relief under 42 U.S.C. § 1983 related to other
statutory violations identified during litigation (A131-132).
In respect to Counts XV and XVI, the court ruled (A335, f 18-22) that the Child
Reporting Act does not place limits on defendants’ authority to conduct independent
investigations. This is clearly erroneous. 325 ILCS 5/7.3(a) unambiguously states:
“The Department shall be the sole agency responsible for receiving and investigating
reports of child abuse or neglect made under this Act.. . except that the Department may
delegate the performance of the investigation to the Department of State Police, a law
enforcement agency and to those private social service agencies which have been
designated for this purpose by the Department prior to July 1, 1980.” Id.

38

A-053

CciS6! 18-1658

Document: 24

Filed: 11/05/2018

Pages: 75

Neither the Board nor the ISBE have statutory authority anywhere in the Child Reporting
Act, 325 ILCS 5 et seq. to conduct an independent investigation of rape claims that the Board
admitted was initiated by a DCFS report later deemed “Unfounded,” especially when the claims
do not involve a Board student or under the Board’s jurisdiction in Cook County, which is the
case here; nor are they listed as an agency that DCFS can delegate such authority to. Such
investigative authority would conflict with the statutory requirement to expunge a DCFS report
and related documents from an employee’s personnel file. 820 ILCS 40/13; 325 ILCS 5/7.4; 325
ILCS 5/7.14; 325 ILCS 5/11; 325 ILCS 5/4 (A131-132). See also Jane Doe v. Dimovski, 783 NE
2d 193 (2003):
“We disagree with the notion that school personnel are vested with the discretion to
determine what constitutes ‘reasonable cause to believe’ or whether such abuse actually
occurred . . . DCFS is assigned the authority, or the discretion, to substantiate the
accuracy of all reports of known or suspected child abuse or neglect. 325 ILCS 5/7.3
(West 2000).” Id.
As to Count XVII, the court stated that 105 ILCS 5/34-85 does not place limits on
defendants’ authority to conduct back pay hearings. (A335, ^ 23 - A336, *[ 2). But administrative
hearing officers powers are limited to the enabling statute and cannot exceed that
authority. Department of Revenue v. Civil Service Comm'n, 357 Ill.App.3d 352 (2005). Agency
rules cannot extend or alter the scope of the enabling statute, but must conform thereto. Id. at
364. See also Julie Q. v. Department of Children & Family Services, IL App (2d) 100643 (2011)
where the court ruled DCFS exceeded its statutory authority and voided an allegation ab initio.
105 ILCS 5/34-85 enables the hearing officer to act as an independent fact finder to
recommend whether or not a teacher will be retained for employment. That’s it. Since the Board
no longer employs Thompson and defendants’ back pay hearing is being conducted in a manner

39

A-054

Case: 18-1658

Document: 24

Filed: 11/05/2018

Pages: 75

that relates to rape charges from an “Unfounded” DCFS report from 2011. Thompson has stated
a viable claim.
As far as Count XVIII, civil lawsuits are filed routinely based on criminal conduct and
this count should be reinstated as well.

40

A-055

Case: 18-1658

IV.

Document: 24

Filed: 11/05/2018

Pages: 75

The District Court Erred in Ruling that Thompson’s Personnel File Issues in Count
VIII are not Related to Doe’s Mental Health Records for In-camera Review
Thompson filed a motion for a court order to issues subpoenas for an in-camera-review of

Doe’s mental health records (A340-344) as it relates to Count VIII (A37-40) after surviving the
Board’s motions to dismiss and the case proceeded to discovery. Oddly, shortly after this motion
was filed, the court denied the motion (A345) and abused its discretion to stay (A346) the case
on res judicata concerns (See Huon v. Johnson & Bell, Ltd., 657 F. 3d 641 (7th Cir. 2011)), even
though the Board never challenged Count VIII on res judicata grounds,. The court’s reasoning:
. . the records are irrelevant to Plaintiffs surviving claims in this case. Plaintiffs claim
under the Illinois Personnel Records Review Act, 820 ILCS 40 § 2, seeks access to his
employee personnel filea file that allegedly contains information about Doe’s
accusations. But Plaintiffs right to access his personnel file does not depend in any way
on Doe’s mental health or her communications with her therapist.” (A345).
The district court’s ruling that Thompson’s personnel file is not related to Doe’s false
rape claims are in error and this issue had already been settled when Doe’s false rape claims
were initially raised in 1 l-cv-1712. Citing 820 ILCS 40/10(g), Judge Tharp already ruled that an
employer’s investigatory file becomes part of an employee’s personnel file on which the Board
based any adverse action. (A26,

59). Specifically, 820 ILCS 40/10(g) states:

(g) Investigatory or security records maintained by an employer to investigate criminal
conduct by an employee or other activity by the employee which could reasonably be
expected to harm the employer's property, operations, or business or could by the
employee's activity cause the employer financial liability, unless and until the employer
takes adverse personnel action based on information in such records. Id.
The Board was required to turn over the investigative file as it related to Doe’s false rape
claims leading to a suspension without pay and ultimately dismissal hearing charges. But instead,
as pled in Thompson’s lawsuit that was incorporated into Count VIII (A37-40), the Board
provided Thompson records that were manipulated, altered, destroyed, or withheld in defiance of
Judge Tharp’s order. These included responses from Deerfield High School principal Audris

41

A-056

Case: 18-1658

Document: 24

Filed: 11/05/2018

Pages: 75

Griffith and Deerfield Police Department counselor Stephanie Locascio (“Locascio”). The Board
also withheld investigative documents related to their contacts with Locascio and Welke. The
“Unfounded” DCFS report, which the Board admitted initiated their investigation in Thompson’s
ongoing dismissal hearing, cites Welke as having contact with the Board but was not provided
the details of the contact. Thompson’s motion included sufficient information (A340-344) that
the investigative file/personnel file as related to Doe’s mental health and counselor files was to
the surviving claims that included Count VIII.
Thompson motion (A340-344) was only seeking an in-camera review as to relevancy to
Doe’s false claims he raped her based on Count VIII. This is consistent with a prior discovery
ruling by Judge Cole who stated, “Plaintiff is not, however, barred from seeking medical records
that refer, reflect or relate to any claim of rape or sexual assault by the plaintiff.” (A347). See,
e.g., People v. K.S. , 387 III. App. 3d 570, 573-74 (2008) (explaining that discovery of mental
health records of a witness is permissible if defendant can show that the requested records are
material and relevant to the witness’ credibility, and an in camera hearing with counsel present
may be necessary if witness or doctor asserts privilege).
Thompson has relevant discovery rights to an in-camera review of Doe’s mental health
records as it relates to any statement in his personnel file that reflect in any way on whether or
not Thompson raped Doe pursuant to F.R.C.P. 26(b)(1):
(1) Scope in General Unless otherwise limited by court order, the scope of discovery is
as follows: Parties may obtain discovery regarding any nonprivileged matter that is
relevant to any party's claim or defense and proportional to the needs of the case,
considering the importance of the issues at stake in the action, the amount in controversy,
the parties’ relative access to relevant information, the parties’ resources, the importance
of the discovery in resolving the issues, and whether the burden or expense of the
proposed discovery outweighs its likely benefit. Information within this scope of
discovery need not be admissible in evidence to be discoverable. Id.

42

A-057

Case: 18-1658

Document: 24

Filed: 11/05/2018

Pages: 75

Regarding nonprivileged matters:
“It is well settled that the government is obligated to turn over evidence in its
possession that is both favorable to the accused and material to guilt or punishment.
Pennsylvania v. Ritchie, 480 U.S. 39 (1987). Therefore, it follows that a defendant has a
limited right to examine otherwise statutorily privileged information if the evidence is
relevant and material, and if its relevance is not outweighed by other factors. People v.
Bean, 137 Ill. 2d 65 (1990). A defendant’s right to discover exculpatory evidence does
not include the unsupervised authority to search through the State’s files. Ritchie, 480
U.S. 39.
In Ritchie, the United States Supreme Court established a procedure to deal with a
defendant’s request for privileged information. The Court found that it could protect a
defendant’s rights to a fair trial and the State’s interest in confidentiality by submitting
the requested files to the trial court for an in camera review. Id. at 60. If, after its review,
the trial court determines that information contained within the file is material, the court
must turn over that information to the defendant. IdP See People v. Escareno, 2013 IL
App (3d) 110152.
Thompson’s complaint in Count VIII established an IPRRA violation in that the Board
turned over disputable statements made by Doe’s therapists and counselors contained in the
Board’s investigative file that became part of his personnel file once they used them to suspend
Thompson without pay. As such, Thompson requests this court rule that Thompson is entitled to
an in-camera review of Doe’s mental health records for relevant information that reflects on the
Thompson’s personnel file containing the investigative file alleging Thompson raped her when
she was 17 years old.

43

A-058

Case: 18-1658

V.

Document: 24

Filed: 11/05/2018

Pages: 75

Whether or Not it is Relevant to this Appeal the District Court Judge Avoided
Potential Disqualification Under 28 U.S. Code § 455(b)(2) by Dismissing It
After the district court issued its AMOO to dismiss Thompson’s claims, Thompson did a

publicly accessible search of Judge Lee and learned a material witness Thompson would likely
call on to testily related to the continuing Title VII claim in Count XIII was one of Judge Lee’s
former law firm partners of eight years, a girl who trained under Thompson for three seasons in
one of his religious-based programs. She is only one of 17 athletes Thompson can currently
identify who trained three seasons or more under Thompson and only one of two in the Chicago
area who can testify as to her experiences training in a religious-based training program.
Character testimony from one of Thompson’s former athletes is relevant to counter Doe’s false
testimony in his continuing dismissal hearing portraying him as some religious fanatic and Judge
Lee would likely had to disqualify himself under 28 U.S. Code § 455(b)(2). It is unknown if
Judge Lee had prior knowledge that one of his former partners would be called as a material
witness had Count XIII proceeded. If this court believes this issue is relevant to this appeal or the
case going forward, Thompson will file an affidavit detailing this matter upon request.

44

A-059

Case: 18-1658

VI.

Document: 24

Filed: 11/05/2018

Pages: 75

The District Court’s Amended Memorandum Opinion and Order’s False
Statements Outlined in Arguments I and II Warrant a New Judge Under Circuit
Rule 36
An abuse of discretion also occurs if the district court reaches erroneous conclusions of

law or premises its holding "on a clearly erroneous assessment of the evidence." Gautreciux v.
Chicago Hons. Auth., 491 F.3d 649,654-55 (7th Cir. 2007). Underlying factual findings are
reviewed for clear error. Dotson v. Bravo, 321 F.3d 663 (7th Cir. 2003).
Thompson incorporates the false statements in Arguments I and II of this brief but need
not rehash them here in detail. The most outrageous res judicata conclusions reached by the
district court was attributing Thompson’s unlawful discharge to Doe’s false sexual assault claims
in Count XIII (A47-50) as opposed to the “Unsatisfactory” evaluation pled in Counts I, II, and
VI (A29-31, 35-36) to dismiss those claims; dismissing Count VIII in a blanket res judicata
dismissal despite the Board never arguing res judicata grounds for its dismissal; and misapplying
a dismissal hearing start date as an end date despite documentation (A97) and no argument the
dismissal hearing is still continuing; and its failure to recognize EEOC requirements exist for
Title VII claims. Judge Lee obviously doesn’t care for Thompson’s Title VII class protections in
this case and any reasonable and impartial person would put his impartiality at question.
The 7th Court of Appeals has previously invoked Rule 36 “to avoid the operation of bias
or mindset which seems likely to have developed from consideration and decision of motions to
dismiss or motions for summary judgment and the like.” Cange v. Stotler & Co., 913 F.2d 1204,
1208 (7th Cir. 1990); United States v. Kraus, 137 F.3d 447 (7th Cir. 1998). The manipulation of
the facts of this case likely rise to the level of a judicial misconduct. Floroui v. Gonzales, 481
F.3d 970 (7th Cir. 2007). This is clearly a case of bias and likely stemming from extra-judicial
communications. Thompson requests this case be reassigned to a new judge on remand.

45

A-060

Case: 18-1658

Document: 24

Filed: 11/05/2018

Pages: 75

CONCLUSION
Congressionally mandated Title VII and due process constitutional rights are at the core
of this case and sworn oaths demand that they are upheld over any illegitimate extra-judicial
knowledge of attorney or judicial misconduct that may be exposed in discovery. As such, for all
of the foregoing reasons in this brief in the interest of justice, Thompson prays the honorable
court reverses the district court’s erroneous dismissal of the instant case based on res judicata
and absolute immunity, remand the matter for further proceedings under a new judge, and rule
sua sponte the ISBE dismissal hearing and proceedings (R. 4176 - 4696) do not constitute a
proper back pay hearing and void them ab initio to speed up unending litigation in this matter
that began in December 2010.
Respectfully submitted,

s/Mark A. Thompson
Mark Thompson, pro se
Plaintiff-Appellant
P.O. Box 8878
Champaign, IL 61826
(217) 480-6256
Dated: November 5, 2018

46

A-061

Case: 18-1658

Document: 24

Filed: 11/05/2018

Pages: 75

CERTIFICATE OF COMPLIANCE WITH F.R.A.P. RULE 32(a)(7)
The undersigned furnishes the following in compliance with F.R.A.P. Rule 32(a)(7):
I hereby certify that this brief conforms to the rules contained in F.R.A.P. Rule 32(a)(7)
for a brief produced with proportionally spaced “Times New Roman” 12-point font and one-inch
margins. The length of this brief is 46 pages but contain less than 14,000 words (13,999). The
length of the Separate Appendix is 350 pages.

s/Mark A. Thompson
Mark Thompson, pro se
Plaintiff-Appellant
P.O. Box 8878
Champaign, IL 61826
(217) 480-6256
. Dated: N ovember 5,2018

47

A-062

Case: 18-1658

Document: 24

Filed: 11/05/2018

Pages: 75

CIRCUIT RULE 30(d) STATEMENT
Pursuant to Circuit Rule 30(d), I, Mark Thompson, pro se, state that the Separate
Appendix included with this brief on appeal incorporates the materials required under Circuit
Rule 30(a) and (b).
Respectfully submitted,

s/Mark A. Thompson
Mark Thompson, pro se
Plaintiff-Appellant
P.O. Box 8878
Champaign, IL 61826
(217) 480-6256
Dated: November 5, 2018

48

A-063

Case: 18-1658

Document: 24

Filed: 11/05/2018

Pages: 75

CERTIFICATE OF SERVICE
I hereby certify that on November 5, 2018,1 filed the foregoing Brief and Separate
Appendix with the Clerk of the Court for the United States Court of Appeals for the Seventh
Circuit one paper copy of both the Brief and Separate Appendix, and for the judges 15 copies of
the Brief and 10 copies of the Separate Appendix. I certify that the opposing parties in the case
are registered CM/ECF users and that service will be accomplished by the CM/ECF system.
Respectfully submitted,

s/Mark A. Thompson
Mark Thompson, pro se
Plaintiff-Appellant
P.O. Box 8878
Champaign, IL 61826
(217)480-6256
Dated: November 5, 2018

49

A-064

casecy#1D°wmMW"Q± WiM#8 p Ws#:7£09
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
MARK THOMPSON,
Plaintiff,
v.
BOARD OF EDUCATION CITY OF
CHICAGO, ILLINOIS STATE BOARD OF
EDUCATION, NORTHSHORE UNIVERSITY
HEALTHSYSTEM, HAROLD ARDELL,
LINDA BROWN, FORREST CLAYPOOL,
JANE DOE, JANE DOE’S MOTHER,
REGINALD EVANS, THOMAS KRIEGER,
DAN NIELSEN, JAMES SULLIVAN,
CLAUDIA P. WELKE, and ALICIA
WINCKLER,
Defendants.

)
)
)
)

)

No. 14 C 6340

)
)
)

Judge John Z. Lee

)
)
)
)
)
)
)
)
)
)

AMENDED MEMORANDUM OPINION AND ORDER
While a teacher for the Chicago Public Schools (“CPS”), Mark Thompson was the
subject of number suspensions and transfers. He eventually was terminated on August 13, 2002.
Since that time, Thompson has brought no less than seven lawsuits in state and federal court
challenging these actions. Defendants have moved to dismiss the Second Amended Complaint
based, in large part, on res judicata and absolute immunity. As explained below, the Court
grants the motions [ 104][ 108][ 109][139] and dismisses the case.

A-065

Casedj^rl3$?8$§ Do«5e!fffiSn?(itFiled:

p^i>s#:7#le

I. Factual & Procedural Background
A.

Parties
Plaintiff Thompson is an African-American teacher who worked for the CPS from 2001

to 2003 and from 2005 to 2013. CPS is governed by the Defendant Board of Education of the
City of Chicago (“Board”),. 2d Am. Compl. % 6, ECF No. 99.
At all times relevant to the complaint, Defendant James Sullivan was the Board’s
Inspector General, id. ^[18, Defendant Linda Brown was the Board’s Director of Investigations,
id.

9, and Defendant Thomas Krieger was the Board’s Director of Office of Employee

Relations, id. ^ 16. Defendant Forrest Claypool was CPS’s CEO, id. Tf 12, and Defendant Harold
Ardell was CPS’s law department investigator. Finally, Defendant Alicia Winckler was CPS’s
Chief Talent Officer, and Defendant Reginald Evans worked for CPS as the principal of Harlan
High School. Id. 'll 13.
Defendant Illinois State Board of Education (“ISBE”) enforces state education
regulations. Id.

8. Defendant Dan Nielsen was employed by ISBE as the hearing officer that

presided over Thompson’s dismissal hearing. Id. f 17.
In addition to teaching for the CPS, Thompson provided private athletic training to
Defendant Jane Doe. Id. K 15. Doe and her mother, who is also a defendant, lived outside of
Cook County, and Jane did not attend a CPS school. Id.

14—15. Jane Doe received mental

health treatment from Defendant Dr. Claudia P. Welke, a psychiatrist, through Defendant
Northshore University Health System (‘TsfUHS”). Id.
B.

9, 19.

Thompson’s Lawsuit that Forms the Basis for his Title VII Retaliation Claim
On December 20, 2010, Thompson filed a lawsuit in the Circuit Court of Cook County,

2010 L 014372. Id. f 33. That lawsuit, which was eventually removed to federal court and

2

A-066

CaseC^l« Do«f^#n»Filed:

heard by Judge Ronald A. Guzman, case no. 11 C 1712, was brought against the Board, Keith
Brookshire, Deborah Edwards-Clay, and Reginald Evans, claiming gender and race
discrimination and retaliation under Title VII and 42 U.S.C. § 1981. Thompson also asserted a
violation of the Illinois Whistleblower Act, 740 Ill. Comp. Stat. 174 et seq., breach of contract,
tortious interference with contract, negligent supervision, libel per se, intentional infliction of
emotional distress, and civil conspiracy. Case No. 11 C 1712, 5th Am. Compl., ECF No. 178.
The subject matters of the lawsuit were Thompson’s suspension and termination from
various coaching positions and physical education teaching positions as well as his transfer to a
history teacher position, all of which occurred in 2010 while he worked at Harlan High School.
Id. Thompson had not yet been fired when he filed the complaint.
Judge Guzman entered summary judgment in favor of the defendants on most of the
claims, but he permitted Thompson to proceed on his claim that he had been suspended in
retaliation for filing certain EEOC complaints. See Thompson v. Bd. of Educ. of City of Chi, No.
11C 1712, 2014 WL 1322958, at *9 (N.D. Ill. Apr. 2, 2014). Thompson and the defendants
settled the case in January 2015.
C.

The End of Thompson’s Tenure with CPS
Thompson provided private athletic training to Jane Doe for several months. 2d Am.

Compl. | 15. Doe told local authorities that Thompson had stalked her, but the Board declined
to investigate the claim in May 2010. Id. f 32. Doe also told her psychiatrist, Dr. Welke, in
April 2011, that Thompson had raped her when she was 17. Id. f 19. Dr. Welke, in turn,
reported Doe’s account to Illinois Department of Children and Family Services (“DCFS”). Id. f
35.

3

A-067

Casediy#i$-<®&9 DoBre6ffiir,?®ftFiled;

pm$Ps#iP*

Thompson claims that the Board solicited Doe, through her mother, to falsely accuse him
of rape in retaliation for his prior suit against the Board and its employees. Id.

34. Thompson

also alleges that Doe, her mother, and the Board conspired to have his employment terminated.
Id. U 39.
As part of the investigation into Doe’s complaint, in August 2011, unbeknownst to
Thompson, the Board subpoenaed and obtained Thompson’s confidential AOL email records
from January 2009 to December 2010.

Id. | 41.

Thompson also alleges that the Board

obstructed justice and prevented him from learning about Doe’s allegations against him until
January 24, 2012. Id. ^ 36. According to Thompson, the Board then interviewed Thompson and
obtained his training schedule so that Doe and her mother could use it to file a false police report
in February 2012. Id. ^f 45. l
On May 21, 2012, Defendant Evans gave Thompson an “unsatisfactory” evaluation. Id.
T|51. The Board removed him from the classroom in June 2012. Id. ^ 52. Thompson alleges the
“unsatisfactory” evaluation was concocted by the Board as a pretext to terminate his employment
in order to conceal the Board’s retaliatory motive. Id. If 53. According to Thompson, the Board
allowed him to continue teaching students while it was investigating Doe’s accusations because
the Board knew the accusations were false. Id.
Based on the investigation into Doe’s claims, the Board suspended Thompson without
pay on September 13, 2012, pending the ISBE dismissal hearing. Id. If 52. The Board refused to
turn over any related investigatory records to Thompson. Id. ^f 58. In response to court orders.
the Board turned over investigatory files on February 25, 2013, but, according to Thompson, the

■

i

Thompson asserts that Doe eventually told police officers that her mother made her file the police
report and that she never intended to follow through with the charges. Id. H 49. Thompson was never
charged criminally. Id. f 50.
4

A-068

files it provided were incomplete, fabricated, and altered. Id.

60. Thompson asserts that the

Board relied on these files to terminate his employment on August 16, 2013, and during the
ISBE hearing on December 9,2013. Id.
D.

68-70; see Board’s Mem. Supp., Ex F, Opinion f 11.

Additional Lawsuits
Prior to filing the instant lawsuit, Thompson also sued the Board, its employees, Jane

Doe, Jane Doe’s mother, and others in the Circuit Court of Lake County (“case no. 13 L 879”).2
Board’s Mem. Supp., Ex. B, 13 L 879 Compl. That case, filed in November 2013, asserted
twelve state-law tort and statutory claims related to the Doe investigation, including claims that
the Board and CPS employees had subjected him to negligent infliction of emotional distress,
and that the Board, Doe, and her mother had conspired (1) to conceal Doe’s allegations from
him; (2) to fabricate, alter, and destroy evidence; (3) to illegally obtain his confidential
communications; and (4) to terminate Thompson’s employment.

The circuit court denied

Thompson’s motion to add a Title VII claim, in part, because it found that Thompson had waited
too long to add the claim causing undue prejudice to the defendants. See PI. ’s Mem Supp., Ex.
F, 8/26/14 Order in case no. 13 L 879.
The defendants filed a motion to dismiss, which the state court granted in August 2014.
See Board’s Mem. Supp., Ex. C, Opinion. And Thompson filed a timely appeal in state court.
On appeal, the Illinois appellate court affirmed the judgment in all respects and, in
particular, affirmed the denial of the motion to add the Title VII claim. See id. Thompson
petitioned for leave to appeal to the Illinois Supreme Court, which was denied, see id., Ex. D,
PLA denial, Thompson v. Bd. ofEduc. Twp. High Sch. Dist. 113, No. 120789, 60 N.E.3d 883 (Ill.
2016).
In that case, Thompson sued, among others, the Board of Education of the City of Chicago,
Harold Ardell, Linda Brown, Reginald Evans, Jane Doe, Jane Doe’s mother, and James Sullivan—all of
whom are also named in this lawsuit. See Board’s Mem. Supp., Ex. B, 13 L 879 Compl.
5

A-069

Shortly thereafter, on December 2, 2013, Thompson filed a three-count declaratory
judgment action (“case no 13 CH 26625”) in the Circuit Court of Cook County against Jane Doe,
NUHS (the custodian of Jane Doe’s mental health records), Dr. Welke, and Stephanie Locascio
(Doe’s therapist). Welke & NUHS’s Mem. Supp. Ex. A, 13 CH 26625 Compl. Thompson
alleged that Dr. Welke improperly reported Jane Doe’s false claim of rape to DCFS, which led to
an investigation and his eventual termination. Id. f 56. He once again claimed that CPS and
Board employees concealed Doe’s allegations from him. Id. ff 57-60. In addition, Thompson
sought a declaration that any privacy in Doe’s records had been waived and requested that the
court compel the defendants tq turn over the records. Id. ft 100(e), 107(e), 115(e).
The defendants filed a motion to dismiss, and it was granted. See id., Ex. 2, Opinion.
Thompson appealed, and the Illinois appellate court affirmed the judgment. See Board’s Mem.
Supp., Ex. G, Opinion f 67. The Illinois Supreme Court denied his petition for leave to appeal.
See Thompson v. N.J., No. 120993, 60 N.E.3d 883 (III. 2016).
Lastly, Thompson sued the Board and Barbara Byrd-Bennett, then-CEO of CPS, in the
Circuit Court of Cook County on September 29, 2014 (“case no. 14 CH 15697”). Id., Ex. E, 14
CH 15697 Compl. In it, Thompson requested a declaration that the ISBE lacked jurisdiction to
adjudicate his dismissal and sought to enjoin the hearing. See id. f 16.

The circuit court

dismissed the complaint for failure to exhaust administrative remedies and for failure to state a
claim. See id., Ex F, Opinion f 19. The appellate court affirmed, holding that the dismissal
hearing was within the jurisdiction of the ISBE and that Thompson had failed to exhaust his
administrative remedies. Id. Thompson’s petition for leave to appeal to the Illinois Supreme
Court was denied. See Thompson v. Bd. of Ednc. of City of Chi., No. 121051, 60 N.E.3d 883 (Ill.
2016).

6

A-070

E.

The Instant Lawsuit
While all of the above cases were still pending at the trial or appellate level in state court,

Thompson filed three separate lawsuits that were consolidated into this single case.3

The

consolidated complaint alleged: retaliatory discharge under Title VII based upon Thompson’s
filing of the earlier Title VII lawsuit (Count I); a violation of his due process rights (Count II); a
violation of his fourth amendment rights (Count III); violations of the Stored Communications
Act, 18 U.S.C. § 2703 (Counts IV and V); negligent infliction of emotional distress (Count VI);
negligent supervision (Count VII); violation of the Illinois Personnel Records Review Act
(IPRRA) (Count VIII); conspiracy to deny Thompson access to the courts and to obstruct justice
(Counts IX and X); a violation of his equal protection rights based upon the alleged concealment
of evidence during the Doe investigation (Count XI); and a violation of his due process rights on
based on the fabrication of evidence (Count XII).
The Board and its employees moved to dismiss the consolidated complaint. See ECF No.
32. The Court granted the motion in part and denied it in part. ECF No. 56. The Court granted
the motion as to Counts VEL, IX, and X, which were dismissed with prejudice, and as to Counts
VI, Vm (under IPRRA § 13), XI, and XII,4 which were dismissed without prejudice. Id. Tire

The instant case, case no. 14 C 6340, was filed on August 18, 2014. As for the two cases that
have been consolidated with this case: (1) case no. 14 C 7575 (asserting claims against the Board) was
removed to federal court on September 29, 2014, but the complaint was originally filed in state court on
August 26, 2014; and (2) case no. 14 C 6838 (asserting claims against the Board, Harold Ardell, Linda
Brown, James Sullivan, and Alicia Winckler) was filed on September 4, 2014. Because all three of these
cases were filed before the state court proceedings concluded in case nos. 13 L 879, 13 CH 26625, and 14
CH 15697, the Court has subject jurisdiction. See Exxon Mobil Coip. v. Saudi Basic Indus. Corp., 544
U.S. 280, 292 (2005) (“When there is parallel state and federal litigation, Rooker-Feldman is not
triggered simply by the entry of judgment in state court. This Court has repeatedly held that the pendency
of an action in the state court is no bar to proceedings concerning the same matter in the Federal court
having jurisdiction.”) (internal quotation marks omitted).
In response to the motion to dismiss, Thompson withdrew Count XII of the First Amended
Complaint. See Mem. Op. & Order at 24, ECF No. 56.

7

A-071

Court denied the motion as to Counts I through V, and the remainder of Count VTIJL (under
IPRRA § 2). Id.
Thompson moved for leave to file a second amended complaint. ECF No. 93. The Court
granted Thompson leave to file Counts I through VI, VIII through XTV, and XIX through XXIII.
Id. The Court denied him leave to file Counts VII, and XV through XVIII. Id. Thompson has
indicated that Counts VII and XV through XVIII are no longer at issue before this Court. PI. ’s
Resp. Br. at 6, ECF No. 118.
II. Legal Standard
A motion under Rule 12(b)(6) challenges the sufficiency of the plaintiffs complaint.
Christensen v. Cty. of Boone, 483 F.3d 454, 457 (7th Cir. 2007). The federal notice pleading
standard requires a complaint to “contain sufficient factual matter, accepted as true, to ‘state a
claim to relief that is plausible on its face.”’ Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009)
(quoting Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570 (2009)). A complaint must provide only
“enough detail to give the defendant fair notice of what the claim is and the grounds upon which
it rests, and, through his allegations, show that it is plausible, rather than merely speculative, that
he is entitled to relief.” Tamayo v. Blagojevich, 526 F.3d 1074, 1083 (7th Cir. 2008) (internal
quotation marks omitted).
In evaluating a Rule 12(b)(6) motion, all well-pleaded allegations in the complaint are
accepted as true, and courts must draw all reasonable inferences in the plaintiffs favor. Cole v.
Milwaukee Area Tech. Coll. Dist., 634 F.3d 901, 903 (7th Cir. 2011); Justice v. Town of Cicero,
577 F.3d 768, 771 (7th Cir. 2009). In a motion to dismiss, a complaint’s factual allegations may
be supplemented by “documents that are attached to the complaint,” as well as “documents that
are central to the complaint and are referred to in it.” Williamson v. Curran, 714 F.3d 432, 436

8

A-072

(7th Cir. 2013); Geinosky v. City of Chi., 675 F.3d 743, 745 n.l (7th Cir. 2012); see Fed. R. Civ.
P. 10(c).
III. Analysis
Defendants move to dismiss Counts I through VI, VUI through XIV, and XIX through
XXIII of the Second Amended Complaint on multiple grounds. Principally, Defendants argue
that the claims are barred by res judicata or absolute immunity.
A.

Res Judicata
Preclusion is not one of the grounds for dismissal listed in Federal Rule of Civil

Procedure Rule 12(b), and normally a preclusion defense must be raised in the answer to a
complaint. Muhammad v. Oliver, 547 F.3d 874, 878 (7th Cir. 2008). One exception is if the
complaint on its face discloses that the claims are precluded. Id. Another is if the error of
raising the preclusion defense before answering “is of no consequence” because a court has
before it everything “needed in order to be able to rule on the defense.” Carr v. Tillery, 591 F.3d
909, 913 (7th Cir. 2010). A court may take judicial notice of matters in the public record,
including pleadings and orders in previous cases, without converting a Rule 12(b)(6) motion into
a motion for summary judgment. See Henson v. CSC Credit Servs., 29 F.3d 280, 284 (7th Cir.
1994) (district court properly considered public court documents from prior state court litigation
in deciding defendants’ motion to dismiss for failure to state a claim).
Whether a state-court judgment precludes claims in a subsequent federal case depends on
the preclusion rules of the particular state. 28 U.S.C. § 1738; Rogers v. Desiderio, 58 F.3d 299,
301 (7th Cir. 1995). In Illinois, the “doctrine of res judicata [claim preclusion] provides that a
final judgment on the merits rendered by a court of competent jurisdiction bars any subsequent
actions between the same parties or their privies on the same cause of action.” Hudson v. City of

9

A-073

Chi., 889 N.E.2d 210, 213 (111. 2008). The doctrine “bars not only what was actually decided in
the first action but also whatever could have been decided.” Id.
Generally speaking, “[m]ultiple lawsuits in separate forums, as well as requiring more
than one court to analyze and digest the facts of-a case, all have the effect of harassing
defendants and wasting judicial manpower—the precise dangers the doctrine intends to prevent.”
Shaver v. F.W. Woolworth Co., 840 F.2d 1361, 1366 n.2 (7th Cir. 1988). The main thrust of
“claim preclusion is to force a plaintiff to explore all the facts, develop all the theories, and
demand all the remedies in the first suit.” Id. (internal quotation marks omitted).
Defendants raised the issue of res judicata in their previously filed motion to dismiss.
The Court denied the motion due to the pending appeal in case no. 13 L 879, and its concern that
this circuit has not yet determined whether a pending appeal suspends the effect of claim
preclusion. Mem. Op. & Order at 5 (quoting Rogers, 58 F.3d at 302 (“To be blunt, we have no
idea what the law of Illinois is on the question whether a pending appeal destroys the claim
preclusive effect of a judgment.”)).
After the Court ruled on the motion to dismiss, however, the Illinois appellate court
affirmed the dismissal of all three of Thompson’s state court complaints in case nos. 13 L 879,
13 CH 26625, and 14 CH 15697, and the Illinois Supreme Court denied Thompson’s petitions
for leave to appeal in all three cases. See Board’s Mem. Supp., Exs. C, D, F, G; see also 60
N.E.3d 883, Nos. 120789, 120993, 121051 (Sept. 28, 2016). Thus, the Court’s earlier concern
has been allayed, because there has been a final judgment on the merits in each of Thompson’s
state court cases.

10

A-074

Case:d^:cY#S^Doq9MV^r^fD§^iled: 03M8fl39S/£Ma8

In the present lawsuit, Thompson has sued the very same parties or their privies that he
sued in the state court actions.5 The Board, Harold Ardell, Linda Brown, Reginald Evans, James
Sullivan, NUHS, Welke, Doe, and Doe’s mother were all sued in the state court cases. The
remaining Defendants (save Nielsen)—Claypool, Krieger, and Winckler—are all sued in thencapacities as Board employees and, therefore, are privies of the Board. See Greer v. Horton, No.
00 C 6695, 2002 WL 31121094, at *2 (N.D. HI. Sept. 25, 2002), offd sub nom. Greer v. Cty. of
Cook, 54 F. App’x 232 (7th Cir. 2002).
What is more, Thompson’s claims in the Second Amended Complaint and his state-court
lawsuits emerge from the same core of operative facts. For example, he alleges in the present
case (and had alleged in the state court cases) that the Board, its employees, Doe, and Doe’s
mother conspired to have his employment terminated based on false allegations. Compare 2d
Am. Compl.
Compl.

34, 61, 71, 171, 186, 189, 343, 362, with Board’s Mem. Supp., Ex. B, 13 L 879

102, 104,138,169-179. Thompson also asserts that he had a pending federal lawsuit,

case no. 11 C 1712, and that the termination of his employment and related proceedings
constituted retaliation and harassment for filing that lawsuit. Compare 2d Am. Compl. ^ 33-34,
Again, in sum, in case no. 13 L 879, Thompson sued, among others, Jane Doe, Jane Doe’s
mother, the Board, and Board employees Harold Ardell, Linda Brown, Reginald Evans, and James
Sullivan, regarding their alleged conduct related to his suspension, the termination of his employment,
and the ISBE dismissal hearings, including the hearing addressing the denial of back pay. See Board’s
Mem. Supp., Ex. B, 13 L 879 Compl. In case no. 13 CH 26625, Thompson sued Doe, NUHS, Welke, and
Locascio for declaratory and injunctive relief, alleging he had been terminated and had been wrongfully
deprived of Doe’s medical records in relation to the dismissal hearings. NUHS & Welke’s Mem. Supp.,
Ex. A, Compl. In case no. 14 CH 15697, Thompson sued the Board and Barbara Byrd-Bennett, thenCEO of CPS, based on his federal lawsuit, case no. 11 C 1712, his suspension without pay, the retaliatory
dismissal and denial of back pay hearing, CPS’s ignoring all exculpatory evidence, illegally subpoenaed
AOL email accounts, and failure to turn over investigatory files. See Board’s Mem. Supp., Ex. E, 14 CH
15697 Compl.
Thompson has also sued ISBE Hearing Officer Dan Nielsen in Count XTV, who has not asserted
the res judicata defense. See Nielsen’s Mem. Supp., ECF No. 139.

11

A-075

Casei^-CY^I^Docg^i^^fll^iled: 03lfl$gF^^.^30

84, 242, 'with Board’s Mem. Supp., Ex. B, 13 L 879 Compl. UK 87, 249, and id., Ex. E, 14 CH
15697 Compl. Ut 1, 13.

Furthermore, he claims that the Board, its employees, and agents

concealed Doe’s allegations from him by intercepting his mail and otherwise withheld, altered,
falsified, or manipulated evidence against him in order to justify his dismissal. Compare 2d Am;
Compl.

60, 310-313, with Board’s Mem. Supp., Ex. B, 13 L 879 Compl. fi 71-75, 143-149.-

He argues that the Board wrongfully obtained privileged communications via subpoena.
Compare 2d Am. Compl.
101.

108, 111, with Board’s Mem. Supp., Ex. B, 13 L 879 Compl. UK 93-

He asserts that the dismissal hearing related to back pay was retaliatory and lacked

authority because he had already been discharged. Compare 2d Am. Compl. U 266, with Board’s
Mem. Supp., Ex. E, 14 CH 15697 Compl. Uf 20-22. He avers that Doe and her mother provided
false testimony during the investigation and at his dismissal hearings. Compare 2d Am. Compl.
UK 72, 74, 76, with Board’s Mem. Supp., Ex. B, 13 L 879 Compl. UK 157, 159, 162. And he
alleges that Doe waived her right to privacy with regard to her mental health records, and,
therefore, he should have been able to use the records to cross-examine her. Compare 2d Am.
Compl. Ulf 39, 367(a)-(d), with NUHS & Welke’s Mem. Supp., Ex. 1, 13 CH 26625 Compl. ffll
100(a)-(e), 107(a)-(e), 115(a)-(e).

In sum, the claims asserted here and in the state court

. lawsuits derive from the same nucleus of operative fact: the purportedly improper conduct of the
Defendants relating to Thompson’s suspension, the investigation into Doe’s allegations, the
ISBE proceedings, and his eventual dismissal.
Thompson’s reliance on new legal theories cannot save his claims from being precluded.
See Carr, 591 F.3d at 913-14 (“You cannot maintain a suit, arising from the same transaction or
events underlying a previous suit, simply by a change of legal theory. That is called ‘claim
splitting,’ and is barred by the doctrine of res judicata.”). And, although many of Thompson’s

12

A-076

Case:(l^cy^^Doc0ei^ii^r^(B§/filed: 03^8-^/$)£§48 Ffog^;#?g231

current claims rely on federal law rather than state law, that too is unavailing, because Illinois
courts have jurisdiction to adjudicate federal claims, and Thompson undoubtedly could have
brought his current claims in state court. See Dookeran v. Cty. of Cook, 719 F.3d 570, 576-77
(7th Cir. 2013) (State courts are “presumptively competent to adjudicate claims arising under the
laws of the United States.”) (internal quotation marks omitted); Hondo, Inc. v.* Sterling, 21 F.3d
775, 779 (7th Cir. 1994) (“[Sjtate courts have concurrent jurisdiction to enforce rights created by
a federal statute.”) (internal quotation marks omitted).
Thompson offers several reasons for why this claims are not barred by res judicata. As
an initial matter, Thompson asserts that, if the Court were to bar his Title VII claims, it would be,
in effect, giving a preclusive effect to unreviewed state administrative proceedings. Not so. By
applying res judicata in this case, the Court gives preclusive effect to the state court judgments in
case nos. 13 L 879, 13 CH 26625, and 14 CH 15697. See Parsons Steel, Inc. v. First Ala. Bank,
474 U.S. 518, 523 (1986) (“[A] federal court must give the same preclusive effect to a state-court
judgment as another court of that State would give.”).
Next, and relatedly, Thompson argues that the Court cannot give preclusive effect to a
state administrative proceeding (the back pay hearing) that was conducted without authority.
This argument falters for the same reason provided above. Although Thompson alleges that the
ISBE lacked authority to conduct the back pay hearing, the circuit courts in which he filed case
nos. 13 L 879, 13 CH 26625, and 14 CH 15697 did not lack authority to adjudicate his claims,
and it is those judgments that preclude Thompson from asserting his claims here.6

It should be noted that the Illinois state courts have recognized that the ISBE properly exercised
jurisdiction over Thompson’s back pay hearing. See Board’s Mem. Supp., Ex. E, 14 CH 15697 Compl.;
id., Ex F, Opinion 19 (affirming dismissal of the claim with prejudice); Thompson v. Bd. of Educ. of
City of Chi., No. 121051, 60N.E.3d 883 (Ill. Sept. 28, 2016).
13

A-077

Case-d^^#Sa«Doq9Bl9IWiMI|W=i|ed: »Wi8fl)JS/»SS*8

Finally, Thompson contends that certain exceptions to the res judicata doctrine apply
here. The Illinois Supreme Court has recognized exceptions to res judicata where:
(1) the parties have agreed in terms or in effect that plaintiff may
split his claim or the defendant has acquiesced therein; (2) the
court in the first action expressly reserved the plaintiff’s right to
maintain the second action; (3) the plaintiff was unable to obtain
relief on his claim because of a restriction on the subject-matter
jurisdiction of the court in the first action; (4) the judgment in the
first action was plainly inconsistent with the equitable
implementation of a statutory scheme; (5) the case involves a
continuing or recurrent wrong; or (6) it is clearly and convincingly
shown that the policies favoring preclusion of a second action are
overcome for an extraordinary reason.
Rein v. David A. Noyes & Co., 665 N.E.2d 1199, 1207 (Ill. 1996). According to Thompson, five
of these exceptions apply.
As to the first exception, Thompson does not argue that there was a claim-splitting
agreement, explicit or otherwise. Rather, he leans heavily on acquiescence, but acquiescence
would arise only if Defendants in this case neglected to object to the current lawsuit on res
judicata grounds. See Dinerstein v. Evanston Athl. Clubs, Inc., 64 N.E.3d 1132, 1144—49 (Ill.
App. Ct. 2016). Clearly, they have not.
The second exception is also inapplicable. “The express reservation exception applies
only to those portions of the prior complaint that had not reached final judgment and the plaintiff
voluntarily dismissed.”

Venturella v. Dreyfuss, 84 N.E.3d 386, 394-95 (Ill. App. Ct. 2017).

“[I]n order for a circuit court to expressly reserve a claim . . . , the reservation must be clearly
and unmistakably communicated or directly stated.” Id. at 395.
Venturella involved a case where a previous court had denied a motion to add a claim in
a prior lawsuit and had not expressly reserved the claim for future litigation in a docket entry or
written order. The court in a subsequent lawsuit held, and the appellate court affirmed, that res

14

A-078

03^J8

F^^.^229

judicata barred the claim and the express reservation exception was inapplicable. Id. Likewise,
here, the circuit court in case no. 13 L 879 denied Thompson’s motion for leave to add his Title
VII claim and did not expressly state that it reserved the claim for future litigation. Rather, the
circuit court denied the motion to add tire Title VH claim as inexcusably untimely, see Pl.’s
Mem. Supp., Ex. F, 8/26/14 Order, and the appellate court affirmed the denial, see Board’s Mem.
Supp., Ex. C, Opinion

74—79. Accordingly, the express reservation exception does not apply.

Thompson fares no better with regard to the third exception. He asserts that he was
unable to obtain relief with regard to certain of his claims because of a restriction on the subject
matter jurisdiction of the circuit court in Lake County. He contends that the Lake County court
lacked jurisdiction to issue injunctive relief as to the Board and lacked jurisdiction to adjudicate
his Personnel Record Review Act claims, because the Board and his personnel records are
located in Cook County. Regardless of whether either of these propositions has any merit, the
Court finds this exception inapplicable because Thompson also had sued the Board for injunctive
relief in Cook County, case no. 14 CH 15697, and he could have asserted his claims in that case
since there had not yet been a final judgment on the merits hi any of his cases at the time of its
filing.
Next, Thompson contends that the fifth exception applies because the case involves a
continuing or recurrent wrong.

The Department of Labor concluded its administration and

enforcement action under the IPPRA with regard to Thompson’s request for personnel records
on August 7, 2013, and there is no indication that Thompson had made any additional requests.
2d Am. Compl., Ex. A, 8/7/13 Notice. Thompson’s employment was terminated on August 16,
2013, and the last hearing related to his dismissal occurred on December 9, 2013. To the extent
that Thompson still feels the impact of Defendants’ conduct related to the Doe investigation, the

15

A-079

CaseGlaM:cl/8^f§^§ DocS0Mi^h?.{¥4=iled: 03i^#'ialfi^§/l§^ 48

hearings, and the termination of his employment, the “lingering effect of an earlier, distinct”
wrong does not make a violation continuing. See Pitts v. City of Kankakee, 267 F.3d 592, 595
(7th Cir. 2001). Because Thompson has not alleged a continuing or recurring wrong, the claims
asserted in the Second Amended Complaint do not fall within this exception.
Lastly, with regard to the sixth exception, Thompson argues that he has clearly and
convincingly shown that the policies favoring preclusion of a second action are overcome for an
extraordinary reason. Thompson dedicates three sentences of his brief to this argument and fails
to cite any law in support. See Pl.’s Resp. Br. at 12. Not only is his argument (such as it is)
unpersuasive, but this argument is deemed waived. See Mahaffey v. Ramos, 588 F.3d 1142,
1146 (7th Cir. 2009) (citations omitted) (“Perfunctory, undeveloped arguments without
discussion or citation to pertinent legal authority are waived.”).
Having determined that the asserted exceptions to res judicata are inapplicable, the Court
holds that the doctrine of res judicata bars Counts I through VI, Counts VUI through XIV, and
Counts XIX through XXIII against the Board, NUHS, Harold Ardell, Linda Brown, Forrest
Claypool, Jane Doe, Jane Doe’s mother, Reginald Evans, Thomas Krieger, James Sullivan,
Claudia Welke, and Alicia Winckler.7 Because the Court previously denied Thompson leave to
file Count VII and Counts XV through XVIII, no claims remain as to these Defendants or the
ISBE. See 3/23/17 Order, ECF No. 98.
B.

Absolute Immunity
The only Defendant who has not asserted a res judicata defense is Nielsen, the ISBE

Hearing Officer who presided over Thompson’s ISBE dismissal hearing on December 9, 2013.
See 2d Am. Compl. *| 265. Instead, Nielsen contends that he is absolutely immune from liability
Because the Court holds that res judicata bars these claims, it need not reach Defendants’
additional arguments that the claims are also barred by Plaintiffs failure to exhaust his administrative
remedies as well as Plaintiff’s release in a prior settlement agreement.
16

A-080

Case'daM:4/8Pf§^§ DoTO^inWflled: 03ffil8fl9fl§/2§f$a8
with regard to Thompson’s procedural due process claim faulting him for convening and
presiding over the hearing. Id.
“Absolute judicial immunity shields judicial and quasi-judicial actors from liability for
civil damages arising out of the performance of their judicial functions.” Killinger-v. Johnson,
389 F.-3d 765, 770 (7th Cir. 2004). “Protection hinges not on the defendant’s job title,.but on the
nature of the function he performed.” Archer v. Chisholm, 870 F.3d 603, 613 (7th Cir. 2017).
Here, Thompson alleges that, as the hearing officer, Nielsen convened and presided over
the December 9 hearing. 2d Am. Compl. ^ 265. Thompson also states that, during the hearing,
Nielsen exercised his discretion as an evidentiary gatekeeper and controlled the conduct of the
attorneys. Id. ^ 237. There is sufficient information in the Second Amended Complaint to
conclude that Nielsen performed a judicial function at the hearing.
That does not end the matter, however. A judge loses absolute immunity if he “act[s] in
the clear absence of all jurisdiction.”
(quotation omitted).

Stump v. Sparkman, 435 U.S. 349, 356-57 (1978)

Jurisdiction of an administrative agency to conduct proceedings is

conferred by statute. Alvarado v. Indus. Comm’n, 837 N.E.2d 909, 914 (Ill. 2005). The Illinois
legislature has granted ISBE the authority and jurisdiction to hold hearings related to the removal
of a permanently appointed teacher from his or her employment for cause. 105 Ill. Comp. Stat.
5/34-85.
Thompson alleges that he was suspended without pay and, according to him, the
governing contract between the CPS and the Chicago Teachers Union prohibited suspending a
tenured teacher without pay prior to a dismissal hearing. See Board’s Mem. Supp., Ex. E, 14 CH
15697 Compl. | 16; 2d Am. Compl. f 152. Holding additional dismissal hearings in order to
determine whether Thompson was entitled to back pay during the period between his suspension

17

A-081

Casebk&r<*69G§!§§

0^§&M^/i§fg *8 ^§^230

and a dismissal hearing is a matter that falls within the ISBE’s jurisdiction. See Newkirk v.
Bigard, 485 N.E.2d 321, 324 (Ill. 1985) (holding that the mining board had jurisdiction as long
as the matter fell within the general class of cases within its province). This is consistent with
the Illinois appellate court’s conclusion that the ISBE had jurisdiction to convene Thompson’s
dismissal hearing in order to determine back pay. See Board’s Mem. Supp., Ex. F, Opinion f 15.
The Court concludes that Nielsen fulfilled the role of a judge at the December 9, 2013,
hearing and that the ISBE had jurisdiction to hold the hearing. Accordingly, the Court grants
Nielsen’s motion to dismiss on the basis of absolute immunity with regard to Count XIV, the
only claim against him.
Conclusion
For the reasons set forth above, the Court grants Defendants’ motion to dismiss [104,
108, 109, 139], and the Second Amended Complaint is dismissed with prejudice as to all
Defendants. This case is hereby terminated. This is a final and appealable order.
IT IS SO ORDERED

ENTER: 3/22/18

JOHN Z. LEE
United States District Judge

18

A-082

4/22/2020

•

Re: Dismissal Hearing Status

From: krhalejd@hotmail.com,
To: drmarkthompson@aol.com,

„

Subject: Re: Dismissal Hearing Status
Date: Fri, Apr 10, 2020 9:20 am

Nothing has happened with the ISBE hearing. Weren't you laid off prior to the hearing?

Kurds Hale
Poltrock & Poltrock
123 W. Madison St., Ste. 1300
Chicago, 1L 60602
ph: (312) 236-0606
fax: (312) 236-9264

From: drmarkthompson@aol.com <drmarkthompson@aol.com>
Sent: Thursday, April 9, 2020 4:35 PM
To: krhalejd@hotmail.com <krhalejd@hotmail.com>
Subject: Re: Dismissal Hearing Status

No.
Sent from AOL Mobile Mail
Get the new AOL app: mail.mobile.aol.com

On Thursday, April 9, 2020, Kurds Hale <krhalejd@hotmail.com> wrote:
Have you concluded all of your appeals.

Kurds Hale
Poltrock & Poltrock
123 W. Madison St., Ste. 1300
Chicago, IL 60602
ph: (312) 236-0606
fax: (312) 236-9264

From: drmarkthompson@aol.com <drmarkthompson@aol.com>
Sent: Wednesday, April 8, 2020 4:18 PM
To: krhalejd@hotmail.com <krhalejd@hotmail.com>
Subject: Dismissal Hearing Status
Kurtis,
Christopher Garcia and one of the Board's attorney are claiming my dismissal hearing is over. Can you get something in
writing from the CPS verifying one way or another as to their formal position as to the status of the dismissal hearing? I
haven't seen anything suggesting charges have been withdrawn against me.
Thanks
Mark Thompson
217-480-6256

https://mail.aol.com/webmail-std/en-us/Pri ntMessage

A-083

I/I

1
1

TRANSCRIBED FROM DIGITAL RECORDING

2

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION

3

4 MARK THOMPSON,
5
6

PI ai nti f f
-vs-

BOARD OF EDUCATION OF THE CITY
7 OF CHICAGO, et al.,
8

Defendants.

Case No. 11 C 1712
Chicago, Illinois
May 17, 2013
9:26 a.m.

9
10
11
12

TRANSCRIPT OF PROCEEDINGS
BEFORE THE HONORABLE JEFFREY COLE, MAGISTRATE JUDGE
APPEARANCES:
For the Plaintiff:

MR. MARK THOMPSON
Pro Se
P.0. Box 8878
Champaign, IL 61821
(217) 480-6256
E-mail: Drmarkthompson@aol.com

For the Defendants:

MS. KATHLEEN D. CRAWFORD
MS. KATHLEEN MARIE GIBBONS
MS. LISA DECKER HUGE
Chicago Board of Education, Law
Department
125 South Clark Street
7th Floor
Chicago, IL 60603
(312) 553-5935
E-mail: Kdcrawford@cps.edu
Kgibbons@cps.edu
Ldhuge@cps.k12.i 1.us

13
14

15

16
17
18
19
20
21
22
23
24
25

Transcriber:
KATHLEEN M. FENNELL, CSR, RPR, RMR, FCRR
Official Court Reporter
United States District Court
219 South Dearborn Street, Suite 2524-A
Chicago, Illinois 60604
Telephone: (312) 435-5569
Kathl een_Fennel 1 @i 1 ncl. uscourts. gov

A-084

2
1

(Proceedings heard in open court:)

2
3

THE CLERK:

Education, City of Chicago, et al.

4
5

THE COURT:

8
9
10
11
12
13
14
15
16

So did I give you -- did I steer you

wrong on the cafeteria?

6
7

11 C 1712, Thompson versus Board of

MR. THOMPSON:

No, it was good.

It was good.

It was

all good.
THE COURT:

Mr. Thompson was here because he didn't

want to miss anything, but he was here so early, I told him to
go to the cafeteria and he did, so here we are.
MS. CRAWFORD:

Okay.

Kathleen Crawford on behalf of the

Board of Education.
MS. GIBBONS:

Kathleen Gibbons on behalf of the

teacher defendant Keith Brookshire.
MS. HUGE:

Lisa Huge on behalf of Principal Evans and

Edwards-Cl ay.

17

MR. THOMPSON:

18

THE COURT:

Mark Thompson, plaintiff.

All right.

The first thing I'd like to

19

talk to you about is the defendants' joint motion for entry of

20

a proposed qualified HIPAA order.

21

understand you, from the correspondence or the motion at

22

least, sorry, that there's an issue about you want somebody to

23

take a look at this?

24
25

MR. THOMPSON:

And, Mr. Thompson, I

Wei 1, I -- it j ust was thrown in my

face yesterday, and I was, like, whoa, you know, because it

A-085

3
1

deals with HIPAA and all that stuff, and I'm not --

2
3
4

THE COURT:

It's to protect you.

You understand

that.
MR. THOMPSON:

Right, I understand.

All I wanted was

5

someone to look at it first, but she was talking about things

6

from my interrogatories, and I wasn't aware, I thought they

7

were talking about something in the future, so I have no

8

problem with it.

9

THE COURT:

Okay, good.

So the motion No. 187 for

10

entry of a proposed qualified HIPAA order is granted without

11

objection, and I'll -- this is -- oh, this is another -- why

12

did he grant that? What's the point of that? If he sent the

13

case here, then why -- well, apparently Judge Guzman has

14

already granted it.

15
16

MS. CRAWFORD:

Should I send it to his proposed order

inbox, I guess, for his signature?

17

THE COURT:

18

MS. CRAWFORD:

19

THE COURT:

I'll enter it.

I'll sign the order.

Thank you.

Folks, two things.

Did you set -- you

20

noticed it here though, right?

21

MS. CRAWFORD:

I did.

22

MR. THOMPSON:

I think she sent it to the wrong -- I

I did.

23

think she was supposed to send it to you, but it went through

24

Judge Guzman.

25

I think that was --

MS. CRAWFORD:

It did not.

I sent it to you, Your

A-086

4
1

Honor.

2

THE COURT:

3

MR. THOMPSON:

4

THE COURT:

Well, let's -- yeah, I thought you did.
I mean the motion --

It's fine.

Let's -- the other thing,

5

when you file things that have exhibits, you must have --

6

first, I don't think I got a courtesy copy, but maybe I did.

7

MS. CRAWFORD:

8

THE COURT:

I handed it actually to you.

Did you? Okay.

You must -- because I

9

couldn't tell because I do remember -- I generally don't get

10

courtesy copies with the filing stamps, so you did it right

11

and I'm sorry, but you have to have tabs, protruding tabs.

12

This one didn't matter because it was just two, but there's

13

going to be filings I'm sure that are extensive, and the tabs

14

are so helpful.

15

MS. CRAWFORD:

16

THE COURT:

Sure.

So please try to do that.

And

17

Mr. Thompson, if you can remember because your fi1es are going

18

to be enormous I think, when you file courtesy copies, not the

19

real thing but with me they have to have protruding tabs.

20

Okay.

21

enter the order.

22

order.

So that's taken carry of, and I will -- I'll
He granted the motion, and I'll enter the

23

MS. CRAWFORD:

24

THE COURT:

25

have two protective orders.

Thank you.

Maybe he'll enter an order.

Then we'll

Okay.

A-087

5
1

All right.

Now, what's our next -- are we waiting

2

for Mr. Thompson to respond to the -- to a reply to the other

3

issues that we've got going? Because I've got a very

4

lengthy -- no, I'm waiting for a reply from the movant.

5

Mr. Thompson, you responded, didn't you?

6
7
8
9
10

MS. GIBBONS:

Which motion, Your Honor? There's so

many.
THE COURT:

Let me get -- hold on one second, okay?

(Pause.)
THE COURT:

Okay.

Wei1, I have -- I have

11

Mr. Thompson's motion to vacate order No. 171, which is

12

Document 172 on the docket, and then I've got -- I've got Jane

13

Doe's memorandum in opposition to plaintiff's motion to strike

14

the Court's April 30th order, and that's this gigantic thing.

15

MS. GIBBONS:

Jane Doe and her mother have been

16

dropped as defendants.

17

MR. THOMPSON:

18
19

Right.

A lot -- I mean, I'm going to

respond to it, but I've separated this
THE COURT:

Well, I know you said that in your -- in

20

what I have.

21

Paragraph 6 on Page 2, you say it is possible but not for

22

certain that the reason why plaintiff was unable to file a

23

response and why the motion was never on my docket was because

24

Jane Doe was terminated as a defendant on the evening of

25

Apri1 16th.

You explained to me that they're not -- in

A-088

6
1

MR. THOMPSON:

2

THE COURT:

That's correct, Your Honor.

But anyway, I think that's what we have

3

now are these -- are these things, but they don't involve you

4

folks, right? They involve Jane Doe.

5

MS. GIBBONS:

Correct.

6

MR. THOMPSON:

Right.

They were put -- I took them

7

out of the case completely just because there's plenty of time

8

on the statute of limitations to entertain it again, but

9

there's so many issues.

She had mentioned dealing with it at

10

the state 1evel, and I agree, so I j ust, like, took it al 1

11

out.

12

THE COURT:

Wei1, does that mean that al1 of this

13

concern about your attempt to get records of Jane Doe, that

14

we're not going to have to deal with that?

15

MR. THOMPSON:

For -- yeah, pretty much.

I have no

16

plans on deposing them or anything like that.

17

that I do want to pursue is the investigative file that's part

18

of my personnel file.

19

entire personnel file and the argument that I had won a couple

20

months ago which involves not only phone records but also 15

21

statements that students wrote that actually does concern the

22

counts there.

23
24
25

THE COURT:

The only issue

I just want to make sure I have my

Okay.

Well

let me try to sort of focus

myself.
So the Jane Doe in terms of your seeking records

A-089

7

1

medical records --

2

MR. THOMPSON:

3

THE COURT:

4

Okay.

MR. THOMPSON:

That's correct, unless they were to

bring it back into the case, which I don't see.

7

THE COURT:

8

MR. THOMPSON:

9

THE COURT:

10

So I can deal then with this

response in an appropriate way because it's moot.

5
6

Not going to happen.

No, no, I can only deal with -Right.

-- what I have in the here and now.

There wi11 be problems enough if we go through them.

11

MR. THOMPSON:

12

THE COURT:

Right.

But I'll take care of these outstanding

13

things myself in an order that I'll draft, but it's basically

14

moot.

15
16

MR. THOMPSON:

So I don't need to file a response

then.

17

THE COURT:

18

MR. THOMPSON:

19

MS. GIBBONS:

You do not need to file a response.
Excel 1ent.

Okay, cool.

And, Your Honor, just to try to help

20

focus us here or what Mr. Thompson just brought up about what

21

he believes is still outstanding pieces from his personnel

22

file, one of them does deal with Jane Doe and the Office of

23

the Inspector General did turn over the part of the

24

investigative file that is going to be used in the

25

disciplinary hearing with the State Board of Ed, then through

A-090

8
1

different e-mails we've turned over everything else except,

2

and Mr. Thompson was put on notice of it through

3

correspondence dated Apri1 3rd that the one outstanding piece

4

of the investigative file that was not ever going to be used

5

in his disciplinary hearing so that's why we do not intend it

6

as part of his personnel file, but to just try to bring

7

closure to this, we turned over other pieces, our response

8

from T-Mobile to a subpoena the Office of Inspector General

9

issued for phone records of Jane Doe and her mother from

10

March 29, 2011 through July 6th, 2011.

11

file of those, but either -- no, you entered on April 2nd, you

12

granted Jane Doe and her mother's motion to quash that

13

subpoena.

14

THE COURT:

15

MS. GIBBONS:

16
17

We do have an Excel

Right.
So we did then not turn over those

records.
So that is an outstanding issue that we need to deal

18

with regarding -- that's the only thing that deals with

19

potentially Jane Doe and her mother are those phone records.

20
21
22

THE COURT:

I don't quite understand about the

investigation and that you're not turning that over?
MS. GIBBONS:

No, we were -- the only part of an

23

investigative file is what would be used against an employee

24

in an adverse action.

25

nothing ever happens to them, so that part of the personnel

We do investigations for stuff that

A-091

9
1

records says it's not part of it.

2

going to be used.

3

the fact or a year after the fact that never led anywhere, had

4

nothing to do with any of the disciplinary actions, but it was

5

in

6
7

These are records that are two years after

THE COURT:
MS. GIBBONS:

9

THE COURT:

Oh, I see.

MS. GIBBONS:

So what does it have to do

I've never looked at them.

Nothing.

It just came --

13
14

No, because it's after the fact.

with? What's the topic?

11
12

What - - does i t have to do wi th Jane Doe

and her allegations against Mr. Thompson?

8
10

So we turned over what is

THE COURT:

Wei1, somebody needs to 1ook at them to

know whether or not --

15

MS. GIBBONS:

I mean, I can tell there's a phone

16

number to a phone number.

17

numbers are.

18

there.

19

because it was focused as to what happened on those days.

I've never analyzed who the phone

I don't know if Mr. Thompson's phone number is

It's three months of it.

But it was never to be used

20

THE COURT:

21

The fact that you all or the prosecutor, for example,

I'm not making myself clear.

22

in a case decides not to use something has absolutely nothing

23

to do with its relevance or utility to somebody who's charged

24

whether civilly or criminally.

25

of Brady.

I mean, it's the whole concept

A-092

10
1

Now, I understand that Brady doesn't have application

2

in a civil case, but relevancy does, so I don't -- you're

3

going to have to at some point, and it's got to be fairly

4

soon, he's got discovery requests, let me know what those

5

things are.

6

thought they were significant or you wouldn't have had them.

Somebody must make an assessment.

7

MS. GIBBONS:

8

THE COURT:

9

Somebody

No, Your Honor -If there are telephone calls, any

telephone call, any document that reflects telephone calls to

10

or from Jane Doe is relevant to the case.

Now, they may be

11

harmful to Mr. Thompson or they may be -- what if, for

12

example, my guess is this didn't happen, but who knows?

13

if you've got Jane Doe making -- she's the initiator telephone

14

call and she's calling him repeatedly.

15

relevant to whatever -- I'm not quite sure what Mr. Thompson's

16

claim exactly is, but whatever it is it's certainly relevant

17

to his defense against the claim of impropriety in his

18

relationships with this person.

19

MS. GIBBONS:

What

That's clearly

That's all I'm saying.

And, Your Honor, I'm not going to

20

comment on the relevancy to the disciplinary hearing.

21

completely irrelevant now to this lawsuit that we're in front

22

of you for because Jane Doe and her mother are gone.

23

THE COURT:

24

MS. GIBBONS:

25

THE COURT:

It's

We --

Tell me, can you help me with this?
Sure.
I started to look at the I guess now the

A-093

11
1

fourth amended complaint?

2

MS. GIBBONS:

3

THE COURT:

4

We're on the fifth.
Fifth.

Let me see.

Do I have that here?

I know I've got the third and fourth.

5

MR. THOMPSON:

6

THE COURT:

7

All right, the fourth amended complaint, which is an

I don't know if I --

Hold on, hold on.

We don't.

8

exhibit to the response that was filed by Jane Doe is 135 --

9

134-and-a-quarter pages long and seeks, at least on the last

10

Page, $25,000,000 against all the defendants and names a lot

11

of people, okay?

12

13

The fifth amended complaint, which he's filed is
essentially the fourth, and what's the difference?

14
15

MS. GIBBONS:

It's pared down dramatically.

THE COURT:

17

MS. GIBBONS:

Oh, good.
It's the Board of Ed, two principals

and a teacher now are the only defendants.

19

THE COURT:

20

MR. THOMPSON:

21

THE COURT:

22

There

are

16
18

t'

So you took my advice, Mr. Thompson.
Oh, very much so.

All right.

Tell me -- tell me who's in.

The Board of Ed is in, yes? Is the Inspector General in?

23

MS. GIBBONS:

24

MR. THOMPSON:

25

THE COURT:

No.
No.

Is Ardell in?

A-094

12
1

MS. GIBBONS:

2

THE COURT:

3

MS. GIBBONS:

4

THE COURT:

5

MS. GIBBONS:

6

THE COURT:

7

MS. GIBBONS:

8

THE COURT:

9

MS. GIBBONS:

Bebley?
No.
Brizard?
No.
Brookshire?
Yes.
Brown?

10

THE COURT:

11

MS. GIBBONS:

12

THE COURT:

13

MS. GIBBONS:

14

THE COURT:

15

MS. GIBBONS:

16

THE COURT:

17

MS. GIBBONS:

18

THE COURT:

19

MS. HUGE:

20

MS. GIBBONS:

21

No.

No.
Ciesil.
No.
Colston?
No.
Clay?
Yes.
Evans?
Yes.
Huge?

That would be me.
That would be the attorney right here

and no.

22

THE COURT:

23

MS. GIBBONS:

24

THE COURT:

25

MS. GIBBONS:

Oh, good.

Mahone -- Mahoney?

No.
Rocks?
No.

A-095

13

1

THE COURT:

2

MS. GIBBONS:

3

THE COURT:

4

MS. GIBBONS:

5

THE COURT:

6

Sullivan?
No.
And Wong?
No.
So do we have any additions that I

haven't made?

7

MS. GIBBONS:

8

THE COURT:

9

MS. GIBBONS:

No.
So this is it.
Right.

10

THE COURT:

11

MR. THOMPSON:

Yes.

12

MS. CRAWFORD:

16 counts whittled down.

13

THE COURT:

14

And the complaint is much shorter.

All right.

Can I ask, Mr. Thompson, I'm

only asking them because I think they can do it --

15

MR. THOMPSON:

Right.

16

THE COURT:

17

Tell me what the charge is in the fifth amended

-- more compendiously.

18

complaint essentially.

19

MR. THOMPSON:

Okay.

20

MS. CRAWFORD:

The first six of that complaint

21

remain, Your Honor.

22

THE COURT:

23
24
25

No, no, let them tell me.

No, I'm not concerned with the theories.

What in fact is he charging occurred?
MS. CRAWFORD:

Race discrimination, sex

discrimination, retaliation, tortious interference with

A-096

14
1

contract, breach of written and oral contracts.

2

THE COURT:

3

What does he charge you factually, not theoretically?

4

No, that's not what I'm asking.

What did you guys do, according to the complaint, factually?

5

If you're making an opening statement to the jury,

6

what would you tell the jury? If Mr. Thompson were making a

7

statement, what would he tell the jury has happened to him?

8

He wouldn't be talking about counts.

9

these defendants did to me what?

10

MS. GIBBONS:

He'd say the board and

They -- he was inappropriately

11

disciplined for -- while he was the track coach at Harlan High

12

School.

13

Mr. Thompson, providing "pills" to the students, and then

14

there were other allegations that Mr. Thompson made regarding

15

some of the fellow teachers, coaches regarding IHSA violations

16

of rules, whether coaches can use --or have students in their

17

cars with them and transport them back and forth to games.

18
19

There are or there were allegations of him,

THE COURT:

And so there's no allegations anymore on

your side that there's any sexual misconduct.

20

MS. GIBBONS:

21

MR. THOMPSON:

22

THE COURT:

Not in this case.

Not in this case.

Not in counts, but they are --

But what you're doing or what they're

23

doing on the state side or administratively has nothing to do

24

with Mr. Thompson, what's relevant in this case.

25

collectively can only deal with what we've got.

We

A-097

15
1

2

MR. THOMPSON:

personnel file, which is -- can be put in front of a jury.

3
4

Right, except that it is in my

THE COURT:

No, that's not true.

What can be put in

front of a jury is what's relevant.

5

Supposing, for example, that -- I don't want to be

6

specific.

7

they had about you, but it wasn't part of this case.

8

that it's in your personnel file doesn't mean they get to use

9

it, and the fact, for example, that there were glowing

Supposing there were something really awful that
The fact

10

recommendations about you from 20 years ago wouldn't be--

11

[inaudible].

12

relates to the claims and the defenses, your claims and their

13

defenses.

The relevance is a different concept, and it

So we have to sort that out.

14

All I'm saying is simply because they are not using

15

this against you in some other case or they are doesn't make

16

it either relevant or irrelevant.

17

what's being withheld, and whether it's in a personnel file or

18

it's in some other file, I don't care.

19

you're going to need to tell me what it is.

20

way I can define relevance, not by its inclusion or

21

noninclusion of personnel files.

22

MR. THOMPSON:

23

You have to figure out

I need to know and
That's the only

If they're not going to bring it into

this case, then I don't need to worry about it.

24

THE COURT:

25

MR. THOMPSON:

Okay.
My fear --

A-098

16
1

MS. GIBBONS:

2

MR. THOMPSON:

[Inaudible] won't be brought in here.
Because then I don't even need to

3

bring -- the expert testimony won't even be relevant either.

4

My whole thing was that since it's in my personnel file and

5

since it's something that's ongoing if I get terminated,

6

obviously I would think that that would come into play.

7
8

THE COURT:

So this is helpful.

If they're not going

to utilize it in any way at all --

9

MR. THOMPSON:

10

THE COURT:

11

MR. THOMPSON:

12

THE COURT:

Then I don't --

-- then at least -I don't need to worry about it.

You don't have to worry about being

13

sandbagged, and my guess is that there's nothing that's

14

wonderful and favorable in your personnel file that they're

15

not going to be turning over to you, right? I mean, you've

16

got letters of commendation from the mayor, even if they're

17

not particularly relevant, those things should be turned over.

18

They are part of his personnel file.

19

MS. GIBBONS:

But, Your Honor, because we've had

20

problems because there are multiple things, it's not relevant

21

here.

22

THE COURT:

My concern always is when people tell me

23

they don't want to turn things over that there's a reason, and

24

those reasons tend to be because they are not helpful to their

25

side of the case.

A-099

17
1

Now, there's all sorts of reasons why people don't

2

turn things over that are legitimate,

3

if you're withholding something that there is a legitimate

4

reason to do so.

5

MS. GIBBONS:

6

THE COURT:

I just want to be sure

Wei 1, Your Honor, actual 1y
And I'm not going to waste my time and

7

your time arguing about things that don't matter.

8

something's in his personnel file, what do you care if it gets

9

turned over?

10

MS. GIBBONS:

If

Well, Your Honor, there's an illusion

11

or a myth of the personnel file.

12

the personnel file.

13

the OIG does investigations all the time.

14

to turn into a disciplinary adverse action, that then gets

15

moved over.

16

The OIG's file is never in

It's completely separate.

If -- because

If something were

The reason after back and forth, you know, 14 e-mails

17

in about a seven-hour period between us or actually not

18

between us, to me regarding this file, we then just turned --

19

the Office of the Inspector General just said, you know what,

20

regardless whether it's going to be used against him because

21

they do wide investigation, everything got turned over, the

22

caveat was you had just entered an order quashing the subpoena

23

saying the records were irrelevant to this case for Jane Doe

24

that that's why that last piece was not turned over.

25

THE COURT:

That's fine.

A-100

18
1

NS. GIBBONS:

And it was said because Judge Cole just

So if the order is changed, we can go, but

2

entered an order.

3

it was based on the April 2nd, your April 2nd order,

4

we cannot produce something the Court has said is irrelevant.

5

THE COURT:

6

NS. GIBBONS: Yeah.

7

THE COURT:

8
9

No, I understand what you're saying.
You're tel ling me that what's not being

produced has something to do with Jane Doe.
NS. GIBBONS:

Correct.

10

THE COURT:

11

becomes irrelevant.

12

allegations were and what your defenses were.

13

And so

And Jane Doe being out of the case, it
That's why I asked you what his

So, Nr. Thompson, it seems to me that they are right.

14

I mean, if you want me to look at something in camera to be

15

sure, but you're wasting your time,

16

word of people --

17

NR. TH0NPS0N:

You've got to take the

I'm not worried about it if they're

18

not going to bring it up.

19

the issue to begin with, I mean, all the way back from when

20

the second amendment was done, I never even wanted to file a

21

third amended complaint.

22

related to my personnel file, I wanted to be able to have my

23

entire personnel file that I was entitled to, regardless of

24

whether it was related to anything.

25

personnel file.

The only reason why I was following

I just wanted the issues that were

I just wanted my

You know, that's all I want.

A-101

19

*

1

THE COURT:

You've now got -- you've now got

2

everything that's in your personnel file except one --

3

something that got in there and that relates to Jane Doe, and

4

that's out of the case, so you're good.

5
6

HR. THOMPSON:

made by students in an investigation that is related to this.

7

THE COURT:

8

MS. CRAWFORD:

9

Except for the 15 statements that were

Wei 1, what about that?
Well, the alleged statements, we've

turned over what is in the personnel file that I have as the

10

board.

11

statements.

12

His personnel file does not contain those 15
We have reached out, though, to the investigator that

13

conducted the investigation into this pill allegation, I'll

14

just loosely call pill allegation, and asked them if there

15

were statements in that investigative file that he's aware of.

16

He's out of the office today.

17

those statements even existing, but he's going to check

18

Monday.

19

He says he is not aware of

If they exist, we can turn them over.
THE COURT:

Okay.

So Mr. Thompson, there is no

20

dispute between you folks thus far on anything.

21

you to understand because you are appearing pro se.

22

materials that relate to Jane Doe which may or may not be in

23

the file, it doesn't matter, you are not getting because they

24

are not relevant and you agree with that.

25

I just want
The

Statements of people who are involved in this case

A-102

20
1

who no doubt have relevant information -- folks, I want you to

2

listen --

3

MS. GIBBONS:

4

THE COURT:

Yes, sir.
-- must be turned over to him.

They're

5

part of this case.

6

least, if you have an investigator who interviews 15 people

7

and doesn't take statements of some sort or doesn't take notes

8

or doesn't do anything.

9

MS. HUGE:

Now, it would strike me as odd, to say the

Your Honor, I think what Mr. Thompson is

10

alleging is that there were kids who wrote notes.

11

over, I know, one note because I remember seeing it in the

12

2,993 pages of documentation that we have tendered to

We did turn

<

13

Mr. Thompson, that there was one kid that wrote a note, and we

14

have tendered that.

15

Now, Mr. Thompson is saying, hey, there are about 14

16

more of these, and I don't know what he's talking about.

17

that's why Ms. Crawford and I called Mr. Ardell yesterday and

18

said you know what, can you just look again because we just

19

need to verify if these things are there.

20

THE COURT:

A11 right.

So I understand, so you're

21

talking about notes, not of the investigator but from the

22

ki ds.

23

MS. CRAWFORD:

24

THE COURT:

25

MR. THOMPSON:

So

Yeah, right.

Okay.

They either exist or they don't.

I personally saw them, and my

A-103

21
1

attorney.

2

right in front of me.

3

from it.

We personally saw the statements.

They read -- they took one out, read

4

THE COURT:

5

MR. THOMPSON:

Maybe that's the one that you got.
No, no, I didn't get that one.

6

didn't get any of them.

7

me has nothing to do with those notes.

8
9

THE COURT:

They had them

I

The notes -- whatever they've given

Do you have a lawyer, Mr. Thompson, who's

helping you with this, which is fine, you have the right to do

10

that because if you do, I think it's helpful to have that

11

lawyer simply to confirm with counsel what you're saying, and

12

that is that he saw other notes and you'd better find them.

13

That's all I'm suggesting.

14

MR. THOMPSON:

I had an attorney --my brother is an

15

attorney, and -- but he is not helping me with this case.

16

I'm, like, doing this on my own, but --

17

18

THE COURT:

No,

Who's the lawyer that you say saw these

things?

19

MR. THOMPSON:

20

THE COURT:

It was my brother.

Well, then have your brother pick up the

21

phone and call one of the counsel in this case and say, you

22

know, you don't have to believe Mark, but I saw the notes.

23

remember seeing 12, and then if they don't — if they --

24

something happened, we'll have to figure out why.

25

but the notes are not a problem.

I

So let's --

The notes should be turned

A-104

22
1

over to the extent notes exist,

2

exist, we'll have to figure out what happened.

3

MR. THOMPSON:

4

THE COURT:

5

To the extent notes don't

Right, and we did --

In terms of any statements by kids who

have been interviewed, I mean he's entitled to that.

6

MS. HUGE:

Yeah, I don't think that he's looking for

7

that.

8

and I know that we tendered at least one note.

9

MR. THOMPSON:

10
11

THE COURT:

You'll all follow through together on

All right.

Is there anything else we need to do

today?

14

MR. THOMPSON:

15

THE COURT:

16
17

It was an investigation.

that, and then we'll have to see where we go.

12
13

I think he's saying that these kids wrote out notes,

There was --

It now seems, Mr. Thompson, that we are

on a better track.
MR. THOMPSON:

I agree.

This is the way I want it,

18

and these are -- these three ladies have worked with.

19

want my depositions to be done in this courthouse, which I

20

have no problem with.

21

THE COURT:

22

MR. THOMPSON:

All right.

Why do you want that?

I'm not sure, but it has something to

23

do with students.

24

want some type of control or maybe --

25

THE COURT:

They

If a student gets deposed, I guess they
Oh, depositions that you're going to

A-105

23
1

take.

2

MR. THOMPSON:

3

MS. GIBBONS:

4

MR. THOMPSON:

Yeah, yeah, depositions.
That the plaintiff will take.
And I agree with it, okay? So the

5

only thing i s if I do depose an adult as wel1, I just want to

6

be able to do them all at one spot, all my depositions in one

7

spot if that was okay.

8
9

THE COURT:

Sure.

courtroom, that's fine.

If you want to do them here in my

All you need to do is you'll have to

10

call Jan Smith, and do you have her number? It's on the

11

website.

12

MR. THOMPSON:

13

THE COURT:

Yeah, I can get it.

And just tell her --as part of the order

14

today, I'll re-do all this, the order will just provide at the

15

agreement of counsel, of Mr. Thompson and counsel for the

16

defendants, the depositions shall be taken in my courtroom or

17

some other designated place in the federal building.

18

And all we'll need to do is to be sure that the

19

courtroom's available, or I can have you do it in my jury room

20

or in the witness room.

21

room here to utilize.

22

j ust need to know when you're going to do i t so I can make

23

arrangements.

24
25

MR. THOMPSON:

One way or another, you will have a
You don't have to worry about it.

I

Right, and what's the -- since I'm in

forma pauperis, am I supposed to ask your permission first and

A-106

24
1
2

I'm supposed to -THE COURT:

No, just -- these are things that I want

3

you to work out in a congenial sort of way.

4

send out a notice of deposition, and then you'll begin

5

hassling with the interminable problems that lawyers go

6

through about scheduling, but you'll work that out.

7

You've got to

If you can't or if they can't work it out with you,

8

I'll set a schedule, but there's no reason why you guys can't

9

agree on scheduling.

10

MR. THOMPSON:

11

THE COURT:

12

Okay.

13

MS. CRAWFORD:

14

It came to my attention yesterday that Mr. Thompson

Okay.

So that takes care of that issue.

What's our next issue?
I think I just have one more issue.

15

sent an e-mail directly to two CPS employees, Tom Krieger and

16

Alicia Winkler, who are part of the control group of the

17

board, and I represent the Board of Education.

18

I -- I think he attempted to copy me.

19

e-mail address that's one digit off of mine so I never

20

received the e-mail.

21

plaintiff that I am the attorney for the board.

22

reach out to board employees directly.

23

related to this lawsuit, if it's related to discovery issues

24

of this lawsuit, you need to do it through me.

25

MR. THOMPSON:

There's an

I would just like the Court to remind
He cannot

You need to, if it's

It's not related, Your Honor.

It was

A-107

80 kV

quLod 0} psquBM os [B qsn C i ‘jouoh JnoA

:39fiH 'SW

92

:iyn00 3H1

PZ

: NOSdWOHl 'm

82

6Ae>|0
•Ae>|0

'P8AL0S8J 11 q86 pue 6uO[B S LLJ3- 9A01U UBO 0M J. L

ZZ

80S LL.8M Pub ‘6ulop 8J,noA qBijM oq 8ALSU0ds8J 8q [L.Asqq puB

IZ

‘qq.LM >|jom oq Asb8 sj.Asqq ‘Abs noA sy

‘sjsAmbl eqq q6nojqq

OZ

>|JOM PUB LI_eC) °1 P00U n°A 9S [8 J8A80l|M [ [B0 ->° P-IOJJWBJQ ‘ SW

61

L|_eo pub q[8SjnoA uo Asbs qL 8>|Bui os -'^6Ly

:iyn00 3H1

81

: NOSdNOHl -dW

LI

-- noA 0} ^ lb^ 03. Bulo6 qou

91

sj.Asqq 8snB08q ‘op oq noA 8>|ll p,I qBi|M -- Moqswos quB6LqLL

Sl

8S ojd

b

jeqqeqM

jo

jsqqeqM qnoqB uoLSsnosLp

‘ [a[q LpnBul] qno qoB8J
b

ubo s

[BdlouLjd

oqu.L qe6 oq 8ABq q.uop noA --

ploab

£1

■ S8qOU 8qq pus sq.u0u10q.Bqs 91,

U

oq qsnC op p[noqs noA >]ULqq j qsqM s,8J8H

ssoqq A[qoBX8 ssssejppB i\l ssriBoaq --

'■ ldnoo 3 Hi

:ayodMvyo -sw
•ON

01

:_mn03 3HI

6

-- 1L M8LA8J Oq 8>| L [ P LnOM

JOUOH -inoA J-L ql qo Adoo b 8ABq op 1
-- ubo 1

:QdOdMVdO ‘SW

■8SB0 SLqq oq p8qB[8J qou s.qi. os

J0qqo q6nojqq 06 oq pBq 1 8iu pLoq Asqq

8
L

^[doed

9

• o [ lj. [8uuosj8d Aiu

S

qo Adoo b qsB oq Ajq oq ABpjsqsaA SdO 9qq oq qu8M j

P

■8SB0 s.Lqq oq A [ [bo Lq L08ds p8qB[8J

£

qou sbm qL os ‘Ab^o ‘6uLqqAuB oq p8qB[8J sl qo.Lq/w ‘ a l lq.

Z

[suuosjsd Aw 6uLqq86 puB JoqBq qo quswqjBdaQ 8qq oq psqBLQJ
92

PI

26
1

out on the record and I'm very happy Mr. Thompson feels that

2

I'm easy to work with, especially since I was a defendant in

3

this matter.

4

THE COURT:

But isn't that wonderful?

5

MS. HUGE:

It is a wonderful feeling.

6

(Laughter.)

7

THE COURT:

Well, you know, when I looked at the

8

fourth amended complaint, I didn't realize the number, and I

9

thought, gee, Mr. Thompson not only didn't listen to anything

10

I said, he expanded on what he did.

11

So I'm thrilled to see, Mr. Thompson, that you took

12

my advice and have made this at least a manageable case, and

13

it makes you look much better.

14

MR. THOMPSON:

I tried to frame the suit, and I'm

15

trying to lose weight so I can fit in all my suits,

16

gained so much weight.

17

THE COURT:

I’ve

Litigation will do one of two things for

18

you.

19

lose weight or it will agitate you to the point that you gain

20

weight.

It will either agitate you to the point that you will
It generally doesn't leave people in stasis, so --

21

MR. THOMPSON:

22

THE COURT:

I'm working on it.

It's like jail.

If you go to jail --

23

this is actually true -- people, depending on where you go, if

24

you're overweight, people tend to come out very thin and fit.

25

If you are underweight, they tend to come out at a proper

A-109

27
1

weight and fit, notwithstanding O.J. Simpson, who is an

2

exception to that rule, but it's true.

3

Older men who go to some of these prisons who are in

4

really terrible shape come out in really great condition.

5

hopefully this will condition you to be, you know -- but it's

6

a struggle.

7

MR. THOMPSON:

8

THE COURT:

9

Well, that's good.

THE COURT:

12

MS. CRAWFORD:

13

THE COURT:
on our last visit.

All right.

So we're done for today.

Yes, your Honor.

Yes?

MS. CRAWFORD:

16

THE COURT:

17

MS. CRAWFORD:

18

THE COURT:

Yes.

Would you agree?
Yes.

Okay.

So when should we get together, 30

days? 45 days?

20

MR. THOMPSON:

21

THE COURT:

23

My boss is

Things are going much more smoothly than

15

22

Hold on.

(Discussion held off the record.)

11

19

I'm working on it.

here.

10

14

So

30 days would be good.

Okay.

30 days, Yolanda, will take us

to -MR. THOMPSON:

Oh, you know what? Let's do 45

24

because I need to file a third request for all this stuff,

25

third request for interrogatories and stuff and get that sent

A-110

28
1

to you, and then we can meet with him after I've done that.

2

THE COURT:

3

How will July 1 or 2 suit you guys?

4

MS. GIBBONS:

Oh, okay.

Thanks.

Your Honor, I'm sorry, I'm going to be

5

with several nieces and nephews in Washington, D.C. on Fourth

6

of July.

7

THE COURT:

8

MS. GIBBONS: We leave the 29th, and I'll be back

9

Oh, wonderful.

July 6th.

10

THE COURT:

11

MS. GIBBONS: Yes.

12

THE COURT:

13

Okay.
Okay.

Can we then do it on the 8th?
So July 8th, and what time is best

for everybody?

14

MR. THOMPSON:

15

THE COURT:

Okay.

16

Wonderful.

Thank you.

17

When are you 1eaving?

9:30 is fine.
July 8th at 9:30 just for status.
It was nice to see all of

you.

18

MS. CRAWFORD:

Nice to see you.

19

MR. THOMPSON:

Oh, just one more question.

Does my

20

attorney or my brother need to file some appearance before he

21

contacts her?

22

THE COURT:

Well, I think -- you know what? If he's

23

going to act as your lawyer --

24

MR. THOMPSON:

25

THE COURT:

No, he's not.

Wei 1, what's he going to contact them

A-111

29
1

for, just to say he saw the notes?

2

MR. THOMPSON:

3

THE COURT:

4

No, he doesn't have to file an

appearance.

5

MR. THOMPSON:

6

THE COURT:

7

Okay.

He's an occurrence witness.

Ms. Crawford, talk to him and see what you can do.

8

MS. CRAWFORD:

9

THE COURT:

Okay.

Look for the notes - -

10

MS. CRAWFORD:

11

THE COURT:

12

Right.

Absolutely.

-- so we don't have an issue of -- an

issue.

13

MS. CRAWFORD:

14

THE COURT:

15

MS. CRAWFORD:

Have a nice weekend.

16

MR. THOMPSON:

Thank you.

17

THE COURT:

18
19

Absolutely, Your Honor.

Thank you.

Thank you, Mr. Thompson, very, very, very

much.
(Which were all the proceedings heard.)

20

CERTIFICATE

22

I certify that the foregoing is a correct transcript from
the digital recording of proceedings in the above-entitled
matter to the best of my ability, given the limitations of
using a digital-recording system.

23

/s/Kathleen M. Fennell

August 20, 2014

24

Kathleen M. Fennell
Official Court Reporter

Date

21

25

A-112

ISBE

23 ILLINOIS ADMINISTRATIVE CODE
SUBTITLE A

51.10

SUBCHAPTER b

SUBPART A: GENERAL PROVISIONS
Section 51.10 Definitions
As used in this Part:
"Board" means the local school board and not the State Board of Education.
“Day” means calendar day unless otherwise specified in this Part, and the time
within which any action required under this Part must occur shall be determined
in accordance with the provisions of Section 1.11 of the Statute on Statutes [5
ILCS 70/1.11],
“General Superintendent” means the chief executive officer of City of Chicago
School District 299. (See 105 ILCS 5/34-6.)
"Parties" means the tenured teacher against whom charges are brought and the
school board bringing the charges.
“State Board” means the Illinois State Board of Education.
"Tenured Teacher" means any teacher who has entered upon contractual
continued service pursuant to Section 24-11 of the School Code [105 ILCS 5/2411] and, in school districts organized under Article 34 of the School Code [105
ILCS 5/Art. 34], a teacher or principal (see Sections 34-84 and 34-85 of the
School Code [105 ILCS 5/34-84 and 34-85]).
(Source: Amended at 36 Ill. Reg. 12829, effective July 25, 2012)

A-113

ISBE

23 ILLINOIS ADMINISTRATIVE CODE
SUBTITLE A

51.35
SUBCHAPTER b

Section 51.35 Suspension without Pay
a)

For school districts not organized under Article 34 of the School Code, if, in the
opinion of the Board, the interests of the school require it, the Board may suspend
the teacher without pay, pending the hearing, but if the Board's dismissal or
removal is not sustained, the teacher shall not suffer the loss of any salary or
benefits, less setoffs for mitigation, by reason of the suspension (Section 2412(d)(1) and (d)(8) of the School Code).

b)

For a school district organized under Article 34 of the School Code, the general
superintendent or his or her designee may make the determination to suspend the
tenured teacher without pay in accordance with rules prescribed by the Board,
provided that, if the teacher or principal charged is not dismissed based on the
charges, he or she must be made whole for lost earnings, less setoffs for
mitigation (Section 34-85(a)(2) of the School Code).

(Source: Added at 36 Ill. Reg. 12829, effective July 25, 2012)

A-114

ILLINOIS STATE BOARD OF EDUCATION
BEFORE HEARING OFFICER THOMAS F. SONNEBORN
In the matter of the Charges Preferred Against:
ERIKA STEVENS,
Respondent,
By:
THE CHIEF EXECUTIVE OFFICER OF THE
CHICAGO BOARD OF EDUCATION,
Petitioner

)
)
)
)
)
)
)
)
)
)
)

Tenured Teacher
Dismissal Proceedings

FINDINGS AND RECOMMENDATION
This matter came on for hearing at the offices of the Chicago Board of Education Law
Department on the matter of charges for dismissal preferred against Erika Stevens (Respondent)
by the Chief Executive Officer of the Chicago Board of Education (Petitioner). Initially scheduled
for hearing on July 11, 2018, it was continued on the motion of the Petitioner to July 30, 2018,
due to unavailability of its counsel. The July 30, 2018, hearing was continued on Respondent’s
motion due to her counsel’s illness. Hearings were held on September 10, 2018, and November
2, 2018. The Petitioner was represented by Assistant General Counsel Peter Brierton, and the
Respondent by Attorney Kurtis Hale.
Each party was afforded the opportunity to examine and cross-examine witnesses, as well
as present such relevant evidence and argument as it chose. The Board called seven witnesses
to testify, being former South Loop Elementary School (South Loop) students Braun B., Darryl P.,
Daijah P., Stephani W., and Gabrielle C., and South Loop Assistant Principal Andrew Rhodes
and South Loop Principal Tara Shelton. The Respondent called three witnesses, being the
Respondent herself, South Loop teacher Elizabeth Mach, and former South Loop student Samuel
W. At the conclusion of the hearing, the parties elected to file written post-hearing briefs which
were to be electronically submitted on January 11, 2019. By agreement the brief filing date was

1

A-115

extended to February 1, 2019, and thereafter to February 15, 2019.

Both parties filed timely

submissions. Transcripts of the two days of hearing were made available to the hearing officer.
The record was closed on February 15, 2019.
I.

CHARGES AND SPECIFICATIONS
DISMISSAL CHARGES

In the approved dismissal charges and specifications dated December 5, 2017, which
were provided to Respondent, it was alleged as follows:
1. Violating Corrective Action Category "Honesty/Integrity/Ethics-Test Cheating," which
prohibits any allegation of test cheating.
2. Violating Corrective Action Category "Performance: Failure to Perform Duties," which
prohibits the failure to perform duties.
3. Violating Corrective Action Category "Performance: Negligence/Incompetence Students," which prohibits the failure to act in the manner of a reasonably prudent
educator in supervision of students.
4. Violating Corrective Action Category "Performance: Negligence/Incompetence - Other,"
which prohibits any negligently or incompetently performed act in connection with duties.
5. Violating Corrective Action Category "Performance: Insubordination," which prohibits the
refusal to carry out a directive from a supervisor.
6. Violating Corrective Action Category "Policy Compliance: Policy Non-Compliance Students," which prohibits the failure to follow Board policies concerning students.
7. Violating Corrective Action Category Policy Compliance: PolicyNon-Compliance- Personnel,"
which prohibits the failure to follow Board policies concerning personnel.
8. Violating the Board of Education of the City of Chicago Rule 4-4 - Employment
Requirements, which requires Board employees to conduct themselves in a manner
consistent with the Board's status as a public educational institution and with the Board's
mission to provide high quality public education, as well as to follow all Board
requirements, such as maintaining a respectful, violence free workplace and learning
environment
9.

Violating the Illinois State Board of Education Rules and Regulations Code of Ethics,
22.10-20 of Title 23, which requires Illinois educators to be responsible to:
a. Students
b. Self

2

A-116

c. Colleagues and the Profession
d. Parents, Families, and Communities; and
e. Illinois State Board of Education.
10. Violation of the Illinois State Board of Education Rules and Regulations Standards for All
Illinois Teachers, 24.130 of Title 23, which outlines the Illinois Professional Teaching
Standards.
11. Conduct unbecoming of a Chicago Public Schools employee.
SPECIFICATIONS

1. For all relevant time periods, you were a teacher assigned to South Loop Elementary
School ("South Loop").
2.

During your employment at CPS, including while you were assigned to South Loop,
allegations were made that you failed to adequately use all instructional time in your
classroom. As a result, you were counseled to refrain from wasting instructional time and
to plan enough educational activities to fill the full class period.

3. You were warned and put on notice that wasting instructional time is inappropriate and
against Board rules and policies.
4.

Despite being warned and put on notice, you continued to violate Board rules and
policies by repeatedly failing to adequately use all instructional timefor your classes.

5.

On or about May 26, 2017, during a 75-minute math block, you failed to perform your
duties when you planned one 19-question practice exam for the whole math block.

6. On or about May 26, 2017, after several students finished their practice exam, you failed
to adequately supervise your students, resulting in several students snorting lines of an
unknown white substance off their desks in your math class.
7.

On or about May 30, 2017, you improperly interfered with NWEA testing by
suspending test sessions to give students new questions and improperly giving
student breaks to look up answers.

8.

On or about May 30, 2017, after your testing session was moved to another
classroom, you disobeyed a direct order by following those students into that
classroom, you left your remaining students unattended and you refused the
South Loop administration's directive to leave the classroom.
The Petitioner determined Respondent’s conduct was irremediable and sought her dismissal.

The Respondent elected to have the matter heard by a mutually selected hearing officer through
the procedures of the Illinois State Board of Education for tenured teacher dismissals. Based on

3

A-117

the record of testimony given, documentary evidence submitted, and the arguments made, the
following are the hearing officer’s findings and recommendations.

II.

BACKGROUND

At the time of the events leading to this hearing, the Respondent had taught mathematics
at South Loop for four years to classes of sixth, seventh, and eighth grade students.
Respondent’s classes typically were scheduled for seventy-five minutes.

She was hired by

Principal Tara Shelton who had been the principal at South Loop for twelve years. During the
2016-2017 school year, the South Loop students in grades 2nd through 8th took the NWEA
standardized test which measures students’ progress in the areas tested. The test is normally
administered twice each year.

Areas tested included reading and math, with an option to also

test science.
Students at South Loop were tested in all three areas in the fall and spring of the 20162017 school year. They were permitted up to three days to complete the test which they took on
Chromebooks provided by the school. The NWEA test results help the school determine what
services and support students will require in the following school year and are a factor in the
evaluation of 7th grade students for admission to selective enrollment high schools. The students’
scores also are a factor in teacher ratings when improvement is shown from the fall to the spring
tests.
In the spring 2017 testing at South Loop, the Respondent proctored the math test given
on May 18th and administered the test on May 19th and May 30th but was prevented from having
any role in the administration of the testing on May 31st by order of Principal Shelton because of
allegations Respondent had improperly aided students during the earlier testing. Respondent
was barred from being in the room while her students were being tested. After being informed by
Assistant Principal Andrew Rhodes she would not be permitted to conduct the testing,
Respondent returned to her regularly assigned room, secured her chair and returned to the testing
room telling the students she was protesting the decision.

Petitioner contends she was

4

A-118

insubordinate by at first refusing to leave.

When she did return to her room, Respondent

discovered the school had been placed on lock-down and the police had been called to the school.
After consulting with her union representative, Respondent left the school building.
In addition to the allegations of improperly assisting students with the standardized testing,
Respondent also was accused of overusing an on-line math training program known as IXL which
in the view of South Loop’s administration resulted in a lack of direct instruction which the
administration preferred. Respondent was informed on numerous occasions to limit the use of
IXL to not more than fifteen minutes per class period, but according to Principal Shelton the
Respondent was insubordinate and refused to obey the directions given by consistently using the
program well in excess of the fifteen-minute limitation.
At the outset of the proceedings on September 10, 2018, Respondent’s counsel objected
to the introduction of any evidence regarding the IXL program or Respondent’s use of the same
in her classroom as it was not specifically contained in the dismissal charges and therefore not
properly before the hearing officer. Respondent contended inclusion of the allegations regarding
IXL violated her right to select a hearing officer after having full knowledge of the charges against
her. Due to his unfamiliarity with the IXL program and how it pertained or did not pertain to the
charges with which Respondent was served in this matter, the hearing officer reserved ruling on
Respondent’s objection.

Respondent raised a standing objection to the introduction of any

evidence regarding IXL.
Respondent contended she was entitled to a written warning from the Board before any
dismissal proceedings could be initiated for the charges brought against her, something she
indicated she had not received. In her view, the conduct complained of was not irremediable and
therefore a warning was required.
III.

ISSUES

The issues presented in this matter were:

5

A-119

1.

Whether evidence regarding the IXL program should be excluded from the record, and

whether Petitioner is barred from alleging any violations based on the Respondent’s use of the
IXL program?
2.

Whether any evidence concerning Respondent improperly assisting students with taking

the NWEA exams should be limited to the allegations of Specification 7 that she improperly
suspending test sessions to give students new questions and improperly gave student breaks to
look up answers?
3.

Whether Petitioner proved by a preponderance of the evidence the conduct alleged

occurred?
4.

Whether the Petitioner proved cause exists to terminate the Respondent?

5.

Whether the Respondent’s conduct was irremediable per se or irremediable under the

Gilliland standard? 1
IV.

ANALYSIS2

A careful examination of the charges and specifications vis a vis the evidence presented
is important to the outcome in this matter. The first specification merely recites Respondent was
assigned as a teacher at South Loop. The remaining specifications in support of the charges
against Respondent fall into four broad categories:
Specifications 2-5 alleges Respondent failed to adequately use all instructional time and
wasted instructional time. Of those specifications, 2 and 3 recite counseling and warnings
Respondent received. Specification 4 alleges this behavior was on-going despite the counseling

Gilliland v. Board of Education of Pleasant View Consolidated School District 622, 67 III.2d 143
(1977).
2
This section is intended to be a review of the charges and the major points argued by each party,
rather than an exhaustive review of every point raised. All arguments made by the parties were considered
in reaching the findings and recommendations in this matter, regardless whether they are mentioned or not.

6

A-120

and warnings. Specification 5 alleges a failure to perform her duties by planning only one 19question practice exam for the whole math block.
Specification 6 alleges Respondent failed to adequately supervise her students after the
completion of a practice exam, resulting in several students snorting lines of an unknown white
substance during her class;
Specification 7 alleges Respondent improperly interfered with NWEA testing by
suspending test sessions to give students new questions and improperly gave student breaks to
look up answers;
Specification 8 alleges Respondent disobeyed a direct order not to follow her students to
another classroom fortesting and refusing to leave that classroom when directed to do so, thereby
leaving her remaining students unattended in her classroom.
A.

THE STANDARDIZED TESTING

Charge No. 1 generally accused the Respondent with test cheating. The charge was
detailed in Specification number 7.

These allegations of improperly interfering with the

administration of NWEA testing in May 2017 formed a significant portion of the Petitioner’s case­
in-chief.

Prior to the administration of the NWEA tests in the 2016-2017 school year, the

administration at South Loop took several steps to preserve the integrity of the testing process.
The Petitioner noted Respondent received the NWEA test administration manual during the 20162017 school year and signed off on an associated test security agreement prohibiting coaching
students or doing anything to help them with their answers to the tests. 3 Principal Shelton sent
an email to the staff reminding them “[a]ny step-by-step instructions for answering a reading or

3
Respondent denied receiving a copy of the handbook and stated the sign-off sheet she signed was
originally labeled as an acknowledgement of receipt of something else. There was little in the record to
support Respondent’s claim but determining whether she had or had not signed off on receiving the
handbook was unnecessary to reaching the findings and recommendations in this matter. This neutral is
convinced by her own testimony she was aware she was not to help the students with their answers on the
tests.

7

A-121

math question or step-by-step examples of reading or math concepts/problems” was not
acceptable.4 The NWEA manual banned answering questions for students, providing them with
formulas or other information concerning a problem, confirming or denying the correctness of an
answer, or doing anything else to assist students with the test.5
During the testing Respondent administered on May 30th when she was the only adult in
the room, Petitioner alleged Respondent told students if they had questions they could come and
ask her at her desk. According to Petitioner’s student witnesses, several students did leave their
seats and approach Respondent with their Chromebooks. Student Braun B. testified Respondent
had given him answers to test questions but was unable to recall which questions or what
answers. Student Darryl P. testified one-fourth to one-third of the students being tested got out
of their desks. Darryl P. denied having asked Respondent any questions but indicated he would
have done so had he had a question. He also testified he could ask questions if he had any
during the reading portion of the NWEA testing which Respondent did not administer or proctor.
According to the testimony of student Daijah P., she asked Respondent questions “a few
times.”6 She stated Respondent helped her with one question by going through a process of
eliminating the incorrect answers. She also stated there were two faculty members in the room
during the test, as well as Principal Shelton. Daijah P. stated she asked both teachers questions.
She said she saw as many as ten other students take their laptops and approach Respondent.
She also indicated she asked questions during the reading portion of the NWEA examination,
again which Respondent did not administer or proctor.
Student Stephani W. asked at least five questions, stating Respondent reworded a
question for her as she worked it out at Respondent’s desk. Student Gabrielle C. testified she

Transcript a p. 216-217.
Petitioner’s Exhibits 18 and 19.
Transcript at pp. 37-38.

8

A-122

approached Respondent many times throughout the test. She stated on one occasion
Respondent wrote down a problem and the steps, including a formula to solve the problem. She
also stated Respondent confirmed she had correctly answered a question on two other occasions
by nodding her head. Student Samuel W. testified Principal Shelton came into his classroom on
June 7th and told the students the Respondent was helping them cheat on the NWEA test. He
denied receiving any assistance of any type from Respondent.
When South Loop Principal Shelton became aware of allegations Respondent was helping
students with the tests on May 30th> she queried several students at random about the claims.
She then consulted the law department on how to proceed and informed Respondent the morning
of the second day of testing, May 31st, she was not to start the testing session scheduled for that
day.

Principal Shelton gave this direction without explaining Respondent would not be

administering the exam, only that Principal Shelton would be starting the testing.
The testimonial evidence presented by Petitioner told of a pattern of inappropriate
behavior on Respondent’s part. No evidence was presented to call into question the credibility of
the student witnesses who to varying degrees testified to either receiving assistance or being
informed by the Respondent they could ask questions during the NWEA test. These allegations
made by the students in their testimony causes serious concern about Respondent’s behavior.
However, it is critical to note these allegations were not included in the charges and specifications
served on Respondent, and therefore are not properly before this hearing officer. In this instance,
the evidence presented does not align with the charges. The Respondent was not charged with
providing answers or helping students work through problems. She was specifically charged only
with improperly interfering with the NWEA testing by suspending test sessions to give students
new questions and improperly giving student breaks to look up answers.
Nothing in the charges referred to or related to helping students with questions, providing
answers, affirming correct answers with a nod, suggesting answers or formulae, or outlining
solution steps - i.e. the evidence presented by Petitioner at the hearing. The evidence presented
9

A-123

by Petitioner went to prove the proposition Respondent had improperly assisted students with
answering test questions and bore little or no connection to the charges she suspended test
sessions to give students new questions or improperly gave them breaks to look up answers.
Before seeking the dismissal of a tenured teacher, a school board must first approve a
motion containing written charges and specifications. 7 The teacher is entitled to receive these
charges and specifications prior to the time he or she engages in the process to select a hearing
officer. The Illinois Supreme Court has held new charges cannot be presented for the first time
at hearing in a teacher dismissal case, i.e. if the charges are not included in the list of charges
and specifications given to the teacher prior to selecting a hearing officer, those charges may not
be considered at the subsequent hearing.8 Excluding such charges protects the tenured teacher’s
right to make an informed decision in hearing officer selection.9 “To do otherwise would deprive
her of her due process rights under the Illinois School Code.” 10
The NWEA test manual does not in any way limit or prohibit a teacher administering and
proctoring the examination from giving the student restroom breaks. As for Respondent doing so
in order to allow the students to cheat and look for answers to questions on the test, CPS teacher
Elizabeth Mach confirmed that was not possible. According to her, when the test is paused, the
question on the screen disappears. 11

A student would have no opportunity to “look up” the

answer to a question while on a restroom break because when he or she returned to the test, a
new question would appear.

105 ILCS 5/34-85(a)(1).
8
Aulwurm v. Board of Education Murphysboro Comm. Unit School Dist. No. 186, 67 III. 2nd 434, 367
N.E.2d 1337 (1977).
9
See also, Board of Education of City of Chicago v. State Board of Education, 113 III.2d 173, 497
N.E.2d 984 (1986).
10

Respondent’s post-hearing brief at p. 17.

11

Transcript at p. 336.

10

A-124

The evidence established a student could not cheat and “look up” the answer to a given
question by securing permission to go to the restroom. There would be no way for a student to
anticipate what the new question might be and therefore no benefit to be gained by securing
permission to use the restroom as a ruse to search for answers. The evidence in the record
refuted the allegation Respondent improperly gave students breaks to look up answers
Petitioner argued Respondent advised students if they encountered a particularly difficult
question, they could take a restroom break and have the benefit of a new question upon their
return to the testing. Since this feature of substituting a new question after test suspension for
restroom breaks was not new, but rather part of the testing process, the students already knew
of the feature themselves. It surely was no secret to the students or the other faculty members.
A faculty member’s warning students against any notion of attempting some trickery tied to looking
up answers while in the restroom would seem to have been a reasonable step for a test
administrator to take. As for the charge Respondent suspended test sessions to give students
new questions, there was no reliable evidence in the record she did so.
The evidence presented raised very real concerns about the Respondent’s conduct during
the May 2017 NWEA testing at South Loop.

However, the evidence concerning improper

assistance to students, giving or assisting with answers, confirming correct answers, providing
formulas and steps, and the other accusations made by the student witnesses are well beyond
and outside the reach of the specifications provided to Respondent in this matter. There is no
reasonable or even strained reading of the allegations contained in Specification No. 7 to
conclude they provided Respondent notice of the matters concerning improper assistance with
test questions and answers that formed the core of the evidence presented by Petitioner. Thus
Petitioner presented evidence of improper behavior, albeit not the improper behavior charged or

11

A-125

specified. 12

To the knowledge of this hearing officer, there is no mechanism available to

Petitioner to conform the charges to the evidence presented at the hearing. Once served on the
Respondent, the charges may not be amended.
While the Petitioner did not formally seek to amend the charges and specifications to
incorporate these additional allegations of improper behavior, it did argue that same behavior
supported its request to confirm the Respondent’s termination. 13 Being well outside the scope of
the charges and specifications, this hearing officer is obligated to disregard the evidence in
question. After doing so, the evidence remaining in the record regarding suspending the test to
secure new questions and allowing restroom breaks to search for answers does not support a
finding the Petitioner has proven the allegations contained in Specification 7.
The Petitioner failed to meet its burden of proving by a preponderance of the evidence the
Respondent was guilty of improperly interfering with NWEA testing by suspending test sessions
to give students new questions and improperly giving student breaks to look up answers. The
charges related to specification number 7 should be dismissed.
B.

INSUBORDINATION

Respondent was charged with insubordination for disobeying a direct order not to follow
her students into a classroom where they were going to be given the NWEA test administered by
another faculty member, refusing an order to leave that classroom, and as a result, leaving her
other students unattended in her classroom.

The Petitioner’s evidence regarding the events

leading to the insubordination charges was provided primarily by Assistant Principal Andrew
Rhodes and in part by Principal Shelton.

12

A June 5, 2017, pre-meeting notice was prepared concerning these allegations, but Principal
Shelton testified it was not given to Respondent as she was already removed from the school. The set of
related exhibits were withdrawn by Petitioner.
13
Had it sought to amend, it would not have been permitted to incorporate substantively new and
different charges after the hearing officer was selected and the proceedings were underway.

12

A-126

Principal Shelton testified on May 31st “[a]t 8:30 when Ms. Stevens entered South Loop
School to swipe in to begin her day, I asked her not to begin the testing session. I will be in the
classroom at 9:00 a.m. to start the testing session.” 14 Principal Shelton indicated she entered
the testing room at 9:00 a.m. along with Ms. Davlantes who was to take over administering the
exam from Respondent. She testified Respondent insisted she was going to test her students
and began making phone calls and typing on her computer. “Ms. Stevens then stood up and left
the classroom, and three kids were still signed in under Ms. Stevens. ”

15

Principal Shelton stated,

“...we had to go find her to come back to release those students so we can open the testing
session.” Respondent did come back and do so according to Shelton.
On cross-examination by Respondent’s counsel, Principal Shelton was asked about her
conversation with the Respondent on the morning of May 31st.
Q.

Did you at any point in that day say she would not be overseeing] testing?

A.

I told her that morning. I said, do not start the testing system. I will start it myself.

Q.

I’m confused. So that morning you did tell her she would not be overseeing testing?

A.
No, that’s not what I said. I said, when she swiped in, I asked her not to start the
testing system. I would come up and start it myself. I’m talking about the next day after the
allegations.
Q.

When did you tell Ms. Stevens that she would -

A.

The next day after the allegations.

Second time. You’ve got to wait until I ask my question before you answer it.
Q.
Okay? Otherwise, it’s hard for her to take down my questions and your answers. Okay? So I’m
going to ask it again. Let me ask the question.
When did you first tell Ms. Stevens that she would not be overseeing anymore testing?
A.
The next day after she swiped in I asked Ms. Stevens not to start the testing
session. I would be up at 9:00 on the dot to start it myself.

14

Transcript at p. 150.

15

Transcript at p. 151.
13

A-127

Q.
testing?

Did you tell her at that time the reason why she wasn’t going to be overseeing the

A.
No, because we were still investigating. Teachers do not have to test their own
students. It’s not required. 16
This was not evidence Respondent was told not to follow her students to the testing room,
a direction she was charged with violating.

It was clear Principal Shelton had not informed

Respondent of anything other than she, Principal Shelton, would be starting the testing.
Respondent was not told she would not be administering the test to her students on May 31st prior
to the 9 a.m. start time of the examination. Respondent was informed only Principal Shelton
would be in the test room at 9:00 a.m. to start the test. No mention was made Resident Principal
Davlantes would be administering the exam in lieu of Respondent. It was apparent Respondent
was surprised by the news when she was told at 9:00 a.m.
Principal Shelton testified Respondent walked around the room, insisted she should be
the one to test her students, made phone calls on her cell phone and typed on her computer.
None of the foregoing constitutes insubordination, particularly given the fact Principal Shelton
delayed giving her notice of the substitution until both were standing in front of the students to be
tested. Principal Shelton picked a time and the location for the encounter which created an
opportunity for public disagreements when Respondent was informed.
That conversation could have taken place any time between 8:30 a.m. and 9:00 a.m. after
Principal Shelton first saw Respondent. She could have told Respondent at 8:30 a.m. she was
not going to administer the test at 9:00 a.m., i.e. at the same time she told her not to start the test
until she arrived in the room. She could have told Respondent to come to her office or any other
private location in the building to have what she surely must have anticipated would be a difficult

16

Transcript at p..242-243.
14

A-128

conversation with a subordinate.

The conversation need not have occurred in front of the

students.17
Assistant Principal Rhodes stated he had been informed by Principal Shelton the
Respondent would not be administering the NWEA test to her students on the second day of
testing, i.e. May 31st. Rhodes stated he entered the test room, Room 107, and found Respondent
engaged in a disagreement with Resident Principal Patricia Davlantes. 18 He asked Respondent
to discuss the matter in the hall with him, but according to his testimony, Respondent left the room
to retrieve her chair from Room 215 and bring it to Room 107. According to Rhodes, upon her
return with her chair, she sat in the hall and informed the students entering the test room she was
protesting her being prevented from testing her own students.
Rhodes stated he went to his office and called Principal Shelton who indicated to him
Respondent should be asked to leave the school. Rhodes said, “I asked our security chief, Mr.
Marcus Sexton, to go up and ask her to leave, at which point he did, and she refused. »

19

Learning

Respondent had declined the request to leave the building, Rhodes again contacted Principal
Shelton who advised him to call the police, which he did do.
When the police arrived, Rhodes told them he had no interest in filing charges against
Respondent and accompanied the police to Room 215 where Respondent was located. The
police spoke to Respondent privately outside the presence of Rhodes or any other CPS official,
and “[t]hen the group of us walked back down the stairs to the main office, at which point Ms.

17

Also, student Samuel B. testified on June 7th Principal Shelton came to his class and told the
students Ms. Stevens had been helping her students cheat on the NWEA tests.
18

Rhodes described the resident principal position as being a one-year internship served as part of
the process to becoming a principal at CPS.
19

Transcript at p. 101.

15

A-129

Stevens took a phone call and then ended up leaving.”20 Respondent testified she left the building
voluntarily after speaking with her union attorney, but only after the police had left the building.21
It was clear from Assistant Principal Rhodes testimony he asked Security Chief Sexton to
“ask” the Respondent to leave.

Nowhere in Rhodes testimony did he indicate he told the

Respondent to leave the building or asked the Security Chief to direct her to do so. She was
asked to leave, and she denied the request. A request - asking - is not the same thing as
directing or ordering a subordinate. Refusing a request does not constitute insubordination.

It

would have been a simple matter to order or direct the Respondent to leave, but that did not
happen.
The balance of the specification charges Respondent left her “remaining” students
unattended in her classroom. The only evidence in the record relating to students being left in a
room was the testimony of Principal Shelton who stated Respondent left the room while she and
Ms. Davlantes were present with the students, leaving three students signed in under the
Respondent. “Ms. Stevens then stood up and left the classroom, and three kids were still signed
in under Ms. Stevens.”22

Principal Shelton stated, “...we had to go find her to come back to

release those students so we can open the testing session.” Respondent did come back and do
so according to Shelton. When the Respondent left the room according to Principal Shelton, she
and Ms. Davlantes were in the room. The three students were not unattended. The Resident
Principal and/or the Principal were present.
In her post-hearing brief Respondent raised the same arguments she had throughout the
hearing concerning the insubordination charge.

She denied she had been given orders or

directions which she ignored or refused to obey. She denied she left any students unattended.

20

Transcript at p. 103.

21

Transcript at p. 323.

22

Transcript at p. 151.
16

A-130

She denied she had been ordered not to follow her students to the testing room. Petitioner added
no new arguments in its post-hearing brief.
Based on the evidence in the record and the arguments of the parties, the Petitioner failed
to prove by a preponderance of the evidence as alleged in Specification No. 8 that after her testing
session was moved to another classroom, Respondent disobeyed a direct order by following
students into that classroom, left remaining students unattended in her classroom, and refused a
directive to leave the classroom. 23 The charges and specifications related to these allegations
should be dismissed.
C.

LACK OF SUPERVISION AND THE UNKNOWN WHITE SUBSTANCE

Specification 6 alleged Respondent failed to adequately supervise her students after the
completion of a practice exam, resulting in several students snorting lines of an unknown white
substance during her class. The only references to specification 6 in the record are to be found
in Petitioner’s opening statement and in the Respondent’s denial of the allegations during her
testimony. 24 There was no evidence in the record to support the allegations of Specification 6.
Various documents purporting to support these allegations were contained in the Petitioner’s
exhibits, pages 141-154; however, during the hearing, these proposed exhibits were withdrawn
by Petitioner and therefore not considered in reviewing the record.
During her testimony, Respondent stated:
Q.
The Board also alleges that on that same day, May 26th, that some of your student
snorted a white substance while in your classroom. At any point during your lesson on that day,
did you ever observe any students snorting a white substance?
A.

No, not at all.

Q.
At any point during your lesson, did any students bring to your attention that their
classmates were snorting something?

23

There was no testimony she was ordered not to follow her students to the testing room. See
testimony of Assistant Principal Rhodes, Transcript at pp. 99-102.
24

Petitioner’s opening statement, Transcript at p. 8.

17

A-131

A.

No, never.

Q.

What would you have done if you had been aware that was going on?

A.

I would have told them to stop immediately and reported it to the office.25

The Board failed to prove the allegations of Specification 6 that Respondent failed to
adequately supervise her students after the completion of a practice exam, resulting in several
students snorting lines of an unknown white substance during her class.

The charges and

specifications relating to those allegations should be dismissed.
D.

USE OF IXL, WASTING INSTRUCTIONAL TIME. FAILING TO PERFORM DUTIES.
AND FAILING TO ADEQUATELY SUPERVISE STUDENTS,
Specifications 1,2, 3, 4, and 5 related to how Respondent conducted herself as a teacher

and allegations of failures on her part which warranted her dismissal.
alleged she was a teacher assigned to South Loop.

Specification 1 merely

Specification 2 recited she had been

counseled to refrain from wasting instructional time and to plan educational activities to fill the full
class period. Specification 3 stated Respondent had been warned and put on notice that wasting
instructional time was inappropriate and against Board rules and policies. Specification 4 alleged
that despite being warned and put on notice, Respondent continued to violate Board rules and
policies by repeatedly failing to adequately use all instructional time for her classes.
Specification 5 alleged on May 26, 2017, Respondent had planned one 19-question
practice exam for the whole match block. No evidence was presented by Petitioner to support
this charge and specification. The only evidence concerning the 19-question practice exam in
the record arose during the testimony of Respondent.

She described the practice exam as

follows:

25

Q.

So it was 19 questions, right?

A.

It was a total of 38 questions, but I asked them to at least do half of them done.

Transcript at p. 264.

18

A-132

Q.
What if a student finished the practice exam early, did you give them any
instructions on what to do if that happened?
A.
Yes. I had a benchmark assessment from CPS for them to work on. It’s like a
brainteaser question.26
The Respondent’s testimony was not refuted in any manner. No evidence was presented
by Petitioner to prove the allegations. The sole evidence in the record was the Respondent
prepared a 38-question quiz for a 75-minute class - essentially one math problem every two
minutes - and she had on hand a brainteaser quiz from CPS in the event anyone managed to get
through all 38 questions prior to the end of the class. The charges and specifications were not
sustained by a preponderance of the evidence.
The Respondent argued at hearing and in her post-hearing brief the first four specifications
were background information leading up to the specifications to which Respondent had been
called to answer - namely specifications 5, 6, 7, and 8. Petitioner disagreed, arguing
specifications 2, 3, and 4 constituted violations of CPS rules and policies which were part of these
proceedings. Principal Shelton testified the notices and performance improvement plans
referenced in Specifications 2 and 3 were steps in the disciplinary process. They will be regarded
as such by this hearing officer. They do not allege new acts or new failures to act which might
form the basis of new discipline, but rather recite steps in the parties’ system of progressive
discipline which Principal Shelton took to try to reform what she saw as deficiencies in
Respondent’s work performance.
Much of Petitioner’s case in this portion of the charges related to Respondent’s use of a
math program called IXL. As stated earlier, Respondent objected to the introduction of any
evidence regarding the program as it had not been expressly mentioned in the notice of charges
and specifications received by Respondent which triggered these proceedings.

Respondent

contended to allow evidence regarding this math program violated Respondent’s right to select a

26

Transcript at p. 263.

19

A-133

hearing officer only after being fully aware of the charges and specifications to which she was to
respond.
This hearing officer denies Respondent’s objection to the evidence regarding the IXL
program and finds the charges and specifications sufficiently reference it through the
Respondent’s use of her class and instructional time, her prior counseling for wasting instructional
time, and her failure to plan enough educational activities to fill a full class period.

These

allegations were at the heart of much correspondence between Principal Shelton and the
Respondent, and ultimately made part of the first and second warnings she was issued on the
subject.

Unlike the new allegations of helping students with the answers to questions on the

NWEA test which far exceeded the scope of the charges and allegations she was provided in the
notice from the Board, the allegations regarding IXL fell within the boundaries of the charges and
specifications concerning her use and failure to use class time properly.
Petitioner’s witnesses described IXL as an online program designed to provide practice
problems for students and a means of measuring their progress for teachers. Faculty members
can monitor a student’s performance and assess whether additional teaching is required to master
the types of problems being posed. According to the student witnesses, Respondent had them
using IXL between 15 minutes and the entire 75-minute period of instruction. Principal Shelton
was concerned about the amount of time Respondent’s students were spending on IXL and
wanted her to devote more of the class period to direct teaching. In the administration’s view,
overuse of IXL led to a lack of real instruction.
Principal Shelton testified she notified Respondent in writing on numerous occasions she
was not to use IXL more than 15 minutes per class period. On October 11, 2016, she sent an
email to the math faculty with the 15-minute IXL limit. On December 6, 2016, she sent an email
to the Respondent indicating she was overusing IXL, and two days later December 8th another
email reminding Respondent her students were not to be using IXL for the entire period.

On

March 6, 2017, the Respondent filed a grievance claiming “the Administration of South Loop has
20

A-134

placed an enormous amount of paperwork responsibilities” on her, changing her teaching
assignments, and making other changes impacting her workload and her evaluation rating. The
grievance claimed these actions were in violation of various provisions of the Chicago Teachers
Union contract and constituted not only a form of overwork, but also “a form of harassment. »

27

Principal Shelton denied the grievance on March 21,2017, and the Union thereafter appealed it
to the next step of the grievance procedure on March 27, 2017.28
Four days later on March 31, 2017, Respondent was given a Performance Improvement
Plan (PIP) advising her not to use IXL as a primary instructional tool.

In a May 15, 2017, email,

Respondent was told not to use IXL for more than 20 minutes per class. Two days later Principal
Shelton sent an email to Respondent noting her students were using IXL for the bulk of their class.
In a second PIP dated May 25, 2017, Respondent was told to limit the use of IXL to 15 minutes
and reminded at least 60 minutes of the class should be devoted to instruction that is led by the
teacher. Principal Shelton testified this PIP was “the second time in the Pre-Meeting Notice that
she was warned not to use IXL as the timed instruction block.” According to Petitioner, despite
the warning in the May 25th PIP, Respondent continued to overuse IXL.

Principal Shelton stated

by the end of May or early June, Respondent was removed from the school and did not finish the
2016-2017 school year. 29 Otherwise, Principal Shelton testified she would have been given a
notice dated June 5th described as a “final warning” regarding the NWEA standardized testing
allegations. However, since she was not at the school, she was not served with that notice.
Respondent contended the PIP’s were given to her in retaliation for having filed a
grievance regarding her workload. 30

She contended during her previous performance

27

Respondent’s Exhibit 1.

28

According to the Respondent, the grievance is pending arbitration. Transcript at p. 284-285.

29

Transcript at p. 249.

30

Transcript at pp. 281-282.

21

A-135

evaluations she was rated as “proficient,” the second highest ranking a teacher can achieve. 31
Only after she grieved did she begin to receive disciplinary notices from Principal Shelton. This
hearing officer notes the timing of the commencement of discipline is more than coincidental and
is suggestive of a mixed motive for the discipline. It is apparent from the record the Respondent
and Principal Shelton do not agree on teaching methods and that disagreement has led to
controversy and conflict over the use of the IXL program. However, no discipline resulted from
that dispute which had stretched from October 2016, through the entire month of March 2017.
Only after the grievance was filed did the Respondent receive discipline.
The timing of the discipline does not negate the fact some form of discipline was called for
under the circumstances.

The record contains ample evidence Principal Shelton told the

Respondent on numerous occasions she was overusing the IXL program, yet Respondent
continued her pattern of utilizing the program far in excess of any other member of the math
faculty. A counseling was warranted, and when Respondent persisted in her failure to comply
with Principal Shelton’s direction regarding IXL, a warning was appropriate.
The Respondent contended the collective bargaining agreement afforded her control over
the curriculum and teaching methods used in her classes.

Beyond that declaration, the

Respondent offered no testimony or documentary evidence to support her contention.
Regardless whether she has the contractual right to control her curriculum, it is a matter for
resolution in a different forum. If the Respondent wished to contest the direction given to her by
Principal Shelton, she should have done so in a proper manner - i.e. by grieving or otherwise
securing the intervention of her union representatives to address the dispute. As an employee of
CPS, the Respondent does not have the right to disregard and ignore direction from her
supervisor. Whether she believes the direction is consistent or inconsistent with the contract, she
must comply. Only under the direst of circumstances, such as instances where someone might

31

See Transcript at pp. 244-246.
22

A-136

be harmed, may an employee challenge and refuse to comply with supervisory direction. The
adage an employee should obey now and grieve later was applicable to the controversy over
curriculum between Respondent and Principal Shelton. Respondent should have curtailed her
use of the IXL program to the limitations outlined by her supervisor and addressed her contractual
concerns through the negotiated dispute resolution processes.
Principal Shelton issued Respondent a first warning and a second warning concerning her
use of IXL.32 The law requires before a tenured teacher may be dismissed, he or she must be
issued a final written warning: “Before service of notice of charges on account of causes that may
be deemed to be remediable, the teacher or principal must be given reasonable warning in writing,
stating specifically the causes that, if not removed, may result in charges...” If a teacher’s conduct
is deemed remediable - i.e. could be remedied if call to his or her attention - a warning is
required.33 Only if the conduct is considered irremediable can discharge occurred without a prior
written warning.34 In such cases it must be shown (1) the conduct caused damage to a student,
the faculty, or the school, and (2) the conduct could not have been corrected had the teacher
received a warning. 35 The Board bears the burden of proving actual damage, not inferred or
presumed damage. 36
In cases deemed remediable, the written notice must come from the Board itself, not from
a supervisor or even a principal.

As stated by the First District Appellate Court in Board of

Education v. Harris, 218 lll.App.3d 1017, 1022 (1991):
The statutory written warning, when required, must be sent by or at the direction
of the local board and must state causes that may result in charges leading to
32

Transcript at p. 248.

33

Ahmad v. Board of Education of City of Chicago, 365 lll.App.3d 155 (2006).

34

Fadlerv. Illinois State Board of Education, 153 lll.App.3d 1024 (1987).

35

Gilliland v. Board of Education of Pleasant View Consolidated School District 622, 67 III.2d 143

(1977).
36

Morris v. Illinois State Board of Education, 198 lll.App.3d 51 (1990).

23

A-137

dismissal; a written warning from a principal without prior local board approval is
insufficient. (Litin v. Board of Education (1979), 72 III. App.3d 889, 893, 391 N.E.2d
62, 64-65; cf. Stratton v. Wenona Community Unit District No. 1 (1990), 133 III.2d
413, 551 N.E.2d 640.) If insufficient written warning is given to a tenured teacher
prior to dismissal proceedings, the local board has the burden of proving not only
that causes for dismissal existed but also that those causes were irremediable.
(Parkman, 160 III. App.3d at 773,513 N.E.2d at 847; Morris v. Board of
Education (1981), 96 III. App.3d 405, 411-12, 421 N.E.2d 387, 392.) If the local
board fails to prove irremediability in such a case, it is deprived of jurisdiction to
seek dismissal of the teacher. Parkman, 160 III. App.3d at 773, 513 N.E.2d at
847; Chicago Board of Education v. Payne (1981), 102 III. App.3d 741, 749, 430
N.E.2d 310, 316.
The Petitioner failed to prove the Respondent’s conduct was irremediable. Petitioner also
failed to show Respondent’s actions were cruel, immoral, negligent or criminal or in any way
caused psychological or physical harm to a student. The Petitioner failed to prove any actual
damage from Respondent’s use of the IXL program.

There was no showing her students

performed poorly on math examinations or standardized math tests. There was no showing her
students’ math performance led to their failure to secure placement in select high schools at the
same or similar rates as other students. There was no proof of damages. Assistant Principal
Rhodes testified using or not using the IXL program for benchmark testing as Respondent was
accused of doing was “Ms. Shelton’s belief. ”

37

He stated, “I’m not here to tell you IXL isn’t a

useful tool, but rather that it is not to take the place of instruction.” 38 The dispute between
Principal Shelton and the Respondent was not over whether the IXL program should be used in
teaching her math students, but rather how much it should be used. There was no evidence a
student or students, the faculty or the school was harmed by Respondent’s use of the IXL
program, even it that use was excessive as defined by Principal Shelton.
The Petitioner argued Respondent’s behavior was irremediable.

It noted where the

alleged misconduct is immoral in nature or has no legitimate basis in school policy, the
irremediability analysis should focus on whether the effects of the conduct could have been

37

Transcript at p. 115.

38

Id.
24

A-138

corrected with a warning. However, there was no showing Respondent’s actions in using the IXL
program more frequently than directed was immoral in nature or had no legitimate basis in school
policy. Furthermore, there was no proof of any adverse effects from Respondent’s actions. What
was proven was she was directed to not use the IXL program more than 15 minutes per class
period, and she regularly exceeded that limitation.
This is not to say Principal Shelton’s direction should have been ignored. As stated
previously, Respondent should have contested their disagreement and differing teaching
philosophies in a proper manner through established dispute resolution procedures, instead of
choosing to ignore the direction. As a result of her ignoring Principal Shelton’s direction, she was
disciplined. The Petitioner proved Respondent had received a first and a second warning
regarding overuse of the IXL program. The first was issued on March 31st and the second on May
25th. No third or final warning notice from the Board was given to Respondent concerning the use
of the IXL program, at least in part because within a matter of roughly a week, she was removed
from the school over the standardized testing controversy and may well have had insufficient time
to disregard or violate the second warning. However, even if the evidence is deemed to establish
she violated the second warning during the time period between May 25th and the 31st of May
when she left the building, her conduct remained remediable and required a final written warning
from the Board or at the Board’s direction prior to seeking her termination.
V.

LIMITATIONS ON HEARING OFFICER’S AUTHORITY

During the hearing in this matter, it became apparent to this hearing officer that had this
been a just cause arbitration over the Respondent’s termination, one possible outcome might
have been some discipline short of termination. Obviously, this is not an arbitration, but a hearing
conducted under Section 34-85 of the Illinois School Code. This hearing officer asked the parties
to share their views on the limits of his authority to recommend a finding other than the polar
opposites of (1) termination or (2) complete dismissal of the charges.

25

A-139

In response, the Petitioner pointed out “[t]here is nothing in the school code that
contemplates a Hearing Officer providing a recommendation for a lesser penalty, or a penalty
other than dismissal.” 39 It also noted the ISBE regulations provide no further guidance.

The

Respondent concurred the School Code only affords the hearing officer the authority to
recommend either termination or reinstatement but noted a hearing officer is free to recommend
some alternative.40 “Previous hearing officers have done just that, and the Board has adopted
those recommendations.” 41

The Respondent noted if the teacher disagreed with the

recommendation, he or she would be free to file a grievance or seek administrative review of the
hearing officer’s recommendation based on a claim it exceeded his statutory authority.
This hearing officer declines the Respondent’s invitation to venture outside the boundaries
of his authority as defined by statute and rule. Further, it was evident from the record the threestep process of a first warning, a second warning and a final warning was a matter addressed by
CPS and the Chicago Teachers Union. Without hearing evidence and argument concerning the
parties’ contract language and mutually expressed intent, it is inappropriate for this neutral to
interfere with the parties’ process.
VI.

FINDINGS

These proceedings were an inquiry into whether there was cause to dismiss Respondent.
“Cause” has been defined as “some substantial shortcoming which renders continuance of
employment in some way detrimental to discipline and effectiveness.” E.g. Raitzik v. Board of
Education of City of Chicago, 356 III. App. 3d 813, 826 N.E. 2d 528 (1st Dist. 2005). Petitioner

39

Petitioner’s post-hearing brief at p. 22.

40

Some hearing officers have done so. See, e.g. Hearing officer Lisa Salkovich Kohn in the Bridget
Holm and Rockford School District 205, April 26, 2015, and hearing officer Steven Bierig in the CPS and
Wendy Baxter, March 19, 2018, and Carlino and Township School District No. 214, June 15, 2013.

41

See Respondent’s post-hearing brief at p. 29.

26

A-140

bore the burden of prove by a preponderance of the evidence the Respondent should be
dismissed. The hearing officer finds the Petitioner failed to meet that burden. I further find:
1.

Petitioner did not prove by a preponderance of the evidence Respondent violated
CorrectiveActionCategory"Honesty/lntegrity/Ethics-TestCheating," which prohibits any
allegation of test cheating.

2.

Petitioner did not prove by a preponderance of the evidence Respondent violated Corrective
Action Category "Performance: Failure to Perform Duties," which prohibits the failure to
perform duties.

3.

Petitioner did not prove by a preponderance of the evidence Respondent violated Corrective
Action Category "Performance: Negligence/Incompetence - Students," which prohibits the
failure to act in the manner of a reasonably prudent educator in supervision of students.

4.

Petitioner did not prove by a preponderance of the evidence Respondent violated Corrective
Action Category "Performance: Negligence/Incompetence - Other," which prohibits any
negligently or incompetently performed act in connection with duties.

5.

Petitioner did prove by a preponderance of the evidence Respondent violated Corrective
Action Category "Performance: Insubordination," which prohibits the refusal to carry out a
directive from a supervisor.

6.

Petitioner did not prove by a preponderance of the evidence Respondent violated Corrective
Action Category "Policy Compliance: Policy Non-Compliance - Students," which prohibits the
failure to follow Board policies concerning students.

7.

Petitioner did not prove by a preponderance of the evidence Respondent violated Corrective
Action Category Policy Compliance: Policy Non-Compliance - Personnel," which prohibits the
failure to follow Board policies concerning personnel.

8.

Petitioner did not prove by a preponderance of the evidence Respondent violated the Board
of Education of the City of Chicago Rule 4-4 - Employment Requirements, which requires
Board employees to conduct themselves in a manner consistent with the Board's status as
a public educational institution and with the Board's mission to provide high quality public
education, as well as to follow all Board requirements, such as maintaining a respectful,
violence free workplace and learning environment

9.

Petitioner did not prove by a preponderance of the evidence Respondent violated the Illinois
State Board of Education Rules and Regulations Code of Ethics, 22.10-20 of Title 23, which
requires Illinois educators to be responsible to:

a.
b.
c.
d.
e.

Students
Self
Colleagues and the Profession
Parents, Families, and Communities; and
Illinois State Board ofEducation.

10. Petitioner did not prove by a preponderance of the evidence Respondent violated the Illinois
27

A-141

State Board of Education Rules and Regulations Standards for All Illinois Teachers, 24.130 of
Title 23, which outlines the Illinois Professional Teaching Standards.
11. Petitioner did not prove by a preponderance of the evidence Respondent engaged in conduct
unbecoming of a Chicago Public Schoolsemployee.
SPECIFICATIONS

1. Petitioner did prove by a preponderance of the evidence for all relevant time periods,
Respondent was a teacher assigned to South Loop Elementary School ("South Loop").
2.

Petitioner did prove by a preponderance of the evidence during her employment at CPS,
including while she was assigned to South Loop, allegations were made that Respondent
failed to adequately use all instructional time in her classroom. As a result, Respondent was
counseled to refrain from wasting instructional time and to plan enough educational activities
to fill the full class period.

3.

Petitioner did prove by a preponderance of the evidence Respondent was warned and put
on notice that wasting instructional time is inappropriate and against Board rules and policies.

4.

Petitioner did not prove by a preponderance of the evidence despite being warned and put
on notice, Respondent continued to violate Board rules and policies by repeatedly failing to
adequately use all instructional timefor her classes.

5.

Petitioner did not prove by a preponderance of the evidence on or about May 26, 2017, during
a 75-minute math block, Respondent failed to perform her duties when she planned one 19question practice exam for the whole math block.

6.

Petitioner did not prove by a preponderance of the evidence on or about May 26, 2017, after
several students finished their practice exam, Respondent failed to adequately supervise her
students, resulting in several students snorting lines of an unknown white substance off their
desks in her math class.
Petitioner did not prove by a preponderance of the evidence on or about May 30, 2017,
Respondent improperly interfered with NWEA testing by suspending test sessions to give
students new questions and improperly giving student breaks to look up answers.

7.

8.

Petitioner did not prove by a preponderance of the evidence onoraboutMay30,2017,after
her testing session was moved to another classroom, Respondent disobeyed a direct
order by following those students into that classroom, left your remaining students
unattended and refused the South Loop administration's directive to leave the
classroom.
I further find Respondent’s insubordination in her refusal to carry out a directive from
Principal Shelton to limit the use of the math program IXL to not more than 15 minutes of a
75-minute class to be remediable.

28

A-142

VII.

RECOMMENDATION

In summary, the Petitioner proved only one of the charges and specifications made
against the Respondent - that she was insubordinate for exceeding the 15-minute limitation on
the use of IXL during her math classes. Specifications 1, 2 and 3 contained background
information regarding Respondent’s employment and her receipt of a prior counseling and
warning. The balance of the charges and specifications were not supported by a preponderance
of the evidence.

1.

Specification 5.

No evidence was offered to prove she only planned one 19 question

practice examination for a 75-minute school period. In fact, the evidence showed she prepared a
38-question examination, which is roughly one question every two minutes, and had a quiz ready
for a back-up should anyone succeed in finishing all 38 questions before the end of the class.
2.

Specification 6. No evidence was presented on the charge she failed to supervise her

students which resulted in several snorting lines of an unknown white substance during her class.
3.

Specification 7. The evidence failed to prove she improperly interfered with the NWEA

testing by either:
a.

suspending test sessions to give students new questions; or

b.

giving students breaks to look up answers

It was commonly known a new question would appear upon return from a restroom break.
The NWEA test manual called for administrators and proctors to give personal breaks, and
students taking a break could not look up answers to questions because they would have no idea
what new question was going to await them on their return from their break.
4.

Specification 8. The evidence failed to prove the Respondent was ordered not to follow

her students to another classroom where they were to be tested, failed to prove the Respondent
left any students unattended at any time, and failed to prove Respondent refused a directive to
leave the classroom.
The testimony and evidence presented on the charges and specifications served upon the
29

A-143

Respondent failed to establish any violation other than her failure to abide by Principal Shelton’s
direction to limit the use of the IXL math program to 15 minutes per class period; therefore, there
is no basis to terminate the Respondent’s employment as a teacher. Further, as my authority
limits my recommendation to either termination or dismissal of the charges, the evidence in this
matter compels dismissal of the charges and reinstatement with full back pay.
The evidence presented concerning Respondent’s behavior during the NWEA testing
gave this hearing officer pause. Had that behavior been included in the charges and specifications
served on the Respondent in December 5, 2017, and thus been properly before me, the same
might have been a make-weight in the outcome of these proceedings. However, those allegations
were not included in the Notice of Approval of Dismissal Charges given to Respondent and were
therefore outside the jurisdictional boundaries of these proceedings. For that reason, they were
not considered in these findings and recommendation.
It is recommended Respondent be reinstated to her employment and made whole for all
lost wages and benefits during the period of her suspension.

Date: March 14,2019

30

A-144

f -

(105 ILCS 5/34-85] (from Ch. 122, par. 34-85)
Sec. 34-85. Removal for cause; notice and hearing; suspension.
(a) No teacher employed by the board of education shall (after serving the probationary
period specified in Section 34-84) be removed except for cause. Teachers (who have
completed the probationary period specified in Section 34-84 of this Code) shall be
removed for cause in accordance with the procedures set forth in this Section or, at the
board's option, the procedures set forth in Section 24-16.5 of this Code or such other
procedures established in an agreement entered into between the board and the exclusive
representative of the district's teachers under Section 34-85c of this Code for teachers
(who have completed the probationary period specified in Section 34-84 of this Code)
assigned to schools identified in that agreement. No principal employed by the board of
education shall be removed during the term of his or her performance contract except for
cause, which may include but is not limited to the principal's repeated failure to implement
the school improvement plan or to comply with the provisions of the Uniform Performance
Contract, including additional criteria established by the Council for inclusion in the
performance contract pursuant to Section 34-2.3.
Before service of notice of charges on account of causes that may be deemed to be
remediable, the teacher or principal must be given reasonable warning in writing, stating
specifically the causes that, if not removed, may result in charges; however, no such written
warning is required if the causes have been the subject of a remediation plan pursuant to
Article 24A of this Code or if the board and the exclusive representative of the district's
teachers have entered into an agreement pursuant to Section 34-85c of this Code, pursuant
to an alternative system of remediation. No written warning shall be required for conduct
on the part of a teacher or principal that is cruel, immoral, negligent, or criminal or that in
any way causes psychological or physical harm or injury to a student, as that conduct is
deemed to be irremediable. No written warning shall be required for a material breach of
the uniform principal performance contract, as that conduct is deemed to be irremediable;
provided that not less than 30 days before the vote of the local school council to seek the
dismissal of a principal for a material breach of a uniform principal performance contract,
the local school council shall specify the nature of the alleged breach in writing and provide
a copy of it to the principal.
(1) To initiate dismissal proceedings against a teacher or principal, the general
superintendent must first approve written charges and specifications against the teacher
or principal. A local school council may direct the general superintendent to approve
written charges against its principal on behalf of the Council upon the vote of 7 members of
the Council. The general superintendent must approve those charges within 45 calendar
days or provide a written reason for not approving those charges. A written notice of those
charges, including specifications, shall be served upon the teacher or principal within 10
business days of the approval of the charges. Any written notice sent on or after July 1,
2012 shall also inform the teacher or principal of the right to request a hearing before a
mutually selected hearing officer, with the cost of the hearing officer split equally between
the teacher or principal and the board, or a hearing before a qualified hearing officer
chosen by the general superintendent, with the cost of the hearing officer paid by the
board. If the teacher or principal cannot be found upon diligent inquiry, such charges may
be served upon him by mailing a copy thereof in a sealed envelope by prepaid certified
mail, return receipt requested, to the teacher's or principal's last known address. A return
1

A-145

receipt showing delivery to such address within 20 calendar days after the date of the
approval of the charges shall constitute proof of service.
(2) No hearing upon the charges is required unless the teacher or principal within 17
calendar days after receiving notice requests in writing of the general superintendent that
a hearing be scheduled. Pending the hearing of the charges, the general superintendent or
his or her designee may suspend the teacher or principal charged without pay in
accordance with rules prescribed by the board, provided that if the teacher or principal
charged is not dismissed based on the charges, he or she must be made whole for lost
earnings, less setoffs for mitigation.
(3) The board shall maintain a list of at least 9 qualified hearing officers who will
conduct hearings on charges and specifications. The list must be developed in good faith
consultation with the exclusive representative of the board's teachers and professional
associations that represent the board's principals. The list may be revised on July 1st of
each year or earlier as needed. To be a qualified hearing officer, the person must (i) be
accredited by a national arbitration organization and have had a minimum of 5 years of
experience as an arbitrator in cases involving labor and employment relations matters
between employers and employees or their exclusive bargaining representatives and (ii)
beginning September 1, 2012, have participated in training provided or approved by the
State Board of Education for teacher dismissal hearing officers so that he or she is familiar
with issues generally involved in evaluative and non-evaluative dismissals.
Within 5 business days after receiving the notice of request for a hearing, the general
superintendent and the teacher or principal or their legal representatives shall alternately
strike one name from the list until only one name remains. Unless waived by the teacher,
the teacher or principal shall have the right to proceed first with the striking. If the teacher
or principal fails to participate in the striking process, the general superintendent shall
either select the hearing officer from the list developed pursuant to this paragraph [3) or
select another qualified hearing officer from the master list maintained by the State Board
of Education pursuant to subsection (c] of Section 24-12 of this Code.
(4) If the notice of dismissal was sent to the teacher or principal before July 1, 2012, the
fees and costs for the hearing officer shall be paid by the State Board of Education. If the
notice of dismissal was sent to the teacher or principal on or after July 1, 2012, the hearing
officer's fees and costs must be paid as follows in this paragraph (4]. The fees and
permissible costs for the hearing officer shall be determined by the State Board of
Education. If the hearing officer is mutually selected by the parties through alternate
striking in accordance with paragraph (3) of this subsection (a), then the board and the
teacher or their legal representative shall each pay 50% of the fees and costs and any
supplemental allowance to which they agree. If the hearing officer is selected by the
general superintendent without the participation of the teacher or principal, then the board
shall pay 100% of the hearing officer fees and costs. The hearing officer shall submit for
payment a billing statement to the parties that itemizes the charges and expenses and
divides them in accordance with this Section.
(5) The teacher or the principal charged is required to answer the charges and
specifications and aver affirmative matters in his or her defense, and the time for doing so
must be set by the hearing officer. The State Board of Education shall adopt rules so that
each party has a fair opportunity to present its case and to ensure that the dismissal
proceeding is concluded in an expeditious manner. The rules shall address, without
2

A-146

limitation, the teacher or principal's answer and affirmative defenses to the charges and
specifications; a requirement that each party make mandatory disclosures without request
to the other party and then update the disclosure no later than 10 calendar days prior to
the commencement of the hearing, including a list of the names and addresses of persons
who may be called as witnesses at the hearing, a summary of the facts or opinions each
witness will testify to, and all other documents and materials, including information
maintained electronically, relevant to its own as well as the other party's case (the hearing
officer may exclude witnesses and exhibits not identified and shared, except those offered
in rebuttal for which the party could not reasonably have anticipated prior to the hearing);
pre-hearing discovery and preparation, including provision for written interrogatories and
requests for production of documents, provided that discovery depositions are prohibited;
the conduct of the hearing; the right of each party to be represented by counsel, the offer of
evidence and witnesses and the cross-examination of witnesses; the authority of the
hearing officer to issue subpoenas and subpoenas duces tecum, provided that the hearing
officer may limit the number of witnesses to be subpoenaed in behalf of each party to no
more than 7; the length of post-hearing briefs; and the form, length, and content of hearing
officers' reports and recommendations to the general superintendent.
The hearing officer shall commence the hearing within 75 calendar days and conclude
the hearing within 120 calendar days after being selected by the parties as the hearing
officer, provided that these timelines may be modified upon the showing of good cause or
mutual agreement of the parties. Good cause for the purposes of this paragraph (5) shall
mean the illness or otherwise unavoidable emergency of the teacher, district
representative, their legal representatives, the hearing officer, or an essential witness as
indicated in each party's pre-hearing submission. In a dismissal hearing in which a witness
is a student or is under the age of 18, the hearing officer must make accommodations for
the witness, as provided under paragraph (5.5) of this subsection. The hearing officer shall
consider and give weight to all of the teacher's evaluations written pursuant to Article 24A
that are relevant to the issues in the hearing. Except as otherwise provided under
paragraph (5.5) of this subsection, the teacher or principal has the privilege of being
present at the hearing with counsel and of cross-examining witnesses and may offer
evidence and witnesses and present defenses to the charges. Each party shall have no more
than 3 days to present its case, unless extended by the hearing officer to enable a party to
present adequate evidence and testimony, including due to the other party's crossexamination of the party's witnesses, for good cause or by mutual agreement of the parties.
The State Board of Education shall define in rules the meaning of "day" for such purposes.
All testimony at the hearing shall be taken under oath administered by the hearing officer.
The hearing officer shall cause a record of the proceedings to be kept and shall employ a
competent reporter to take stenographic or stenotype notes of all the testimony. The costs
of the reporter's attendance and services at the hearing shall be paid by the party or parties
who are paying the fees and costs of the hearing officer. Either party desiring a transcript of
the hearing shall pay for the cost thereof. At the close of the hearing, the hearing officer
shall direct the parties to submit post-hearing briefs no later than 21 calendar days after
receipt of the transcript. Either or both parties may waive submission of briefs.
(5.5) In the case of charges involving sexual abuse or severe physical abuse of a student
or a person under the age of 18, the hearing officer shall make alternative hearing
procedures to protect a witness who is a student or who is under the age of 18 from being
3

A-147

intimidated or traumatized. Alternative hearing procedures may include, but are not
limited to: (i} testimony made via a telecommunication device in a location other than the
hearing room and outside the physical presence of the teacher or principal and other
hearing participants, (ii) testimony outside the physical presence of the teacher or
principal, or (iii) non-public testimony. During a testimony described under this
subsection, each party must be permitted to ask a witness who is a student or who is under
18 years of age all relevant questions and follow-up questions. All questions must exclude
evidence of the witness' sexual behavior or predisposition, unless the evidence is offered to
prove that someone other than the teacher subject to the dismissal hearing engaged in the
charge at issue.
(6) The hearing officer shall within 30 calendar days from the conclusion of the hearing
report to the general superintendent findings of fact and a recommendation as to whether
or not the teacher or principal shall be dismissed and shall give a copy of the report to both
the teacher or principal and the general superintendent. The State Board of Education shall
provide by rule the form of the hearing officer's report and recommendation.
(7) The board, within 45 days of receipt of the hearing officer's findings of fact and
recommendation, shall make a decision as to whether the teacher or principal shall be
dismissed from its employ. The failure of the board to strictly adhere to the timeliness
contained herein shall not render it without jurisdiction to dismiss the teacher or principal.
In the event that the board declines to dismiss the teacher or principal after review of a
hearing officer's recommendation, the board shall set the amount of back pay and benefits
to award the teacher or principal, which shall include offsets for interim earnings and
failure to mitigate losses. The board shall establish procedures for the teacher's or
principal's submission of evidence to it regarding lost earnings, lost benefits, mitigation,
and offsets. The decision of the board is final unless reviewed in accordance with
paragraph (8) of this subsection (a).
(8) The teacher may seek judicial review of the board's decision in accordance with the
Administrative Review Law, which is specifically incorporated in this Section, except that
the review must be initiated in the Illinois Appellate Court for the First District. In the event
judicial review is instituted, any costs of preparing and filing the record of proceedings
shall be paid by the party instituting the review. In the event the appellate court reverses a
board decision to dismiss a teacher or principal and directs the board to pay the teacher or
the principal back pay and benefits, the appellate court shall remand the matter to the
board to issue an administrative decision as to the amount of back pay and benefits, which
shall include a calculation of the lost earnings, lost benefits, mitigation, and offsets based on
evidence submitted to the board in accordance with procedures established by the board.
(b) Nothing in this Section affects the validity of removal for cause hearings commenced
prior to June 13, 2011 (the effective date of Public Act 97-8}.
The changes made by Public Act 97-8 shall apply to dismissals instituted on or after
September 1, 2011 or the effective date of Public Act 97-8, whichever is later. Any dismissal
instituted prior to the effective date of these changes must be carried out in accordance
with the requirements of this Section prior to amendment by Public Act 97-8.
(Source: P.A. 101-531, eff. 8-23-19.}

4

A-148

